App. 1
PUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
-----------------------------------------------------------------------

No. 18-1149
-----------------------------------------------------------------------

KENNETH D. BELL, in his capacity as courtappointed Receiver for Rex Venture Group, LLC
d/b/a ZeekRewards.com,
Plaintiff – Appellee,
v.
DURANT BROCKETT,
Defendant – Appellant,
and
RONALD COX; FRANK SCHEUNEMAN;
THERESA BRIDIE; MARC KANTOR; PAOLA
KANTOR; TIM RICE; WAYLAND WOODS; T.H.;
EDWARD ROURKE; EDDY LAYNE; CLYDE
GARRETT; LARRY ALFORD; AARON PIHA,
Movants – Appellants,
and
EDDY LAYNE; CLYDE GARRETT;
LARRY ALFORD; AARON PIHA,
Parties Below – Appellants,
and
TODD DISNER; TRUDY GILMOND; TRUDY
GILMOND, LLC; JERRY NAPIER; DARREN
MILLER; RHONDA GATES; DAVID SORRELLS;

App. 2
INNOVATION MARKETING LLC; AARON
ANDREWS; SHARA ANDREWS; GLOBAL
INTERNET FORMULA, INC.; T. LEMONT SILVER;
KAREN SILVER; MICHAEL VAN LEEUWEN;
DAVID KETTNER; MARY KETTNER; P.A.W.S.
CAPITAL MANAGEMENT LLC; LORI JEAN
WEBER; A DEFENDANT CLASS OF NET
WINNERS IN ZEEKREWARDS.COM;
DEFENDANT CLASS,
Defendants.
-----------------------------------------------------------------------

Appeal from the United States District Court for the
Western District of North Carolina, at Charlotte.
Graham C. Mullen, Senior District Judge. (3:14-cv00091-GCM)
-----------------------------------------------------------------------

Argued: January 29, 2019

Decided: April 25, 2019

-----------------------------------------------------------------------

Before NIEMEYER, KEENAN, and QUATTLEBAUM,
Circuit Judges.
-----------------------------------------------------------------------

Afﬁrmed by published opinion. Judge Quattlebaum
wrote the opinion, in which Judge Niemeyer and Judge
Keenan joined.
-----------------------------------------------------------------------

ARGUED: Paul Augustus Capua, CAPUA LAW FIRM,
PA, Boone, North Carolina, for Appellants. Irving
Michael Brenner, MCGUIREWOODS LLP, Charlotte,
North Carolina, for Appellee. ON BRIEF: Tarya
Arnshelic Tribble, TRIBBLE LAW CENTER, PA,

App. 3
Riverview, Florida, for Appellants. Kenneth D. Bell,
Charlotte, North Carolina, Jacob D. Charles,
MCGUIREWOODS LLP, Raleigh, North Carolina, for
Appellee.
-----------------------------------------------------------------------

QUATTLEBAUM, Circuit Judge:
This case involves one of the rarest types of complex litigation, the defendant class action. Defendant
class actions are so rare they have been compared to
“unicorns.” CIGNA HealthCare of St. Louis, Inc. v. Kaiser, 294 F.3d 849, 853 (7th Cir. 2002).1 In this case,
members of the defendant class argue that the district
court erred in certifying the class without simultaneously appointing counsel for the class and in failing to
properly analyze the adequacy of class counsel. We
agree that the district court failed to follow Federal
Rule of Civil Procedure 23 on both of these issues.
While these errors would prove fatal to the certiﬁcation of a class in most instances, we nevertheless afﬁrm
the district court due to the unique circumstances of
this case.
1

This analogy is apt insofar as it relates the infrequency of
defendant class actions and unicorns. But after that, the analogy
breaks down. A survey of literature reveals that unicorns are often majestic and even magical creatures with attributes superior
to those of traditional animals. One example is Jewel, the unicorn
who is King Tirian’s best friend from C.S. Lewis’s The Last Battle.
In that story, Jewel is a ﬁerce warrior with attributes that are
crucial in the battle to save Narnia from the forces of evil. In contrast, the attributes of defendant class actions are, at least at
times, not so noble. In fact, the inherent risks of such proceedings
are likely the reason for their rareness. 1 JOSEPH MCLAUGHLIN,
MCLAUGHLIN ON CLASS ACTIONS § 4:46 (15th ed. 2018).

App. 4
I.
We begin with a review of the factual and procedural background that brings us to this appeal. Because of its importance to our conclusion, we describe
this history in detail.
This case involves an alleged Ponzi scheme operated by Rex Venture Group, LLC (“RVG”). In 2011,
RVG launched ZeekRewards (“Zeek”), the “private, invitation-only Afﬁliate advertising division” of Zeekler.com. Zeekler.com was an online auction website. In
theory, Zeek offered participants (“Afﬁliates”) an opportunity to share in RVG’s revenues, including revenues
from its online auction business. Afﬁliates purchased
VIP bids, which entitled them to VIP points. The number of points an Afﬁliate purchased determined his or
her share of the daily earnings or proﬁts of RVG to
which Afﬁliates were entitled. More points entitled Afﬁliates to a greater share of RVG’s earnings or proﬁts.
Afﬁliates could earn beneﬁts and money from RVG in
other ways as well, either by recruiting new Afﬁliates
to Zeek or signing up for a subscription.
While Zeek theoretically allowed Afﬁliates to
share in the earnings of RVG, its online auction business generated only minimal revenue. In reality, an
Afﬁliate only made money when other Afﬁliates purchased VIP bids or subscriptions generating funds for
distribution. In other words, the business model necessarily robbed Peter to pay Paul. The problem with this
model was that, without material revenue from the
auction portion of the business, Zeek depended on

App. 5
signing up new Afﬁliates who would purchase VIP bids
or subscriptions. If sign ups of new Afﬁliates slowed
down or ultimately stopped, there would be no source
of money for Afﬁliates, especially those that joined
Zeek later, to recoup their investment.
Predictably, the addition of new Afﬁliates did in
fact slow down. As a result, some Afﬁliates were net
losers, receiving less money than they paid into Zeek
(“Net Losers”), and some Afﬁliates were net winners,
receiving more money than they paid into Zeek (“Net
Winners”). According to one expert, nearly 90% of Afﬁliates were Net Losers, losing approximately $822.9
million. Nearly 8% of Afﬁliates were Net Winners, receiving approximately $282.1 million in proﬁts. Of
these Net Winners, the expert determined that 14,700
individuals received at least $1,000 more in payments
from Zeek than they paid into Zeek. On the high end of
the spectrum, some received over $1,000,000.
After the SEC filed an enforcement action to
shut Zeek down and freeze RVG’s assets, the district
court appointed Kenneth Bell as the Receiver for Rex
Venture Group, LLC d/b/a www.ZeekRewards.com
(“Bell”). On February 28, 2014, Bell ﬁled a defendant
class action against the Net Winners of the Zeek
scheme under the theory that the net winnings of the
class were improper gains from a Ponzi scheme and
that the gains should be recovered and returned to the
Net Losers. Bell sought to certify the defendant class
under Rules 23(a), 23(b)(1)(A) and 23(b)(1)(B). Bell asserted that the named defendants in the action should

App. 6
be appointed class representatives of the Net Winner
class.
On July 30, 2014, Bell moved to certify the defendant class. Bell proposed a class deﬁnition “consisting of
all persons or entities who were Net Winners in
ZeekRewards . . . of more than one thousand dollars
($1000) (the ‘Net Winner Class’) . . . .” J.A. 493. In moving to certify the class, Bell argued that the proposed
class representatives and their counsel would provide
fair and adequate representation of the defendant
class’s interests under Rule 23(a)(4). Regarding the
proposed class counsel speciﬁcally, Bell argued that
“counsel retained by the proposed Class Representatives are experienced and qualiﬁed attorneys, fully capable of protecting the interests of their clients and
consequently the class.” J.A. 502. Bell also argued that
“by virtue of defending themselves, the named Defendants will inevitably and fully litigate the merits of the
claims against the other class members.” J.A. 659.
Some of the named defendants opposed class certiﬁcation. On August 29, 2014, several ﬁled an opposition to Bell’s motion for certiﬁcation arguing that the
putative class could not satisfy several of the requirements of Rule 23. Their objections were primarily economic. These named defendants argued that the
proposed class representatives could not afford to
fairly represent the class. Arguing against adequacy on
cost grounds, these defendants catalogued the extensive costs imposed upon the proposed class representatives and class counsel:

App. 7
To represent the class, defense counsel would
need to obtain, conduct, and review discovery
pertinent not just to [these defendants], but to
the class members. . . . If the Court certiﬁes a
class, the problem of class counsel providing
free services to the class members and the Receiver will compound. After certiﬁcation, Defendants will need to brief and litigate a
number of issues related to discovery, summary judgment, experts, and other matters, as
well as potentially try a case. . . . If [these defendants] received an adverse decision on
these questions, particularly certiﬁcation,
[these defendants] would be obligated to immediately appeal on behalf of themselves or
the members, solely to clarify the law at the
earliest possible stage and fully protect all
members’ rights.
J.A. 626–29. Signiﬁcantly, the named defendants did
not address the due process concerns related to defendant class actions, including whether the court could
properly assert personal jurisdiction over the absent
class members or whether absent class members
should have notice or opt out rights.
On February 10, 2015, the district court certiﬁed
the defendant class under Rules 23(a) and 23(b)(1). In
certifying the class, the district court determined that
the class representatives and their counsel would adequately represent the class. However, the district court
did not appoint class counsel at that time. Instead, it
held that counsel for the named defendants are “fully
capable of protecting the interests of their clients and

App. 8
consequently the class.” J.A. 742. It likewise did not address personal jurisdiction or opt out issues.
Although not required under Rule 23(b)(1), the
district court approved a notice of class certiﬁcation.
The notice described the certiﬁcation decision and notiﬁed class members of their membership in the class.
Describing the effect of the certiﬁcation decision on
class members, the notice provided that “[t]he Court
has not yet ruled on the merits of the claims in this
lawsuit; however, when it does so, its orders will be legally binding upon you and all other members of the
Net Winner Class.” J.A. 759. Regarding the role of class
members in the liability determination, the notice
stated that “[y]ou are not required to and there should
be no need for you to participate in the legal proceedings related to answering the common questions for
the Net Winner class.” J.A. 759. Regarding the role of
class members in the damages determination, the notice provided:
You will, however, have an opportunity to participate in the process if the Net Winner Class
is found to be required to repay their net winnings. If liability is found, the Receiver intends to seek a court Judgment against each
class member in the amount of their individualized net winnings plus interest. . . . While
the speciﬁcs of the process for determining
those amounts has not yet been decided, the
Receiver intends to seek a process that will
notify you of the amount of your net winnings
according to RVG records, allow you a reasonable opportunity to provide a response . . . and

App. 9
then either reach an agreement on the
amount or have the amount determined by a
judicial process.
J.A. 759–60. No class member objected to the district
court’s failure to appoint class counsel.
In the months following the certiﬁcation decision,
counsel for the named defendants and counsel for Bell
continued to discuss arrangements to appoint class
counsel. However, the primary issue remained the
costs of the defense. At a status conference in May
2015, counsel for defendant Durant Brockett explained:
Your Honor, I wanted to raise one issue. . . .
It’s the issue of the designation of class counsel, payment of class counsel’s fees. This is an
issue that arises I think in part because it’s a
defendant class as opposed to a plaintiff
class. . . . But we’re just in this odd place. . . .
[M]y client is not interested in spending
money on a vigorous defense. . . . I think,
Judge, your words were at the status conference we had in January that these are unusual the defendant class actions and we’re all
kind of blind and blind here. . . . So what we
had proposed was that if we were appointed
to act as class counsel, I think Mr. Edmundson
and I would agree to do that as long as we get
agreement of—a satisfactory agreement
about payment of our fees.
J.A. 806–07. Due to a reluctance of the named defendants to pay for a defense, by July 6, 2015, all counsel
for the named defendants had withdrawn except Kevin

App. 10
Edmundson, who continued to represent four of the
named defendants.
While these discussions were going on, the liability case moved forward. Prior to certiﬁcation, counsel
for the named defendants submitted proposed names
for defense experts. After certiﬁcation, counsel for the
named defendants selected the expert for the defendant class, and the district court approved the selection
on May 27, 2015, ordering the expert to begin work and
to report directly to the court. Signiﬁcantly, as counsel
for the named defendants themselves recognized,
these events occurred without the district court appointing counsel to speciﬁcally represent the absent
class members.
Finally, on September 11, 2015, the district court
entered a consent order appointing Edmundson as
class counsel. The order outlined the scope of Edmundson’s responsibilities as class counsel, noting
that the class issues before the court “relate[d] to the
alleged liability of the Net Winners to return money
won in the alleged ZeekRewards Ponzi and/or pyramid
scheme. . . .” J.A. 830. According to the terms of the order, “Mr. Edmundson shall serve as Class Counsel until
further order of this Court. However, it is not expected
that Class Counsel will be engaged to represent the
Net Winner Class following a ﬁnding, if any, of class
liability.” J.A. 830.
The order explicitly provided that any members of
the Net Winner class that objected to the order must

App. 11
ﬁle objections within thirty days of the entry of the order. No such objections were ﬁled.
Discovery in the case continued. From the record,
it appears the main discovery related to expert witnesses. On May 26, 2016, the defense expert provided
its ﬁnal report. The expert report effectively conceded
that Zeek was a Ponzi scheme. Following the completion of the defense expert’s report, Edmundson, acting
as class counsel, declined to depose Bell’s expert witness.
On June 30, 2016, Bell moved for summary judgment against the named defendants and for partial
summary judgment on all liability issues against the
Net Winner class. Bell argued that because the Zeek
scheme was “undisputedly a Ponzi scheme, the transfers of money to the defendants in excess of the money
they paid into the program . . . are fraudulent transfers
as a matter of both statutory and common law.” J.A.
940. In support of this argument, Bell cited to both his
expert report and the defense expert report.
Acting as class counsel, Edmundson ﬁled a response in opposition to the motion for partial summary
judgment against the Net Winner class on July 29,
2016. The response focused primarily on two grounds:
(1) Bell’s claims were barred by contractual waivers
and (2) the transfers were not fraudulent because the
class members acted in good faith and paid fair value
for the challenged transfers.
On November 29, 2016, the district court granted
Bell’s motion for summary judgment. The district

App. 12
court, in part relying on the defendants’ concessions,
concluded that Zeek operated as a Ponzi scheme and
that the transfers from the scheme were fraudulent
transfers. The district court rejected the arguments
raised by the defendants.
With liability for all class members determined,
the district court moved to the damages phase of the
case. On January 27, 2017, the court entered an Order
on Process for Determining the Amount of Final Judgments Against Net Winner Class Members (the “Process Order”). Pursuant to the terms of the Process
Order, Bell would send notice to individual class members of the calculations of their Net Winnings which
would be the amount of the judgment against them.
Notice would also be posted on the parties’ websites. If
class members objected to these calculations, class
members were ﬁrst required to respond to the calculation in writing and to provide evidence supporting an
alternative calculation. Objecting class members and
Bell were then obligated to negotiate to resolve the disputed calculations. If the class members and Bell failed
to reach an agreement on the calculations, the matter
would be referred to a Special Master. The order explicitly provided that individual class members “may hire
counsel at their own expense to represent them with
respect to the Request for Intervention and subsequent
proceedings before the Special Master. . . .” J.A. 1861.
If the parties did not agree that the Special Master’s
decision would be binding, then the matter could be appealed to the district court, at which point there could

App. 13
include, if appropriate, the opportunity for either party
to request an individual jury trial on damages.
The Process Order also outlined the responsibilities of class counsel in the judgment determination
process. It provided:
Class Counsel for the Net Winner Class shall
(i) post a notice on the Net Winner Class website describing the process set forth [in the order] and (ii) communicate to the Net Winner
Class the availability from the Receiver of the
Net Winnings amount for each class member.
Class Counsel shall not be required to provide
the amount of Net Winnings to each class
member or otherwise communicate with the
class members.
J.A. 1859. Regarding the future responsibilities of Edmundson, the order provided that “Class Counsel shall
continue to serve until further order of the Court, but
shall only be responsible for providing collective notice of the process for determining the Net Winnings
of individual class members as described above.” J.A.
1863.
Bell proposed the Process Order. As class counsel,
Edmundson did not object. Likewise, no class member
objected to the Process Order after its issuance and notice.
The damages phase of the case then began. Bell’s
expert determined the class members who received
more money from Zeek than they paid into Zeek. Bell
sent notice of these calculations to the Net Winner

App. 14
class on February 9, 2017. Class members were instructed to provide a response indicating whether they
accepted or disagreed with Bell’s calculation of their
net winnings sixty days from the notice date.
On June 27, 2017, Bell moved to enter ﬁnal judgments against class members who accepted Bell’s calculation of their net winnings, who submitted a
proposed alternative calculation of their net winnings
or who failed to complete a response prior to the Process Order’s deadline. On the same day, the district
court provided notice of the motion to enter ﬁnal judgments against the class members with the following
information:
The Receiver remains willing to consider voluntary settlements with Net Winner Class
members and others against whom the Receiver has claims. To date, there have been
numerous settlements approved by the Court
in which net winners and the Receiver agreed
on an amount to be repaid, often with payment terms that allowed the net winner to repay the agreed amount over a number of
months.
J.A. 2006–07.
On August 9, 2017, over two years after the district court certiﬁed the class and almost two years after the appointment of class counsel, the ﬁrst objection
from an unnamed class member was raised. Class
member Edward Rourke moved to intervene and to decertify the class. Rourke challenged the adequacy of
Edmundson as class counsel. Rourke alleged that: (1)

App. 15
Edmundson had conﬂicting interests as class counsel;
(2) Edmundson failed to obtain an independent expert
evaluation of the business and conceded the existence
of a Ponzi scheme; and (3) since Edmundson only represented the class through the liability phase of the action, there was no adequate representation of class
members during the damages phase and decertiﬁcation was warranted.
On August 14, 2017, without yet ruling on
Rourke’s motion, the district court entered ﬁnal judgment against the Net Winner class members. Then on
September 11, 2017, unnamed class members Darlene
Armel, Ronald Cox, Frank Scheuneman, Edward
Rourke, Theresa Bridie, Marc Kantor, Paola Kantor,
Tim Rice, Wayland Woods, D.W. and T.H. moved to intervene and decertify the class, and alternatively, to alter or vacate ﬁnal judgment. According to these class
members, due process required the decertiﬁcation of
the class since class counsel failed to represent the
class at important stages of the proceedings. These
class members alleged that: (1) Edmundson failed to
vigorously represent the interests of the class and unnecessarily conceded the existence of a Ponzi scheme;
(2) following the district court’s entry of summary
judgment, Edmundson failed to represent the interests
of the class; and (3) Edmundson had potential conﬂicts
of interest throughout his time as class counsel.
On October 5, 2017, Bell ﬁled a response to these
motions. Bell argued that the class should not be decertiﬁed at such a late stage in the proceedings with
over 2,500 settlements made in reliance on the

App. 16
proceedings. Bell then argued that attacks on class
counsel should be rejected as speculation regarding
strategic decisions made by class counsel. Bell also dismissed the allegations of conﬂict of interest as speculative. On October 19, 2017, the class members ﬁled a
reply, raising the additional argument that the Process
Order violated their right to a trial on damages.
Signiﬁcantly, neither Rourke in his individual motion nor the other unnamed class members raised the
failure of the district court to name class counsel at the
time it certiﬁed the class; the failure of the district
court to apply the Rule 23(g) factors in appointing class
counsel; commonality, typicality, or jurisdictional issues related to absent class members; or the absence
of opt out rights.
On January 4, 2018, the district court denied the
motions to decertify. The district court characterized
the allegations regarding the adequacy of class counsel
as “nothing less than an attempt to second guess the
strategic choices made by counsel as to the best arguments to make or investigation to pursue.” J.A. 2605.
The court noted that decertiﬁcation at late stages in
litigation was disfavored and that there were already
over 2,500 settlements of claims in reliance on the proceedings.
On February 2, 2018, Durant Brockett, Edward
Rourke, Tim Rice, Frank Scheuneman, Ronald Cox,
Theresa Bridie, Marc Kantor, Paola Kantor, Eddy
Layne, T.H., Clyde Garrett, Larry Alford, Aaron Piha
and Wayland Woods (“Class Members”) appealed

App. 17
judgments entered against them, which were certiﬁed
as ﬁnal orders on January 4, 2018. Class Members appeal all rulings and statements that contributed to the
ﬁnal order, including the orders denying the motions to
intervene and motions to decertify the class.
This Court has jurisdiction pursuant to 28 U.S.C.
§ 1291.
II.
Class Members’ appeal raises two primary issues.
First, did the district court err in failing to appoint
class counsel at the time of certiﬁcation? Second, when
the district court ﬁnally appointed class counsel, did it
err in failing to examine the Rule 23(g) factors? To address these issues, we ﬁrst consider the requirements
of Rule 23 implicated by Class Members’ arguments.
We then apply those requirements to the facts before
us on appeal.
A.
Defendant class actions, like plaintiff class actions, must comply with Rule 23. Consol. Rail Corp. v.
Town of Hyde Park, 47 F.3d 473, 483 (2d Cir. 1995).
Rule 23, which sets forth the requirements for class
actions, is designed to provide the benefits of class
actions while simultaneously avoiding the risks associated with them. The primary function of Rule 23
“is, through its various parts, to ensure the protection
of absent class members’ rights and, hence, the

App. 18
justiﬁcation of the binding effect of the resulting judgment.” 1 WILLIAM B. RUBENSTEIN, NEWBERG ON CLASS
ACTIONS § 1:10 (5th ed. 2011).
Class Members’ appeal focuses almost exclusively
on the adequacy requirement of Rule 23(a). A class action is appropriate only when both class representatives and class counsel adequately protect the interests
of the class. Rule 23(a)(4) sets out the requirement of
adequate class representatives. The rule provides that
“[o]ne or more members of a class may sue or be sued
as representative parties on behalf of all members only
if . . . the representative parties will fairly and adequately protect the interests of the class.” Fed. R. Civ.
P. 23(a)(4).
Rule 23(g) and Rule 23(c)(1)(B) address the requirements regarding class counsel. Rule 23(g) requires a “court that certiﬁes a class” to “appoint class
counsel.” Rule 23(c)(1)(B) requires an order certifying
a class to appoint class counsel under Rule 23(g). Fed.
R. Civ. P. 23(c)(1)(B). Thus, a court must appoint class
counsel at the time of certiﬁcation. 1 WILLIAM B. RUBENSTEIN, NEWBERG ON CLASS ACTIONS § 3:84 (5th ed.
2011).
In selecting who shall serve as class counsel, Rule
23(g) requires courts to consider four enumerated factors in appointing class counsel: (1) the work counsel
has done in identifying or investigating potential
claims in the action; (2) counsel’s experience in handling class actions, other complex litigation, and the
types of claims asserted in the action; (3) counsel’s

App. 19
knowledge of the applicable law; and (4) the resources
that counsel will commit to representing the class. Fed.
R. Civ. P. 23(g)(1)(A). The rule also permits courts to
consider any “other matter pertinent to counsel’s ability to fairly and adequately represent the interests of
the class.” Fed. R. Civ. P. 23(g)(1)(B).
Rule 23’s adequacy requirements provide critical
safeguards against the due process concerns inherent
in all class actions. See, e.g., Hansberry v. Lee, 311 U.S.
32, 42-43 (1940); Broussard v. Meineke Discount Mufﬂer Shops, Inc., 155 F.3d 331, 338 (4th Cir. 1998). But
they are especially important for a defendant class action where due process risks are magniﬁed. 1 JOSEPH
M. MCLAUGHLIN, MCLAUGHLIN ON CLASS ACTIONS § 4:46
(15th ed. 2018). In defendant class actions, an unnamed class member can be brought into a case, required to engage in discovery and even be subjected to
a judgment compelling the payment of money or other
relief without ever being individually served with a
lawsuit. Phillips Petroleum Co. v. Shutts, 472 U.S. 797,
808 (1985).2 Therefore, at a minimum, compliance with
2

See In re Gap Stores Sec. Litig., 79 F.R.D. 283, 292 (N.D.
Cal. 1978) (“Elemental concepts of due process require that a defendant not suffer a binding adjudication of his rights and liabilities unless there have been reasonable attempts to notify him of
the pendency of the action. . . .”); Channell v. Citicorp Nat. Servs.,
Inc., No. 91 C 3428, 1996 WL 563536, at *2 (N.D. Ill. Sept. 30,
1996) (“The Court speciﬁcally ﬁnds that the potential mass adjudication of claims against the proposed defendant class . . . raises
serious issues of fundamental fairness and unnecessary personal
jurisdiction issues.”); Ameritech Ben. Plan Comm. v. Commc’n
Workers of Am., 220 F.3d 814, 820 (7th Cir. 2000) (“Defendant
classes, initiated by those opposed to the interests of the class, are

App. 20
Rule 23 is necessary to protect against these heightened due process concerns.3 See, e.g., Sam Fox Publishing Co. v. United States, 366 U.S. 683, 691 (1961);
Bakalar v. Vavra, 237 F.R.D. 59, 64 (S.D.N.Y. 2006);
Thillens, Inc. v. Community Currency Exchange Ass’n
of Illinois, Inc, 97 F.R.D. 668, 679 (N.D. Ill. 1983).
B.
Turning now to Class Members’ argument that
the district court abused its discretion by failing to appoint class counsel at the time of certiﬁcation, Rule 23,
as noted above, commands that class counsel be appointed at the time of certiﬁcation.4 Rule 23(c)(1)(B)
plainly provides that “[a]n order that certiﬁes a class
more likely than plaintiff classes to include members whose interest diverge from those of the named representatives. . . .”); 2
WILLIAM B. RUBENSTEIN, NEWBERG ON CLASS ACTIONS § 5:1 (5th ed.
2018).
3
The due process rights of absent class members can also be
protected through other requirements of Rule 23. Although not
mandated in every type of class action, unnamed class members’
rights are protected through notice and an opportunity to opt
out of a class. Even when not required by Rule 23, courts are
empowered to provide class notice under Rule 23(c)(2). Failure
to provide notice and/or opt our rights may deprive an unnamed
defendant class member of the ability to challenge issues such as
personal jurisdiction, venue and choice of law. See Elizabeth
Barker Brandt, Fairness to the Absent Members of A Defendant
Class: A Proposed Revision of Rule 23, 1990 B.Y.U. L. REV. 909,
911 (1990).
4
A district court’s certiﬁcation decision is reviewed for an
abuse of discretion. EQT Prod. Co. v. Adair, 764 F.3d 347, 357
(4th Cir. 2014). “A district court abuses its discretion when it materially misapplies the requirements of Rule 23.” Id.

App. 21
action must deﬁne the class and the class claims, issues, or defenses, and must appoint class counsel under Rule 23(g).” Fed. R. Civ. P. 23(c)(1)(B). This
requirement is not optional.
The district court failed to follow this requirement
of Rule 23. Class counsel was not appointed on February 10, 2015 when the class was certiﬁed. In fact, class
counsel was not named until September 11, 2015. During these seven months, the liability phase of the case
continued. The district court found that, during this
time, the rights of the unnamed class members were
protected by the alignment of interests between the
class and the class representatives. Yet, while events
impacting the liability and potential damages of the
unnamed class members took place, the class had no
attorney owing duties and responsibilities to the class.
Next considering the Class Members’ argument
that the district court erred by failing to apply the Rule
23(g) factors in appointing class counsel, as outlined
above, Rule 23 requires that the adequacy of class
counsel be considered under Rule 23(g). In applying
Rule 23(g), courts must consider the four mandatory
factors and may consider other permissive factors in
assessing the adequacy of class counsel. Here, neither
the certiﬁcation order nor the consent order reference
Rule 23(g) factors, nor discuss their application to this
case.
The district court erred in failing to appoint class
counsel at the time it certiﬁed the class and in failing
to consider the Rule 23(g) factors when it named class

App. 22
counsel.5 Failure to comply with the requirements of
Rule 23 in the vast majority of cases render certiﬁcation fatally defective. However, the unique circumstances of this case compel us to afﬁrm the district
court.
First, although Class Members claim these errors
regarding class counsel were raised below, a careful review of Class Members’ objections to certiﬁcation in
the proceedings below indicates they were not. After
receiving notice of the class certiﬁcation, no class members objected to the absence of class counsel. No class
members objected to the failure of the district court to
appoint class counsel at the time of certiﬁcation after
the class received notice of Edmundson’s appointment
some seven months later. No class members objected
to the failure to appoint class counsel at the time of
certiﬁcation after receiving notice of the motion to enter ﬁnal judgments against the class. Even when Class
Members ﬁnally moved to decertify the case more than
two years after the class was certiﬁed and almost two
years after Edmundson was named class counsel, they
failed to raise this objection.
5

Certiﬁcation of this defendant class appears to implicate
other issues including commonality, typicality, possible absence
of personal jurisdiction of absent class members and absence of
opt out rights. While the district court considered commonality
and typicality in its certiﬁcation order, it did not address personal
jurisdiction issues related to absent class members or the absence
of opt out rights. These issues are of particular import in defendant class actions and should at a minimum be considered. However, because those issues were not raised below or on appeal, we
decline to address them here.

App. 23
Likewise, Class Members did not raise the district
court’s failure to apply the Rule 23(g) factors prior to
or in their decertiﬁcation motions. In fact, Rule 23(g) is
only referenced twice in each decertiﬁcation motion
and both times in the context of a simple recitation of
applicable law. See J.A. 2158 (“The adequacy of counsel
is considered under Rule 23(a)(4) and Rule 23(g).”); J.A.
2225 (same).6
Appellants may not raise arguments on appeal
that were not ﬁrst presented below to the district
court. See Devlin v. Scardelletti, 536 U.S. 1, 9 (2002)
(“[P]etitioner will only be allowed to appeal that aspect
of the District Court’s order that affects him—the District Court’s decision to disregard his objections.”); 4
WILLIAM B. RUBENSTEIN, NEWBERG ON CLASS ACTIONS
§ 14:18 (5th ed.) (“Most circuits . . . generally hold[ ]
that any issue not objected to below was ‘waived’ and
hence not available on appeal. This rule applies to objectors as well as to the parties themselves “) (footnote
omitted). As the Fifth Circuit explained “[f ]ailure to
raise a due process objection before a district court
waives that objection on appeal. Litigants must allege
constitutional violations with ‘factual detail and
6

In support of Class Members’ contention that these arguments were raised below to the district court, Class Members cite
to a few statements in their motions to decertify and to two statements in their reply in support of a motion to amend or alter judgment. These statements, however, are largely generalities and do
not explicitly advance these arguments. As discussed above, Class
Members’ motions to decertify focus almost exclusively on Edmundson’s strategic choices as class counsel and his alleged conﬂicts of interest.

App. 24
particularity.’ ” Newby v. Enron Corp., 394 F.3d 296,
309 (5th Cir. 2004) (quoting Jackson v. Widnall, 99 F.3d
710, 716 (5th Cir. 1996) (citation omitted). Similarly,
the First Circuit has held that “[a]ny argument the district court did not satisfy Rule 23(g) is waived because
[appellant] raises this claim for the ﬁrst time on appeal.” In re Pharm. Indus. Average Wholesale Price
Litig., 588 F.3d 24, 41 (1st Cir. 2009). In the same way,
we ﬁnd that Class Members waived the arguments
they now assert regarding the untimely appointment
of class counsel and the failure of the court to consider
the Rule 23(g) factors.
Second, due at least in part to the failure of any
class member, including Class Members, to object to issues surrounding the appointment of class counsel until more than two years after the district court’s order,
this litigation has progressed to an extent that it would
be difﬁcult if not impossible to remedy the errors Class
Members now raise. For example, over 2,500 class
members have resolved the claims against them. These
settlements have involved payment of funds by defendant class members and the distribution of funds to Net
Losers. At this stage of the litigation in this case, the
toothpaste cannot be put back into the tube. As one
court observed:
This court is also convinced that rescinding
[the] certiﬁcation order at this stage of the litigation would cause undue harm to Plaintiffs.
Defendants have had multiple opportunities
. . . to raise the issues they now have advocated to this court. To seek decertiﬁcation

App. 25
more than four years after [the] class certiﬁcation order with arguments that either were
presented, or could have presented . . . is unwarranted and inappropriate.
In re Sulfuric Acid Antitrust Litig., 847 F. Supp. 2d
1079, 1083 (N.D. Ill. 2011) (declining to decertify a
class in an eight-year-old-case two months before
trial).7
Once again, we ﬁnd that the district court erred in
failing to comply with the requirements of Rule 23.
However, because of the circumstances of this particular case which we describe above, we reject Class
Members’ argument that the district court’s errors regarding adequacy of class counsel warrant reversal.
Our decision, however, should not be construed to diminish the importance of compliance with Rule 23 for
7

Bell argues that any errors made by the district court in
appointing class counsel were harmless. In light of the grounds
on which we afﬁrm the district court, we need not reach a broad
holding as to whether noncompliance with Rule 23 in this or other
contexts can be considered harmless in light of the due process
and other concerns inherent in defendant class actions. However,
even if we were to consider Bell’s argument in only this limited
context, Class Members failed to show harm caused by the district
court’s errors. When asked at oral argument to identify any harm
suffered as a result of the untimely appointment of class counsel
and the failure to consider Rule 23(g) factors, Class Members’
counsel could not identify with any degree of speciﬁcity any actual
harm from the liability phase of the proceeding caused by this error. The only purported prejudice identiﬁed by Class Members
was, in actuality, either second-guessing of class counsel’s strategic decisions or concerns related to the damages phase of the proceeding. These concerns do not constitute actual harm resulting
from the district court’s errors concerning class counsel.

App. 26
all class actions and for defendant class actions in particular. The circumstances that compel us to afﬁrm the
district court here are exceedingly narrow if not
unique.8
III.
In conclusion, defendant class actions, which are
among the rarest of proceedings sanctioned under the
Federal Rules of Civil Procedure, present substantial
due process and other risks to absent class members.
To avoid these risks, at a minimum, compliance with
Rule 23 is required. The district court here failed to
comply with Rule 23 in certifying the class and in its
subsequent untimely appointment of class counsel.
8

Class Members also argue that the district court failed to
ensure adequate representation during the damages phase of the
proceeding and that the Process Order violated class members’
due process rights to defend against damages. However, the district court provided a process by which damages could be individually challenged and litigated. This process included referral to a
Special Master and ultimately the opportunity to appeal the Special Master’s decision to the district court itself. This process is in
line with other courts’ treatment of the issue and is not an abuse
of discretion. See 4 WILLIAM B. RUBENSTEIN, NEWBERG ON CLASS
ACTIONS § 11:9 (5th ed. 2011) (discussing different mechanisms
for handling the individualized damages phase of a proceeding,
including referral to a special master or agreement to an alternative dispute resolution mechanism). Indeed, under the abuse of
discretion standard, an appellate court recognizes “that a ‘district
court possesses greater familiarity and expertise than a court of
appeals in managing the practical problems of a class action.’ ”
Berry v. Schulman¸ 807 F.3d 600, 608 (4th Cir. 2015) (quoting
Ward v. Dixie Nat’l. Life Ins. Co., 595 F.3d 164, 179 (4th Cir.
2010)).

App. 27
While those errors would normally render the class
certiﬁcation deﬁcient, because of the circumstances in
this particular case, we afﬁrm the judgments of the district court. The order of the district court is
AFFIRMED.

App. 28
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT
OF NORTH CAROLINA
CHARLOTTE DIVISION
)
KENNETH D. BELL, in his
)
capacity as court-appointed
)
Receiver for Rex Venture
)
Group, LLC d/b/a
)
ZeekRewards.com,
)
Plaintiff,
)
vs.
)
TODD DISNER, in his individual )
capacity and in his capacity as )
trustee for Kestrel Spendthrift )
Trust; TRUDY GILMOND;
)
TRUDY GILMOND, LLC; JERRY )
NAPIER; DARREN MILLER;
)
RHONDA GATES; DAVID
) No. 3:14-cv-91
SORRELLS; INNOVATION
)
MARKETING, LLC; AARON
)
ANDREWS; SHARA ANDREWS; )
GLOBAL INTERNET FORMULA, )
INC.; T. LEMONT SILVER;
)
KAREN SILVER; MICHAEL VAN )
LEEUWEN; DURANT BROCKETT; )
DAVID KETTNER; MARY
)
KETTNER; P.A.W.S. CAPITAL
)
MANAGEMENT LLC; LORI
)
JEAN WEBER; and a Defendant )
Class of Net Winners in
)
ZEEKREWARDS.COM;
)
Defendants.
)

App. 29
This matter is before the Court upon Defendant
Class member Edward Rourke’s Motion to Intervene
and to Decertify Class (Doc. No. 181) and Motion to
Amend or Alter Judgment and Motion for Stay (Doc.
No. 188). For the reasons stated in this Court’s Order
of January 4, 2018 (Doc. No. 228),
IT IS THEREFORE ORDERED that these motions are hereby DENIED.
Signed: January 5, 2018
/s/ Graham C. Mullen
Graham C. Mullen
United States District Judge

App. 30
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT
OF NORTH CAROLINA
CHARLOTTE DIVISION
KENNETH D. BELL, in his
capacity as court-appointed
Receiver for Rex Venture
Group, LLC d/b/a
ZeekRewards.com,
Plaintiff,
vs.
TODD DISNER, in his individual
capacity and in his capacity as
trustee for Kestrel Spendthrift
Trust; et al.
Defendants.

)
)
)
)
)
)
) Civil Action
) No. 3:14-cv-91
)
)
)
)
)
)

ORDER
THIS MATTER IS BEFORE THE COURT on
Kenneth Bell’s (the “Receiver”) Motion to Clarify that
Previous Judgments Entered by This Court are Final
Judgments Under Fed. R. Civ. P. 54(b) (“Motion”). For
the reasons discussed herein, Receiver’s Motion is
GRANTED and the default judgments and other judgments entered to date against Defendants in this action, including but not limited to those entered on July
3, 2014; August 25, 2014; December 17-18, 2014; May
11, 2015; May 29, 2015; October 1, 2015; December 9,
2016; December 13, 2016; and August 14, 2017, are certiﬁed as Final Judgments under Fed. R. Civ. P. 54(b).

App. 31
This Class Action was brought on February 28,
2014. Dkt. No. 1. The Class was certiﬁed on February
10, 2015. Dkt. No. 101. Following motions for summary judgment, judgments were entered by this
Court in favor of the Receiver on December 9, 2016,
December 13, 2016, and August 14, 2017. Dkt. Nos.
145-51, 179. These claims have been fully and fairly
litigated before this Court.
A Court may “direct entry of a ﬁnal judgment” in
a suit where “multiple parties are involved . . . as to
one or more, but fewer than all, claims or parties” only
after making an express determination that “there is
no just reason for delay.” Fed. R. Civ. P. 54(b). This determination is dependent upon consideration of “judicial administrative interests as well as the equities
involved.” Remediation Prods., Inc. v. Adventus Americas, Inc., No. 3:07cv1530RJC-DCK, 2011 WL 127924 at
*1 (W.D.N.C. April 1, 2011). This Court has examined
the record in this case, and upon a consideration of judicial administrative interests and equity to the parties, now expressly determines that there is no just
reason for delay.
This litigation has been going on for more than
three and a half years. The judgments awarded in this
case have been the subject of numerous motions and
hearings, and all parties have been fully and fairly represented. This Court recognizes that all parties have a
legitimate interest in ﬁnality, and certifying these
judgments under Rule 54(b) protects that interest.
In addition, certiﬁcation under Rule 54(b) conserves judicial administrative resources. Until these

App. 32
judgments are certiﬁed as ﬁnal, they are subject to motions to intervene and motions asking the Court to reconsider previously rendered judgments. See Hart v.
Louisiana-Paciﬁc Corp., No. 2:08-CV-47-BO; 2013 WL
4749499 at *1 (E.D.N.C. Sept. 3, 2013) (holding that “a
court may reconsider its own orders entered before entry of ﬁnal judgment” under Rule 54(b) in a class action). Certifying these judgments as ﬁnal fairly limits
the number of future motions to intervene, motions to
decertify the class, and motions seeking to alter previous orders that can be ﬁled. Accordingly, judicial administrative resources are conserved by certiﬁcation
under Rule 54(b).
Accordingly, this Court has examined the record
and now makes an express determination that there is
no just reason for delay. IT IS, THEREFORE, ORDERED that Receiver’s Motion to Clarify that Previous Judgments Entered by This Court are Final
Judgments Under Fed. R. Civ. P. 54(b) is GRANTED,
and the default judgments and other judgments entered to date against Defendants in this action, including but not limited to those entered on July 3, 2014;
August 25, 2014; December 17-18, 2014; May 11, 2015;
May 29, 2015; October 1, 2015; December 9, 2016; December 13, 2016; and August 14, 2017, are certiﬁed as
FINAL ORDERS under Fed. R. Civ. P. 54(b).
Signed: January 4, 2018
/s/ Graham C. Mullen
Graham C. Mullen
United States District Judge

App. 33
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT
OF NORTH CAROLINA
CHARLOTTE DIVISION
3:14cv91
KENNETH D. BELL, in his capacity
as court-appointed Receiver for
Rex Venture Group, LLC d/b/a
ZeekRewards.com,
Plaintiff,
vs.
TODD DISNER, in his individual
capacity and in his capacity as
trustee for Kestrel Spendthrift
Trust; TRUDY GILMOND; TRUDY
GILMOND, LLC; JERRY NAPIER;
DARREN MILLER; RHONDA GATES;
DAVID SORRELLS; INNOVATION
MARKETING, LLC; AARON
ANDREWS; SHARA ANDREWS;
GLOBAL INTERNET FORMULA,
INC.; T. LEMONT SILVER;
KAREN SILVER; MICHAEL VAN
LEEUWEN; DURANT BROCKETT;
DAVID KETTNER; MARY KETTNER;
P.A.W.S. CAPITAL MANAGEMENT
LLC; LORI JEAN WEBER; and a
Defendant Class of Net Winners in
ZEEKREWARDS.COM;
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)
) ORDER
)
)
)
)
)
)
)
)
)
)
)
)

This matter is before the Court on defendant class
member Jeff Pollard’s pro se “Notice of Failure of

App. 34
Service of Process Demand to Set Aside Final Judgment. (Doc. No. 193). The Receiver has responded and
the motion is ripe for disposition.
Mr. Pollard won $3,585 in the ZeekRewards
scheme and a Final Judgment of $4,815 was entered
against him on August 14, 2017. A motion to reconsider
a Judgment (here presumably under Rule 59(e)) may
be granted to prevent manifest injustice, to accommodate for an intervening change in controlling law, to account for newly discovered evidence or to correct a
clear error of fact or law. See EEOC v. Lockheed Martin
Corp., 116 F.3d 110, 112 (4th Cir. 1997).
None of these grounds apply to this action. There
has been no intervening change in controlling law,
newly discovered evidence or clear error of fact or law
since the entry of the Final Judgments. Therefore, is no
manifest injustice here and there are no valid grounds
to alter or amend the Judgments. Pollard was served
and provided notice in full accordance with the prior
orders of this Court as a member of the Net Winner
Class. Also, Pollard had admittedly produced no evidence beyond his conclusory denial of liability for the
amount of the Final Judgment.
IT IS THEREFORE ORDERED that this motion
is hereby DENIED.
Signed: January 4, 2018
/s/ Graham C. Mullen
Graham C. Mullen
United States District Judge

App. 35
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT
OF NORTH CAROLINA
CHARLOTTE DIVISION
3:14cv91
KENNETH D. BELL, in his capacity
as court-appointed Receiver for
Rex Venture Group, LLC d/b/a
ZeekRewards.com,
Plaintiff,
vs.
TODD DISNER, in his individual
capacity and in his capacity as
trustee for Kestrel Spendthrift
Trust; TRUDY GILMOND; TRUDY
GILMOND, LLC; JERRY NAPIER;
DARREN MILLER; RHONDA GATES;
DAVID SORRELLS; INNOVATION
MARKETING, LLC; AARON
ANDREWS; SHARA ANDREWS;
GLOBAL INTERNET FORMULA,
INC.; T. LEMONT SILVER;
KAREN SILVER; MICHAEL VAN
LEEUWEN; DURANT BROCKETT;
DAVID KETTNER; MARY KETTNER;
P.A.W.S. CAPITAL MANAGEMENT
LLC; LORI JEAN WEBER; and a
Defendant Class of Net Winners in
ZEEKREWARDS.COM;
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)
) ORDER
)
)
)
)
)
)
)
)
)
)
)
)

This matter is before the Court upon motion of
Net Winner Class members Darlene Armel, Ronald

App. 36
Cox, Frank Scheuneman, Edward Rourke, Theresa
Bridie, Marc Kantor, Paola Kantor, Tim Rice, Wayland
Woods and two movants listed only as D.W. and T.H.
(collectively “Movants”) to intervene in this action and
decertify the class or alter the Final Judgments issued.
(Doc. No. 196). This matter has been fully briefed and
is ripe for disposition.
FACTUAL BACKGROUND
This Court certiﬁed the Net Winner Class (over
the opposition of a number of net winners who were
represented by counsel) on February 10, 2015, more
than two and a half years ago. See Doc. No. 101. In the
certiﬁcation Order, the Court explained the basis for
the certiﬁcation of the Class and responded to the
same concerns over commonality and alleged conﬂicts
expressed in the Movants’ motions. While acknowledging the challenges of a defendant class action and the
due process concerns of those opposed to the Class, the
Court concluded that “the Court is ﬁrmly convinced a
class action is the only means to reasonably and efﬁciently resolve the Receiver’s claims against 9,400 Net
Winners.” Id. at p.12.
Class Counsel Kevin Edmundson was appointed
on September 14, 2015. The Court provided a 30 day
period of time for objections to his appointment. None
of the Movants (or any other net winner) expressed an
objection to Mr. Edmundson based on his representation of other net winners, which was a matter of record
and speciﬁcally stated in the Order appointing him

App. 37
Class Counsel. See Consent Order Appointing Class
Counsel, Doc. No. 125 at pp. 2, 4. Subsequently, the
Court authorized the defendant class to engage an expert witness, Berkeley Research Group (“BRG”), at the
primary expense of the Receivership.
BRG was given an expansive opportunity to review the RVG records and ask questions of FTI, the
Receiver’s expert, but was unable to raise any material
objections or evidence that challenges FTI’s conclusions. In its initial report dated January 18, 2016, BRG
agreed that it was able to “replicate the exhibits in the
Turner Report [the Receiver’s ﬁnancial expert’s report], within a reasonable margin of difference.” Then,
in its “Phase II” report, BRG reached two conclusions
(bolded in the report):
a) [B]ased upon a preliminary analysis, it
does not appear that the magnitude of proﬁt
from the auction business would materially impact the assessment of whether or not the business, taken as a whole, operated as a Ponzi
scheme.
b) As a result of our testing in Phase II, we
have not found evidence that deﬁnitively disproves that the business as a whole operated as
a Ponzi scheme.
These ﬁndings on the existence of a Ponzi scheme were
consistent with the ﬁndings of the Receiver’s expert. In
addition, the ﬁnding of the existence of a Ponzi scheme
by all concerned was consistent with the guilty pleas

App. 38
and/or criminal convictions of those who ran the
scheme.
On June 30, 2016, the Receiver moved for summary judgment against the named net winners on liability and damages and the Class on liability. While
Class Counsel had no choice but to concede the existence of a Ponzi scheme based on the Defendants’ expert
report and the other facts in the record, Class Counsel
vigorously opposed the Receiver’s motion on other
grounds. On November 29, 2016, the Court granted the
Receiver’s Motion for Summary Judgment.
Following entry of Summary Judgment on liability, the Court approved a process reached after consultation between the Receiver and Class Counsel that
provided a fair and thorough process for determining
the amount of each class member’s net winnings. See
Doc. No. 153. This process, to which none of the Movants or any Class member objected, included both an
opportunity for Class members to dispute the amount
of their net winnings to the Receiver and to present
any unresolved dispute over the amount to a Special
Master or, ultimately, to the Court. A number of the
Movants participated in this process but stopped short
of referring their disputes to the Special Master.
The Receiver’s Motion seeking Final Judgments
against the remaining Movants who chose not to disagree with the amount of their net winnings or for
whom the Receiver accepted their alternate amount
was ﬁled on June 27. 2017 (Doc. No. 166). In the Notice
by the Court related to the Receiver’s June 27 motion

App. 39
(Doc. No. 167), the Court stated that “[t]he Court expects to rule on the Receiver’s Motion and enter Final
Judgments as appropriate on or after July 31, 2017.”
Final Judgments were accordingly entered on August
14, 2017. Movants ﬁled the present motion on September 11, 2017. Therefore, despite being on notice that
any ﬁling challenging the Receiver’s motion seeking
Final Judgments should have been made before July
31, 2017, Movants failed to do so.
DISCUSSION
As members of the Net Winner Class, the Movants
may seek to alter or amend the certiﬁcation of the
Class “before ﬁnal judgment.” See Fed. R. Civ. Proc.
23(c)(1)(C). While Final Judgment has already been
entered against a number of the Movants, Judgment
has not been entered against at least two of the Movants. Therefore, those Movants, as Class members,
may seek decertiﬁcation of the Class. Because one or
more Movants can seek decertiﬁcation as members of
the Class the issue of “intervention” under Rule 24 is
moot and need not be reached by the Court.
The Movants seek to decertify the Net Winner
Class on the grounds that Class Counsel has not adequately protected the interests of the members of the
Class. Movants criticize class counsel for “unnecessarily conced[ing] the existence of a Ponzi scheme,”
“not depos[ing] the Receiver’s expert” or “challeng[ing]
the [expert’s] ﬁndings,” and not “vigorously arguing . . .
that [the expert’s] . . . calculations were . . . ﬂawed and

App. 40
unreliable.” (Doc. No. 197 at pp. 12-13). These criticisms are nothing less than an attempt to second guess
the strategic choices made by counsel as to the best arguments to make or investigation to pursue. This includes the decision of counsel to concede the existence
of a Ponzi scheme in the face of not only overwhelming
ﬁnancial evidence but also the guilty pleas and criminal convictions of those who operated the scheme.
Class counsel has submitted a Declaration summarizing his work and addressing these criticisms. (Doc. No.
222-1).
Courts are in agreement that “speculation as to
the basis for certain strategic decisions made by counsel for the Class is not a sufﬁcient basis to show that
counsel for the Class is not adequate.” Morales v. Kraft
Foods Grp., Inc., LA CV14-04387 JAK (PJWx), 2017
WL 2598556 at *29 (C.D. Cal. June 9, 2017); see also In
re Community Bank of Northern Virginia, 622 F.3d
275,305 (3d Cir. 2010), as amended (Oct. 20, 2010)
(“[r]epresentation is not inadequate simply because
[an attorney denied appointment as class counsel] . . .
ha[s] different views on the facts, the applicable law, or
the likelihood of success of a particular litigation strategy”) (citation omitted); Bradley v. Milliken, 828 F.2d
1186, 1192 (6th Cir. 1987) (a “mere disagreement over
litigation strategy . . . does not, in and of itself, establish inadequacy of representation.”). The Court ﬁnds
that class counsel has adequately represented the
Class in accordance with the facts and applicable law.
In addition to arguing that class counsel was inadequate, Movants contend that potential conﬂicts

App. 41
existed where class counsel represented a member of
the Class in another action related to the Ponzi
scheme. Courts have generally held that the mere existence of parallel representation does not create an insurmountable conﬂict of interest. See In re Nat’l
Football League Players Concussion Injury Litig., 821
F.3d 410, 429-30 (3d Cir. 2016) (ﬁnding no conﬂict of
interest when a lawyer represented a subclass for future claimants of injury and also represented nine
plaintiffs with current symptoms in two separate lawsuits against the defendant); Sandoval v. M1 Auto Collisions Centers, 309 F.R.D. 549,569 (N.D. Cal. 2015)
(“class counsel will not necessarily be disqualiﬁed
merely for representing another class against the same
defendants”); Mehl v. Canadian Paciﬁc Railway Ltd.,
227 F.R.D. 505, 515 (D.N.D. 2005) (“Most courts have
held that class counsel may represent more than one
class against the same set of defendants”) (citing Dietrich v. Bauer, 192 F.R.D. 119 (S.D.N.Y. 2000)).
Further, Courts are in general agreement that
“speculative” conﬂicts resting on “string[s] of suppositions . . . do not preclude a ﬁnding that class counsel is
adequate.” In re BearingPoint, Inc. Securities Litigation, 232 F.R.D. 534, 541 (E.D. Va. 2006); see also Sandoval, 309 F.R.D. at 569 (ﬁnding that the purported
conﬂict of interest did not merit disqualiﬁcation in part
because the conﬂict was “illusory and speculative”);
Clark v. TAP Pharmaceutical Prods., Inc., 798 N.E.2d
123, 134 (Ill. App. 2003) (“the potential conﬂicts are
speculative at this time and do not render counsel inadequate”); Sheftelman v. Jones, 667 F. Supp. 859, 865

App. 42
(N.D. Ga. 1987). The Court ﬁnds that Movants’ arguments herein as to purported conﬂicts are entirely
speculative and do not render Class counsel inadequate.
Movants make other arguments regarding issues
that they contend require decertiﬁcation. However,
these issues have either already been addressed by the
Court after extensive adversarial brieﬁng, reﬂect Movants’ misunderstanding of the facts, or disregard the
fact that afﬁliates have been given the opportunity to
dispute any portion of the claims against them.
Finally, courts are appropriately reluctant to decertify classes in late stages of litigation. Indeed, “the
Court may not disturb its prior [certiﬁcation] absent
some signiﬁcant intervening event or a showing of
compelling reasons to reexamine the question.” See
Doe v. Karadzic, 192 F.R.D. 133, 136-37 (S.D.N.Y. 2000)
(internal citations omitted). The Net Winner Class
herein has been certiﬁed for over two and a half years.
There have been over 2500 settlements of Class member claims in reliance on these proceedings as well as
an extensive process to determine the merits of the action both for liability and damages. This action has proceeded publicly with Class members having the
opportunity both to oppose the processes ordered by
the Court (which they did not do) and to participate
directly on their own behalf (which some did and some
did not). There has been no signiﬁcant intervening
event or a showing of compelling reasons to reexamine
class certiﬁcation.

App. 43
IT IS THEREFORE ORDERED that Movants’
Motion to Intervene (Doc. No. 195) and Motion to Decertify Action as a Class Action and, Alternatively, to
Alter or Vacate Final Judgment (Doc. No. 196) are
hereby DENIED.
Signed: January 4, 2018
/s/ Graham C. Mullen
Graham C. Mullen
United States District Judge

App. 44
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT
OF NORTH CAROLINA
CHARLOTTE DIVISION
3:14CV91
KENNETH D. BELL, in his capacity
as court-appointed Receiver for
Rex Venture Group, LLC d/b/a
ZeekRewards.com,
Plaintiff,
v.
TODD DISNER, in his individual
capacity and in his capacity as
trustee for Kestrel Spendthrift
Trust; TRUDY GILMOND; TRUDY
GILMOND, LLC; JERRY NAPIER;
DARREN MILLER; RHONDA GATES;
DAVID SORRELLS; INNOVATION
MARKETING, LLC; AARON
ANDREWS; SHARA ANDREWS;
GLOBAL INTERNET FORMULA,
INC.; T. LEMONT SILVER;
KAREN SILVER; MICHAEL VAN
LEEUWEN; DURANT BROCKETT;
DAVID KETTNER; MARY KETTNER;
P.A.W.S. CAPITAL MANAGEMENT
LLC; LORI JEAN WEBER; and a
Defendant Class of Net Winners in
ZEEKREWARDS.COM;
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

ORDER

This matter is before the Court upon the Receiver’s
Motion for Summary Judgment Against Remaining

App. 45
Named Defendants and Partial Summary Judgment
Against the Net Winner Class. The matter is fully
briefed and ripe for consideration.
I.

FACTUAL BACKGROUND AND UNDISPUTED FACTS
A. Procedural History of the SEC Action
and this Litigation

This “clawback” litigation was initiated by the Receiver of Rex Venture Group, LLC (“RVG”), a Nevada
limited liability company with its former principal
place of business in Lexington, North Carolina. The
Complaint alleges as follows: Paul Burks, the owner
and former top executive of RVG, and other management insiders used RVG in their operation of a massive Ponzi and pyramid scheme through ZeekRewards
(“Zeek”) from at least January 2011 until August 2012.
Compl. at ¶¶ 1, 6–9. Over 700,000 participants lost
over $700 million dollars in the scheme. Id. at ¶ 1.
Burks and the management insiders used ZeekRewards to promise substantial payouts and outsize returns to all participants, but few actually beneﬁtted.
Id. at ¶ 2. Those who did beneﬁt were paid not with
proﬁts from a legitimate retail operation, but rather
from money paid in by later investors in the scheme.
Id. at ¶ 3. The largest “net winners” (those who received more money from Zeek than they paid in to
Zeek) each received well over a million dollars, and
many others received hundreds of thousands of dollars.
Id. at ¶¶ 2, 12–25.

App. 46
On August 17, 2012, the Securities and Exchange
Commission ﬁled an action in this Court, Securities
and Exchange Commission v. Rex Venture Group, LLC
d/b/a ZeekRewards.com and Paul Burks, Civil Action
No. 3:12-cv-519 (the “SEC Action”), to obtain injunctive
and monetary relief against Paul Burks, shut down the
ZeekRewards Ponzi and pyramid scheme, freeze RVG’s
assets, and seek appointment of a Receiver for RVG.
Id. at ¶ 26. Also on August 17, RVG, through Burks,
admitted to this Court’s jurisdiction over RVG and the
subject matter of the SEC action, and it consented to
entry of judgment in favor of the SEC. SEC Action, Doc.
No. 5 at ¶¶ 1–2. As a result, the Court entered consent
judgments against RVG and Burks enjoining them
from violating the federal securities statutes or participating in, or facilitating, the solicitation of any investment in any security or in the offering of a security.
SEC Action, Doc. Nos. 6, 8.
That same date, in an Agreed Order Appointing
Temporary Receiver and Freezing Assets of Defendant Rex Venture Group, LLC (the “Agreed Order”), this
Court appointed Kenneth D. Bell as the Receiver over
the assets, rights, and all other interests of the estate
of Rex Venture Group, LLC, d/b/a www.ZeekRewards.
com and its subsidiaries and any businesses or business names under which it does business (the “Receivership”). Compl. at ¶ 27. The Order authorized and
directed Mr. Bell as RVG’s Receiver to institute actions
and legal proceedings seeking the avoidance of fraudulent transfers, disgorgement of proﬁts, imposition of
constructive trusts and any other legal and equitable

App. 47
relief that the Receiver deems necessary and appropriate to preserve and recover RVG’s assets for the beneﬁt
of the Receivership Estate. Id. Within 10 days of his
reappointment on December 4, 2012, the Receiver ﬁled
the original Complaint and Agreed Order in the SEC
Action in all of the United States District Courts pursuant to 28 U.S.C. § 754 giving this Court jurisdiction
over RVG’s property in every federal district.1
The Receiver ﬁled this clawback action on February 28, 2014, asserting claims of relief against Defendants for: (1) Fraudulent Transfer of RVG Funds in
Violation of the North Carolina Uniform Fraudulent
Transfer Act (“NCUFTA”); (2) Common Law Fraudulent Transfer; and (3) Constructive Trust. Pursuant to
Federal Rules of Civil Procedure 23(a) and (b)(1)(A)
and (B), the Receiver moved on July 30, 2014 to certify
a defendant class consisting of all persons or entities
who were “Net Winners” in ZeekRewards in an amount
in excess of one thousand dollars ($1,000) (the “Net
Winner Class”).2 See Doc. No. 68. Net Winner Class
members are defined as those ZeekRewards participants
who received more money from RVG/ZeekRewards
(as “profit payments,” “commissions,” “bonuses” or any
1

This Court has previously ruled that the Receiver has
standing to bring the claims asserted against the Defendants and
this Court has subject matter jurisdiction over this action and
personal jurisdiction over the Defendants. Order dated December
9, 2014 (Doc. No. 90).
2
Excluded from the Net Winner Class in this action were
persons or entities that have entered into a settlement agreement
approved by this Court or who resided outside the United States
at the time of their participation in ZeekRewards.

App. 48
other payments) than was paid in to RVG/ZeekRewards
for the purchase of “bids,” monthly “subscriptions,”
“memberships,” or other fees. Each of the named Defendants in this action won in excess of $900,000 (either individually or together with another family
member or through their shell corporation). Compl. at
¶ 2.
In February 2015, this Court certified the Net Winner Class under both Rule 23(b)(1)(A) and (b)(1)(B),
noting that “the efﬁciency of one action in which all
parties can argue their case and assert their rights will
beneﬁt both the Receiver and small winners,” consistent with the intent of the rules permitting class actions. See Doc. No. 101. The common class questions to
be resolved with respect to the Net Winner Class include “whether ZeekRewards operated as a Ponzi
and/or pyramid scheme” and “whether the payments
from ZeekRewards to class members are fraudulent
transfers that must be disgorged and repaid.” Id. at 4–
5. On September 14, 2015, the Court appointed Kevin
Edmundson as class counsel and subsequently the
Court authorized the Defendant Class to engage an expert witness, Berkeley Research Group (“BRG”), at the
primary expense of the Receivership.
B. The Ponzi Scheme
Beginning at least as far back as 2000, Paul Burks
operated a number of generally unsuccessful multilevel marketing businesses through Rex Venture
Group, LLC (and related entities). In 2010, RVG

App. 49
launched Zeekler.com, a so-called “penny auction” website where items ranging from personal electronics to
cash were auctioned to bidders. A “penny auction” does
not work like a typical auction. In a normal auction, it
costs nothing to bid, and the auction price rises based
on the amount of the bid until there is no higher bid or
the amount of time set for the auction expires. In a
“penny auction,” bids must be purchased by bidders
(e.g., for $1 per bid), and each incremental bid placed
raises the amount of the total price of the auction item
only by $0.01. Penny auctions have a timer, but unlike
a typical auction, each new bid at the end of the timer
resets the bid clock, usually for 30 seconds to a minute.
The penny auction ends when the bid clock expires
with no new bid. The winner then pays the auction
price (plus the cost of bids used), which is typically well
below the retail price. However, the unsuccessful bidders lose all the money they spent to purchase bids.
During 2010, the Zeekler penny auctions were not
very successful. RVG’s fortunes changed in 2011 when
RVG launched a new money-making scheme—ZeekRewards. RVG promoted ZeekRewards as Zeekler.com’s
“private, invitation-only afﬁliate advertising division.”
Bell Aff. at Ex. 4. In reality, ZeekRewards was just a
multi-level marketing scheme grafted onto the Zeekler
business. It purported to pay a portion of the alleged
“proﬁts” from the Zeekler penny auction business to
participants who earned bid balances or points, primarily by buying auction bids. RVG told potential participants that “Zeekler tallies total sales and pays a
percentage to all active ZeekRewards members.” Id. at

App. 50
Ex. 5. Also, participants in ZeekRewards, called “Afﬁliates,” were paid for recruiting other participants in a
pyramid “multi-level” sales format.
Bidders on the Zeekler penny auctions could purchase bids at retail for $0.65, or they could acquire bids
as ZeekRewards afﬁliates (or as free samples from
RVG or an afﬁliate). ZeekRewards afﬁliates paid $1 for
what RVG variously referred to as “compounding,”
“sample” or “VIP” bids. The retail bids and the compounding/sample/VIP bids all had the same effect in
the auctions—placing a bid raised the price of an auction item by one cent. However, bids bought through
ZeekRewards rather than as retail bids were more valuable because purchasing those bids gave the afﬁliates
“points” that supposedly entitled Afﬁliates to a portion
of the proﬁts from the business. This was the real (and
only) reason Afﬁliates would pay $1 for auction bids
they could buy for $.65. See Brockett Dep. at 77–78.
Further, ZeekRewards made clear that even
though bids bought through ZeekRewards could be
used in the auctions, that fact was irrelevant to the
multi-level marketing scheme. Afﬁliates were told that
using the bids in the auction would have no effect on
their all-important bid or points balance (“Each time
you buy a Compounding Bid in your ZeekRewards
Back Ofﬁce a bid is added to the Compounding bucket.
Spending the bid in an auction does not remove it from
the bucket.”) (emphasis added). Bell Aff. at Ex. 7. Not
surprisingly, even though a largely bogus “bid giveaway requirement” was added later in the scheme, relatively few ZeekRewards participants or “bid giveaway”

App. 51
recipients used their sample/VIP bids in the Zeekler
auctions. Prior to shutdown, RVG estimated that only
approximately 19 million VIP bids were used in auctions out of over 7 billion VIP bids created—less than
1/3 of 1%. See, e.g., Id. at Ex. 8.
From the beginning, RVG intended to use “bids”
in ZeekRewards not as a product but as a proxy for
money deposited into the program. Quickly, RVG’s focus changed from Zeekler to ZeekRewards, which was
the source of nearly all the company’s income. Relative
to ZeekRewards, little or no money was made in the
Zeekler “penny auction” business.
The sale of compounding/sample/VIP bids in
ZeekRewards dwarfed the sale of “retail” bids. According to the ZeekRewards database, ZeekRewards sold
approximately $820 million in compounding/sample/
VIP bids, but only about $10 million in retail bids were
sold. See Turner Report at 8. While over $400 million
dollars was paid out to ZeekRewards Afﬁliates over the
course of the scheme, the money used to fund ZeekRewards’ distributions to Afﬁliates came almost entirely
from new participants rather than income from the
Zeekler penny auctions. Id. at Exhibit E. Only about
$10 million dollars in retail bids were sold (of which
$2.3 million reﬂected purchases by net losing Afﬁliates). So, the “proﬁt” from the penny auction business,
if there was any at all, could not have supported even
3% of the total payments made to participants.
Burks and the other Insiders were aware that the
payouts to Afﬁliates would be funded by new

App. 52
participants rather than retail proﬁts from the penny
auctions. Dawn Wright-Olivares excitedly told Burks
early in the scheme, “I think we can blow this OUT together-we’ve already attracted a great many big
ﬁshes.” Bell Aff. at Ex. 4.
ZeekRewards succeeded because it promoted a lucrative “compensation plan,” offering large amounts of
passive income to entice individuals to participate in
the scheme. The participants in the ZeekRewards
scheme invested money in the scheme by buying socalled “bids/points,” “memberships,” “subscriptions,”
customer names, and other items related to the
scheme. The compensation plan consisted primarily of
two components: (1) the “Compounder,” also known as
the “Retail Proﬁt Pool” or “RPP,” which supposedly allowed participants to collectively share up to 50% of
Zeek’s net retail proﬁts and receive a 125% return on
investment; and (2) the “Matrix,” which was a multilevel marketing commission program.
Initially, ZeekRewards promised a 125% return on
a passive investment, describing the program as follows: “What if you found a very simple and quick way
to earn 125% proﬁt on the dollars you spend with us
without ever having to sell a thing or recruit a soul?”
Id. at Ex. 10. Another pitch touted the income participants would receive: “I found something I believe is
absolutely out of this world . . . it’s called the ‘Compounder’ and “grows income for you by compounding it
daily;” . . . “the new system [lets] you earn every 24
hours and can generate for you 4 or 5 ﬁgures or more
per month. . . .” “[I]f you’ve ever wanted to earn 5

App. 53
ﬁgures or more monthly, passively, then this is your
chance.” Id. at Ex. 11. Similarly, de Brantes boasted
that by participating in ZeekRewards: “Many are currently receiving $2,000 to $3,000 per month PASSIVELY.” (emphasis in original). Id. at Ex. 12.
Early ZeekRewards participants were told to expect proﬁt shares of .5% to 4% daily. Id. at Ex. 10. The
ﬁrst day the Compounder share percentage was allocated to participants was January 20, 2011, and the
share percentage was 3.24%. Id. at Ex. 13. As the
scheme progressed, participants continued to be told to
expect large, consistent daily returns. On May 14,
2011, Paul Burks told Michael VanLeeuwen (“Coach
Van”) that “our goal has always been 1% Mon-Thurs
and 1/2% weekends, Fri-Sun. We have always maintained those averages and exceeded them often.” Id. at
Ex. 14.
And, even after counsel advised against publicly
promoting a 125% return, RVG continued to tell Afﬁliates and prospects to expect large returns. For example, de Brantes told an afﬁliate in July 2011:
[O]ur average has been between 1.6–1.8%
which would actually be a great deal more
than 125%. The attorneys our [sic] advising us
on what we can and can’t say and now it’s our
job to ﬁgure out how much we need to pay
daily to get everyone exactly what we intend
to give (it makes it a little tricky but it is our
intention to maintain a system that pays
125% without saying it anywhere on the

App. 54
site). . . . Right now we’re still working on the
125% cap system. We just aren’t saying 125%.
Id. at Ex. 15.
Therefore, Afﬁliates paid and invested money into
ZeekRewards with the expectation that they would
proﬁt from their payments based on the success of the
company’s operations. All the income received by
ZeekRewards and Zeekler, regardless of source, was
pooled and comingled in a cast of ﬁnancial institutions
that changed as the scheme evolved or as ﬁnancial
companies refused to work with RVG.
Although the speciﬁcs and the terminology of the
ZeekRewards “Compensation Plan” changed from time
to time as Burks and the other Insiders tried to prolong
and prop up the scheme, the two pillars of the plan for
most Afﬁliates were always: (1) “proﬁt” sharing (ﬁrst
called the Compounder then later the Retail Proﬁt Pool
(or “RPP”)) and (2) the multi-level marketing pyramid
that paid Afﬁliates a “commission” on the membership
fees paid by recruited “downline” Afﬁliates (known as
the Matrix).
ZeekRewards’ Afﬁliates’ primary money making
tool was the “Compounder.” To participate in the
Compounder, Affiliates purchased “compounding”
bids, which earned Afﬁliates one point for each “compounding” bid that they purchased from the company.
To become an Afﬁliate “qualiﬁed” to receive points required little or no effort, despite the bogus claim that
Afﬁliates “earned” points. As discussed in more detail
below, Afﬁliates were required to place daily one free

App. 55
digital ad (generally prepared by the company) for
Zeekler.com. Later, Afﬁliates were told they needed to
“give away” the bids in order to obtain points, although
in practice this so-called “requirement” was easily met:
Afﬁliates could simply pay extra to have the company
“give away” the bids for them. Id. at Ex.16. In effect
this was, in turn, just yet another revenue source for
the company.
As the inducement to purchase these “compounding” bids, ZeekRewards told Afﬁliates that the company would give a portion of the company’s daily
earnings or proﬁts (often claimed to be 50%) to pointholding Afﬁliates. The size of the daily “proﬁt sharing”
payment each afﬁliate received through the Compounder was based upon the number of points the afﬁliate held in his or her account. The size of each
Afﬁliate’s daily award depended only on the Afﬁliate’s
point total. Thus, regardless of the Afﬁliates’ efforts,
buying more points resulted in a larger proﬁt share,
just like having more shares of stock results in a larger
dividend for a stockholder.
ZeekRewards described the “Compounder” process
as follows: “At the end of each business day (7 days a
week) the company determines its daily overall proﬁtability and rebates a percentage back to its Active Advertising Afﬁliates based on each individual Premium
Members Compounder Bid Balance.” Id. at Ex. 4. Each
day, afﬁliates had a choice to be paid all or a portion of
the so-called “proﬁt” award in cash or to use the “cash”
award to buy more bids/points, which then added to the
bid/points balance and “compounded” as the daily

App. 56
percentage awards were made. Burks and the other insiders understood that the compensation plan would
be unsustainable in both the short run and the long
run because there would not be enough new participants to support full daily cash payments to a growing
number of existing Afﬁliates. See, e.g., Turner Report
at Exhibit G, p.15.
Prior to the shutdown of ZeekRewards, there were
over 3 billion VIP bid points in the ZeekRewards system. See Id. Based on the actual average daily “proﬁt”
percentage of 1.43% used during the scheme, the daily
“proﬁt” award to Afﬁliates would be over $40,000,000
on 3 billion points. The amount of money paid in to
ZeekRewards daily was far less than $40 million.
Therefore, if RVG had been required to pay the daily
awards supposedly available to Afﬁliates in cash,
ZeekRewards would have quickly collapsed. Speciﬁcally, during the last month ZeekRewards operated
(July 16, 2012 to August 15, 2012) the daily average
RPP award purportedly available to participants was
$38,237,036, but the daily receipts (from all sources,
not just retail auctions) were much smaller, averaging
approximately $9,722,000. See Id. Thus, not only were
the ZeekRewards payouts made from the money put in
by other participants, but the so-called “proﬁt” awards
greatly exceeded total receipts, which, of course, was
unsustainable.
To maintain the program for as long as possible
and generate the most income, ZeekRewards actively
discouraged Afﬁliates from requesting actual payment
of all their proﬁt awards in cash. Instead, Afﬁliates

App. 57
were encouraged to let their balances “compound” and
only take 20% or less of their “earnings.” Bell Aff. at Ex.
17.
ZeekRewards eventually changed the name of the
Compounder to the “Retail Proﬁt Pool,” or “RPP.” In addition, they changed the name of compounding bids to
“VIP bids” or “sample bids.” However, while the names
changed, the essential nature of the “proﬁt” sharing
scheme remained the same. In one email, when referring to compounding bids being renamed VIP bids,
Wright-Olivares wrote, “wherever you see a (compounding) next to VIP—you will know that these terms
are interchangeable,” and she later wrote that “no
change has been made in how they operate, qualify or
earn.” Id. at Ex. 18. Indeed, Wright-Olivares admitted
that she thought the name changes were a joke. In a
June 15, 2011 email to O.H. Brown, an RVG advisor
whose company created marketing videos for ZeekRewards, about a company webinar script, she said:
“you’ll see where I started to say Retail Proﬁt Pool (lol)
instead of Compounder. . . . We’re going to call compounding bids—VIP bids.” Id. at Ex. 19.
Whether called the Compounder or the Retail
Proﬁt Pool, the program was a fraud because the payments had no relation to actual “retail” profits nor
were they calculated from real receipts or expenses.
Instead, the alleged “profit percentage” was nothing
more than an arbitrary number made up by Burks or
one of the other Insiders. Most days, Burks made up
the number. As Danny Olivares explained to RVG’s internet provider, “Paul [Burks] goes in nightly and

App. 58
opens up adm_displayCompunder3.asp and enters a
decimal percentage.” Id. at Ex. 20. Sometimes, the
number was made up by Dawn Wright-Olivares or
Danny Olivares.
Rather than reﬂecting the typical variances that
might be expected in a company’s proﬁts, the alleged
proﬁts paid in ZeekRewards were remarkably consistent, falling nearly always between 1% and 2% on
Monday through Thursday and between .5% and 1%
on the weekends, Friday through Sunday. The goal of
this fake consistency was to project the appearance of
a stable source of income to entice new participants
and to encourage existing Afﬁliates to allow their bid
balances to compound rather than request payment of
their daily award in cash. And, with RVG’s knowledge,
Afﬁliates regularly touted the consistent payments in
their recruiting of new participants. For example,
“Coach Van’s” email footer stated: “It has been going
like clockwork for over 220 days, 7 days per week.”. . . .
“EVERYONE . . . GETS . . . PAID . . . FIRST . . . DAY!”
. . . This works every time with just one minute per
day! If you’re not getting paid every single day for 1
minute of work, . . . [sic] why not?” . . . “100 percent of
our active members are paid daily 100 percent of the
time within their ﬁrst 24 hours without any referrals.”
Id. at Ex. 21.
The payouts were so consistent that when a mistake was made (such as when an extra decimal place
was added to the “proﬁt” percentage or the lower
“weekend” percentage was used on a “weekday”) Afﬁliates would immediately complain. For example, on

App. 59
August 3, 2012, de Brantes sent Danny Olivares a
Skype message saying, the “Thursday [RPP] commission’s% are running like a weekend commission% and
everyone is going crazy.” Id. at Ex. 9(c). Olivares replies
that, he is “working on it.” Id.
And, the Insiders realized that not paying Afﬁliates, even once, was not an option if they wanted to
keep the scheme going. On May 20, 2012, there were
problems with payments to afﬁliates. Dawn WrightOlivares texted Danny Olivares and instructed him to
post an update letting afﬁliates know their payments
would eventually be processed and commissions would
be paid, telling him, “[t]he fastest way to get charge
[sic] as a Ponzi scheme is for distributors to claim they
are not getting paid.” Id. at Ex. 22.
Burks deliberately evaded affiliate questions
asking how the RPP was calculated. In a Skype chat
with an afﬁliate, he said: “[a] proprietary system is
used to determine the amount of proﬁt sharing that is
done each day. We do not divulge the details of how
those numbers are determined. Our stated target of
minimum of 1% weekdays (Mon-Thur) and .5% weekends (Fri-Sun) has always been met and exceeded. It
is clearly not directly tied to the number of auctions
in a particular day. It is the overall average that
counts.” Id. at Ex. 9(d). Behind the scenes, the Insiders
were not even subtle about the fake earnings numbers.
Often, the company simply used the previous week’s
daily RPP percentages. For example, on one occasion,
Danny Olivares sent a text message to multiple insiders stating, “Need a% for rpp when you can.” Dawn

App. 60
Wright-Olivares responded, “Do whatever was last
Monday.” Id. at Ex. 40. Or, from Paul Burks: “Hey Dan.
Sorry about last night. What percent did you use?”
Danny Olivares: “Same as last Friday. 0.009.” Id. at Ex.
23.
Sometimes, Burks even told Danny Olivares in advance what a day’s proﬁt number would be, such as on
September 14, 2011, when in the early morning Burks
told him “to start the RPP run shortly after 7 p.m. using .00179 as the percentage” because Burks was not
going to be able to run it himself. Id. at Ex. 24. Even if
the Insiders had intended to calculate actual proﬁts
(which they plainly did not), RVG did not maintain ﬁnancial records sufﬁcient to allow Burks or anyone else
to calculate a daily retail proﬁt for the company. See
Turner Report at 7 (“[T] there is no indication that the
records existed that could calculate Zeek’s daily
proﬁt.”).
In an unsuccessful effort to avoid the obvious legal
inﬁrmity of Afﬁliates simply buying points in return
for the expectation of a share of the proﬁts (like a stock
purchase), ZeekRewards told Afﬁliates that in order to
supposedly “earn” their points, they were required to
place a short, free digital ad each day on one of the
many free classiﬁed websites available on the internet.
Afﬁliates were told to merely copy and paste free ads
created by ZeekRewards into a free digital classiﬁed ad
website. Bell Aff. at Ex. 25.
Afﬁliates then submitted the ad’s internet link to
ZeekRewards to verify that they had placed the ad.

App. 61
Placing more ads or better ads did not change an Afﬁliate’s share of the proﬁts in any way. And, the ad “requirement” was not imposed on all Afﬁliates. Burks
even wrote a computer program that allowed a number
of Afﬁliates who managed multiple accounts to avoid
placing the ads altogether. As Burks wrote in an email
to Danny Olivares on January 23, 2011, “This allows
us to defer to some of our major people like Agnita Solomon who manage dozens of accounts so that they
don’e [sic] have to place so many ads every day.” Id. at
Ex. 26.
The “ad” process was intended to be very simple
and was widely advertised as taking only 3–5 minutes
each day. For example, Burks routinely told Afﬁliates:
“Placing an ad takes three to ﬁve minutes a day and
can be done from anywhere there is an Internet connection.” Id. at Ex. 27. The company did not believe
that these digital ads made any material difference in
the success of the Zeekler auctions and did no research
to determine if the ads were successful. In reality, the
ads were just an attempt to manufacture a cover for
what was nothing more than the investment of money
by Afﬁliates with the expectation of receiving daily
“proﬁt” distributions.
In a further effort to justify the Afﬁliates’ investments of money, beginning in August 2011, ZeekRewards purportedly required Afﬁliates to “give away”
their purchased VIP bids to earn points. Id. at Ex. 28,
29. The claimed intent of this “requirement” was to promote use of the auctions by new retail customers who
received these free bids. However, Burks and the

App. 62
insiders knew that in practice the bid “give away” program (like the free ads) had no material impact on the
success of the penny auctions.
First, the company made little or no attempt to determine if bids had in fact been given to legitimate prospective retail customers. Many Afﬁliates simply listed
fake email addresses, addresses of other existing Afﬁliates or those planning to be afﬁliates, family members, and other non-productive locations for where the
bids had been given away. Id. at Ex. 30. In some cases,
the company just agreed not to require the afﬁliate to
give away their bids to earn points.
Also, both as a way to minimize any real effort by
Afﬁliates and a way to make more money, Afﬁliates
were given the opportunity to pay to have the company
(supposedly) give the bids away on behalf of the afﬁliate. Id. at Ex. 31. Points were earned when the bids
were given to the company (supposedly) to be given
away. In fact, the company did not ﬁnd prospective retail customers to whom it could give away all the bids,
so millions of bids remained in the company unused.
But, ZeekRewards did make an additional $2.00-$2.50
per customer “sold” to Afﬁliates. And, because there
were alleged limits on the number of bids that could be
given away to any one person based on the Afﬁliate’s
membership level, tying the “give away” of bids to the
accrual of points drove “upgrades” in membership levels which increased revenues even more. Id.
Danny Olivares explained the process of how VIP
bids were automatically given away to accrue points

App. 63
for Afﬁliates as follows: After a VIP bid is purchased,
the “Company pool automates the process of giving
bids away as samples. Giving the bids away as samples
is what generates VIP points. Which the rpp uses to
calculate your award. So we come full circle.” Id. at Ex.
32.
Burks told Afﬁliates that the company-wide Bid
Pool would “take ALL of the sting out of the whole bidgive requirement! . . . [Y]ou will be able to automatically give your bids each day” and “you will automatically receive the VIP points as soon as you receive your
daily RPP award each day. . . . All you’ll have to do is
select the “Give my bids to the Zeek bid pool” option
and the system will automatically give your bids to
your customers and every customer that registers @
Zeekler.com that wants free bids! If you do not have
any customers then you simply purchase them as you
need them from the customer co-op, and that will be
automated as well!” Id. at Ex. 29.
Later, Afﬁliates were not allowed to simply pay the
company to “give away” the bids for them, but they
were allowed to pay third parties to do so. Id. at Ex. 33.
Again, RVG made no effort to determine if these bids
were in fact given to legitimate potential retail customers.
The second broad component of the ZeekRewards
compensation plan was paying Afﬁliates to recruit
other Afﬁliates in a pyramid-style payment system.
ZeekRewards referred to this system as the “Matrix.”
The Matrix pyramid was initially a “2x21” matrix in

App. 64
which Afﬁliates made multi-level marketing commissions for 21 levels down in their “organization.” Id. at
Ex. 34, 35. Later, ZeekRewards used a “2x5 forced-ﬁll
matrix,” which is a pyramid with 63 positions within
the ﬁve levels (the number of persons doubles at each
successive level). The scheme paid a bonus to Afﬁliates
for every “downline” investor within each afﬁliate’s
personal matrix, plus a “matching bonus” for every 5th
level where certain qualiﬁers were met. Therefore,
commissions could be earned indeﬁnitely as the pyramid expanded.
To get bonuses through the Matrix, Afﬁliates just
had to (1) enroll in a monthly subscription plan requiring payments of $10, $50, or $99 per month; and (2)
recruit at least two other “Preferred Customers” (i.e.,
investors who also enrolled in a monthly subscription
plan). Id. at Ex. 18. Once qualiﬁed, afﬁliates earned bonuses and commissions for every paid subscription
within their “downline” pyramid, whether or not they
personally recruited everyone within the matrix.
Simply put, Afﬁliates were rewarded merely for recruiting new investors without regard to any efforts by
the Afﬁliates to sell bids or products or otherwise materially support the Zeekler retail business.
The funds raised through the Matrix were commingled with the money raised through the Compounder/Retail Proﬁt Pool (and what little money came
in from the retail auction business), so nearly all the
money used to pay the pyramid commissions came
from other investors in the scheme. While some commissions were available to Afﬁliates on customers’

App. 65
purchases of retail bids for use in the Zeekler auctions,
Afﬁliates did not need to sell retail bids to customers
in order to receive commissions through the Matrix.
Furthermore, overall commissions from the sale of retail bids to end-user customers were miniscule (retail
bids accounted for only 1.1% of the money paid into the
scheme). See Turner Report at 8. These retail commissions, referred to by RVG as “Zap Commissions,” were
merely incidental to the overall commissions earned
through the Matrix for downline subscription payments and through the Compounder/RPP.
As with the Compounder, the Insiders changed the
terminology for the Matrix, but they never changed the
real essence of the scheme. Dawn Wright-Olivares explained the cosmetic changes to the Matrix this way:
“you [will] in effect be paid on levels 5–10” . . . . “but we
can’t SAY that. Deep matrices get shut down. So instead . . . we say that you are getting a matching bonus
on all of the 2x5’s on your 5th level. It’s semantics, but
semantics mean a great deal with regulators.” She
went on, “[I] don’t really understand how they can say
they have levels 10, 15, etc. when it’s a 2x5, but if we
can get away with it this way—then it’s my vote to
leave it alone.” Bell Aff. at Ex. 9(e). Similarly, Keith
Laggos, a ZeekRewards advisor, emailed Dawn WrightOlivares (copying Burks) in July 2011: “when talking
about matching bonuses, you are showing being paid
on 1 to 10, 1 to 15 and 1 to 20 levels. This defeats what
we did by going to a 2x5 matrix. You should say a 100%
matching on all your 5th, 15th and 20th level afﬁliates’
2x5 matrixes. I know you want to show they get paid

App. 66
on 20 levels in a 2 by 20 matrix, but that is when you
can get a pyramid investigation or charge.” Id. at Ex.
36.
RVG’s insiders often worried about being caught
and sought to make the unlawful scheme seem legitimate in many ways. As described above, the changing
of terminology or the rules of the game, but not the
substance of the scheme, was a common practice.
Throughout 2011 and 2012, Burks and the Insiders regularly changed the names of the program elements or demanded that Afﬁliates stop using certain
words, which accurately described the scheme but
highlighted its illegality. For example, on July 26, 2011,
de Brantes emailed an Afﬁliate with a list of things the
Afﬁliate can and cannot say, including: “compounder,
compound, compounded, compounding, 125%, Members, Interest, Investment, Mature.” On the list of sanitized things the Afﬁliate could say: “You make a
purchase and re-purchase; You earn bids; The bids retire on a 90 day timeline averaging 1.5% a day; You get
cash rewards; Retail Proﬁt Pool; Everyone is an Afﬁliate and they own business center subscriptions; Your
Bid balance can increase as oppose to mature.” Id. at
Ex. 37.
Also, RVG employees openly discussed the words
that could and could not be used when promoting the
scheme, even adding a bit of black humor as the
scheme headed towards its inevitable demise. On June
8, 2012, de Brantes and others discussed “training” Afﬁliates on “the top 10 or 12 words that every Afﬁliate

App. 67
should erase from their vocabulary”. The list included
“investment, put money in, roi [return on investment],
fund, passive income, passive returns, returns and
points are not dollars.” In response to this list, Ken
Kilby (a supposed “compliance ofﬁcer”) suggested adding: “BBB, Attorney General, FBI, FTC, Report, turn
you in.” Id. at Ex. 38.
Beyond the shifting terminology, Burks and the
Insiders tried to bolster the perception of the legitimacy of the scheme by running “Compliance” courses
for Affiliates. Id. at Ex. 39. As with the advertising
or bid give-away “requirements,” the “compliance”
courses were just an effort to obscure the fraud and
wrap it in a cloak of propriety, while making even more
money in the process.
After an extensive investigation, the Receiver ﬁled
this action. The Complaint asserts claims for violation
of the NCUFTA, Common Law Fraudulent Transfer
and Constructive Trust. The Receiver seeks Judgment
against each of the Named Defendants in the amount
of their net winnings from the ZeekRewards scheme.
With respect to the Net Winner Class, the Receiver
seeks a Declaratory Judgment determining that the
net winnings they received were fraudulent transfers
from RVG that must be repaid to the Receiver and are
subject to a constructive trust for the beneﬁt of the Receivership Estate. Ultimately, the Receiver seeks a ﬁnal Judgment against each Net Winner Class member
in the amount determined to be their net winnings
through a process to be set by the Court that provides

App. 68
class members the opportunity to respond to the Receiver’s calculation of their net winnings.
II.

DISCUSSION

Summary judgment should be granted where
there is no genuine issue as to any material fact and
the “movant is entitled to judgment as a matter of law.”
Fed. R. Civ. P. 56(a). The party opposing summary
judgment cannot rely on conclusory allegations, unsubstantiated assumptions or a scintilla of evidence.
Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475
U.S. 574, 585–86 (1986). Rather, the non-moving party
must “set out speciﬁc facts showing a genuine issue for
trial.” The News & Observer Publ’g Co. v. RaleighDurham Airport Auth., 597 F.3d 570, 576 (4th Cir.
2010).
Despite engaging a defense expert to investigate
the fundamental issue of whether or not ZeekRewards
operated as a Ponzi scheme, Defendants have conceded
that ZeekRewards was, in fact, a Ponzi scheme. Nevertheless, Defendants argue that the Court should not
grant summary judgment in favor of the Receiver. The
Court will address each of Defendants’ arguments below.
Defendants ﬁrst contend that a one-year limitations provision in ZeekRewards’ website’s “Terms of
Service” (“TOS”) bars the Receiver’s claims. The TOS
provided:

App. 69
The TOS along with the Privacy Policy and
Purchase/Membership/Affiliate agreement
constitute the entire agreement between you
and ZeekRewards and govern your use of the
Service . . . You agree that regardless of any
statute or law to the contrary, any claim or
cause of action arising out of or related to use
of the Service or the TOS must be ﬁled within
one (1) year after such claim or cause of action
arose or be forever barred.
Doc. No. 135-2, p. 30.
Defendants’ position is that because the Receiver
stands in the shoes of RVG, he is bound by the TOS
and its limitations provision. Essentially, Defendants
are arguing that a subsequently appointed receiver’s
fraudulent transfer claims can be barred by the terms
under which the scheme was implemented.
Contrary to Defendants’ argument, a receiver is
not bound by an agreement that the fraudster, “acting
with the intent to defraud, signed on behalf of ” the
company in receivership. See Hodgson v. Kottke Assocs., LLC, Civ. Action No. 06-5040, 2007 WL 2234525,
at *7 (E.D. Pa. Aug. 1, 2007). As is readily apparent, it
“would create a perverse incentive . . . for a court to
rule that a party who fraudulently enters into an
agreement subsequently bars a trustee or receiver
from bringing an action to recover the funds fraudulently transferred pursuant to that agreement.” Id. If
the terms implementing a fraudulent scheme could
shorten the limitations period to eliminate or cut off a
receiver’s claims at an earlier date, a fraudster would

App. 70
have a strong incentive to include a limitations period
much shorter than the statutory period (here one year
instead of four) as a means to protect investors in his
scheme from clawback actions down the road. Indeed,
adopting Defendants’ position would create a readymade roadmap for fraudsters to protect anyone who
won money in their scheme, thus further encouraging
participation and enhancing the scheme. Such a result
would undermine a receiver’s ability to perform his duties and severely weaken his ability to serve his role as
“an instrument of court . . . acting also for the stockholders of the corporation, and the creditors of the corporation.” Drennen v. S. States Fire Ins. Co., 252 F. 776,
787 (5th Cir. 1918). Accordingly, the Court ﬁnds that
applicable statutory limitations periods apply in this
case and the Receiver’s claims are timely ﬁled.
A. Fraudulent Transfer Claims
The NCUFTA permits a receiver to avoid a transfer made “with the intent to hinder, delay, or defraud
any creditor of the debtor” within four years after the
transfer was made. See N.C. Gen. Stat. §§ 39-23.4(a)(1)
(fraudulent transfers); 39-23.1 (deﬁnitions); 39-23.9
(statute of limitations). Many courts have held that the
intent to defraud can be presumed when transfers are
in furtherance of a Ponzi scheme. The “Ponzi scheme
presumption” has been long settled in a number of jurisdictions and under an analogous section of the
Bankruptcy Code.

App. 71
Bankruptcy Code Section 548(a)(1)(A) provides
that a trustee may avoid a transfer of an interest of the
debtor in property, if the debtor made such transfer
with actual intent to hinder, delay, or defraud creditors.
11 U.S.C. § 548(a)(1)(A). A majority of federal courts
have held that proof of operation of a Ponzi scheme is
sufﬁcient to establish actual intent to hinder, delay, or
defraud creditors to permit avoidance of a fraudulent
transfer under section 548(a)(1)(A). See, e.g., Gold v.
First Tenn. Bank, N.A. (In re: Taneja), No. 10-1225,
2012 Bankr. LEXIS 3554, *13–14 (E.D. Va. Jul. 30,
2012). Transfers in furtherance of a Ponzi scheme
“have achieved a special status in fraudulent transfer
law” from which intent of actual fraud may be inferred.
In re Cohen, 199 B.R. 709, 717 (9th Cir. BAP 1996).
Courts in the Receivership context outside bankruptcy also routinely apply the Ponzi scheme presumption to avoid fraudulent transfers. Janvey v. Brown,
767 F.3d 430 (5th Cir. 2014); Wing v. Dockstader, 482
Fed. App’x. 361, 363 (10th Cir. 2012); see also, Warﬁeld
v. Carnie, No. 3:04-cv-0633, 2007 WL 1112591, at *9
(N.D. Tex. Apr. 13, 2007).
The U.S. Bankruptcy Court for the Middle District
of North Carolina held that the “Ponzi scheme presumption” of actual fraudulent intent also arises in
fraudulent transfer actions brought under N.C. Gen.
Stat. § 39-23.4(a)(1). Ivey v. Swofford (In re Whitley),
463 B.R. 775, 781 (Bankr. M.D.N.C. 2012). In reaching
its conclusion, the court looked to the interpretation
of the Uniform Fraudulent Transfer Act in other jurisdictions, as well as the relevant sections of the

App. 72
Bankruptcy Code. See Id. at 782 (citing In re AFI Holding, Inc., 525 F.3d 700, 704 (9th Cir. 2008); In re Mortg.
Store, Inc., Slip Copy, 2011 WL 3878355, at *2 (Bankr.
D. Hawaii Sept. 1, 2011); In re Dreier LLP, 452 B.R.
391, 435 (Bankr. S.D.N.Y. 2011); PHP Liquidating, LLC
v. Robbins (In re PHP Healthcare Corp.), 128
Fed.App’x. 839, 847 (3d Cir. 2005); ASARCO LLC v.
Ams. Mining Corp., 396 B.R. 278, 365 (S.D. Tex. 2008)).
There is no genuine issue of material fact that
ZeekRewards operated as a Ponzi scheme. Accordingly,
the law considers transfers from the scheme to be
fraudulent transfers that may be avoided under the
NCUFTA.
Defendants argue that regardless of whether RVG
had bad intentions, summary judgment should be denied as to this claim because there is a genuine issue
of material act as to whether the Defendants acted in
good faith and provided “reasonably equivalent value”
in return for their net winnings.3 Defendants argue
that in exchange for the income they received from
ZeekRewards, the evidence shows that they directed
new customers to the Zeekler.com penny auction site,
promoted the auction by placing daily advertisements
on the internet, networked with other marketing professionals to gain greater exposure for Zeekler and
ZeekRewards, set up websites to drive trafﬁc to Zeekler and ZeekRewards, recruited new customers, and
3

N.C. Gen. Stat. § 39-23.8(a) provides an afﬁrmative defense
under the NCUFTA to a transferee who acted in good faith and
provided reasonably equivalent value in exchange for the transfer.

App. 73
participated in training programs, leadership calls,
and mandatory compliance programs. They liken
themselves to “internet marketing specialists” and
contend that they provided more than reasonably
equivalent value for the payments they received.
Actual participants and investors in a Ponzi
scheme cannot establish that they gave “reasonably
equivalent value” for their winnings through their efforts participating in and recruiting others to the
scheme. Nearly all the courts that have considered this
issue have determined that participants and investors
may be entitled to a return of their principal investment, but must return the amount received beyond
that investment. See, e.g., Perkins v. Haines, 661 F.3d
623, 627 (11th Cir. 2011) (“In the case of Ponzi schemes,
the general rule is that a defrauded investor gives
‘value’ to the Debtor in exchange for a return of the
principal amount of the investment, but not as to any
payments in excess of principal.”); see also Wing, 482 F.
App’x at 365–66; In re AFI Holding, Inc., 525 F.3d at
704; Warﬁeld v. Byron, 436 F.3d 551, 560 (5th Cir.
2006); Scholes v. Lehmann, 56 F.3d 750, 757–58 (7th
Cir. 1995).4 The Ninth Circuit has explained one rationale for this rule: “The policy justiﬁcation is ratable
distribution of remaining assets among all the defrauded investors. The ‘winners’ in the Ponzi scheme,
even if innocent of any fraud themselves, should not be
permitted to ‘enjoy an advantage over later investors
sucked into the Ponzi scheme who were not so lucky.’ ”
4

Despite Defendants’ suggestion, there is no recent “trend”
away from this rule.

App. 74
Donell v. Kowell, 533 F.3d 762, 770 (9th Cir. 2008)
(quoting In re United Energy Corp., 944 F.2d 589, 596
(9th Cir. 1991)).
Moreover, courts have routinely and speciﬁcally
held that there is no value in recruiting new investors
to a fraudulent scheme. See, e.g., Wing v. Dockstader,
No. 2:08 CV 776, 2010 WL 5020959, at *6 (D. Utah Dec.
3, 2010) (“[T]he court disagrees with the notion that a
person paid to refer investors to a ponzi scheme is more
akin to the venture’s utility provider than the investors.”); In re Nat’l Liquidators, Inc., 232 B.R. 915, 919
(Bankr. S.D. Ohio 1998) (“The Trustee has established
that the Debtor received less than a reasonably equivalent value, because all that the Debtor received in return for the transfers was the use of the Defendants’
money to run the ‘ponzi’ scheme.”); In re Randy, 189
B.R. 425, 438 (Bankr. N.D. Ill. 1995) (holding that “as a
matter of law, when brokers are paid commissions for
their efforts in promoting a Ponzi scheme, these commissions are fraudulent transfers”). The Fifth Circuit
has aptly summarized the lack of merit in Defendants’
argument, stating “[i]t takes cheek to contend that in
exchange for the payments he received, the RDI Ponzi
scheme beneﬁted from his efforts to extend the fraud
by securing new investments.” Warﬁeld, 436 F.3d at
560.
Moreover, the cases Defendants cite in support of
their argument involve innocent trade creditors or
third-parties providing “legitimate” services in the ordinary course of business. Defendants are actual

App. 75
participants/investors in the Ponzi scheme, not thirdparty service providers.
The Court ﬁnds that here is no genuine issue of
material fact that Defendants did not provide “reasonably equivalent value” for their winnings.5 Accordingly,
the Court grants summary judgment in favor of the
Receiver on the NCUFTA claim.6
B. Constructive Trust Claim
The Receiver’s ﬁnal claim against the Defendants
seeks the imposition of a constructive trust with respect to any transfer of funds, assets, or property from
the Receivership Entities, as well as any assets later
obtained by Defendants using the transferred funds.
A constructive trust is a duty, or relationship,
imposed by courts of equity to prevent the unjust enrichment of the holder of title to, or of
an interest in, property which such holder acquired through fraud, breach of duty or some
5

Thus there is no reason for the Court to discuss the “good
faith” argument of the Defendants, as the afﬁrmative defense requires both good faith and reasonably equivalent value.
6
In addition to seeking avoidance of fraudulent transfers
pursuant to the “actual fraud” provision of the NCUFTA (N.C.
Gen. Stat. § 39-23.4(a)(1)), the Receiver’s First Claim for Relief
also seeks avoidance pursuant to the “constructive fraud” provision of the statute (N.C. Gen. Stat. § 39-23.4 (a)(2)). The Court
finds it unnecessary to discuss this claim given the Court’s
holding that the transfers herein may be avoided pursuant to
§ 39-23.4(a)(1). Likewise, the Court ﬁnds it unnecessary to analyze the Receiver’s alternative claim for common law fraudulent
transfer.

App. 76
other circumstance making it inequitable for
him to retain it against the claim of the beneﬁciary of the constructive trust.
Variety Wholesalers, Inc. v. Salem Logistics Trafﬁc
Servs., LLC, 723 S.E.2d 744, 751–52 (N.C. 2012) (quoting Wilson v. Crab Orchard Dev. Co., 171 S.E.2d 873,
882 (N.C. 1970)).
The Defendants argue that a constructive trust is
only available when a ﬁduciary relationship exists and
there is no adequate remedy at law. They also contend
that a constructive trust requires a traceable or identiﬁable res, and the Receiver bears the burden of proving traceability.
Citing Variety Wholesalers, the Receiver correctly
points out that a ﬁduciary relationship is not required
for imposition of a constructive trust. All that is required under that decision for a constructive trust is
an “inequit[y]” or “unconscientious matter.” Id. at 752.
Here, the Ponzi scheme easily qualiﬁes as inequitable
and unconscientious.
Moreover, as this Court has previously noted, Defendants were early adopters of the ZeekRewards
scheme and as result, these named Defendants may
have already dissipated much of their net winnings.
Without a constructive trust it would be impossible for
the Receiver to trace and secure these fraudulently
transferred Receivership Assets. Thus, the Receiver’s
remedy at law would be inadequate.

App. 77
Finally, allowing the lack of traceability to defeat
the Receiver’s constructive trust claim would create a
perverse incentive for every net winner of any Ponzi
scheme to spend any proceeds received from the
scheme before a receiver could start to unwind it and
then claim that the assets were gone. “In cases involving Ponzi schemes, courts have taken a broad view of
the constructive trust remedy, and the tracing requirement, in order to effectuate the goal of returning to the
victims of the fraud their stolen property or proceeds
of that property.” S.E.C. v. Credit Bancorp, Ltd., 138
F. Supp. 2d 512, 533 (S.D.N.Y. 2001), rev’d in part, vacated in part on other grounds, 297 F.3d 127 (2d Cir.
2002). In United States v. Benitez, 779 F.2d 135 (2d Cir.
1985), for example, the Second Circuit held that a constructive trust could be imposed on the assets of a
Ponzi scheme, even though those funds were “not
traceable.” Id. at 140; see also United States v. Schwimmer, 968 F.2d 1570, 1584 (2d Cir.1992) (“To the extent
this Court tolerated a very relaxed tracing standard in
Benitez, it was with an eye to permitting the District
Court to exercise this general, victim-compensation
function, without being hampered by strict deﬁnitions
of property rights.”).
Indeed, “[e]quity applies the principles of constructive trusts wherever it is necessary for the obtaining of complete justice. . . .” Speight v. Branch Banking
& Trust Co., 83 S.E. 734, 736 (N.C. 1936). Imposing a
constructive trust under the circumstances herein furthers the Receiver’s ability to recover the assets of the
ZeekRewards Ponzi scheme and distribute them to the

App. 78
net losers, thus making the victims as whole as possible. Accordingly, summary judgment in favor of the Receiver is appropriate.
IT IS THEREFORE ORDERED that the Receiver’s Motion for Summary Judgment Against Remaining Named Defendants is hereby GRANTED; and
IT IS FURTHER ORDERED that the Receiver’s
Motion for Partial Summary Judgment Against the
Net Winner Class as to all liability issues is hereby
GRANTED.
Signed: November 29, 2016
/s/ Graham C. Mullen
Graham C. Mullen
United States District Judge

App. 79
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT
OF NORTH CAROLINA
CHARLOTTE DIVISION
KENNETH D. BELL, in his capacity )
)
as court-appointed Receiver
)
for Rex Venture Group, LLC
)
d/b/a ZeekRewards.com,
)
Plaintiff,
)
vs.
)
TODD DISNER, in his individual )
capacity and in his capacity as )
trustee for Kestrel Spendthrift )
)
Trust; TRUDY GILMOND;
)
TRUDY GILMOND, LLC;
)
JERRY NAPIER; DARREN
)
MILLER; RHONDA GATES;
) No. 3:14-cv-91
DAVID SORRELLS; INNOVA)
TION MARKETING, LLC;
)
AARON ANDREWS; SHARA
ANDREWS; GLOBAL INTERNET )
)
FORMULA, INC.; T. LEMONT
)
SILVER; KAREN SILVER;
)
MICHAEL VAN LEEUWEN;
)
DURANT BROCKETT; DAVID
)
KETTNER; MARY KETTNER;
P.A.W.S. CAPITAL MANAGEMENT )
LLC; LORI JEAN WEBER; and a )
Defendant Class of Net Winners )
)
in ZEEKREWARDS.COM;
)
Defendants.
)

App. 80

CONSENT ORDER APPOINTING
CLASS COUNSEL
On February 10, 2015, this Court entered an ORDER granting the motion of Kenneth D. Bell, the courtappointed Receiver for Rex Venture Group, LLC
(“RVG”), to certify a Defendant Class (the “Net Winner
Class”) in this action comprised of all persons and entities who were Net Winners of more than $1000 in
ZeekRewards. (the “Order,” Doc. 101). In certifying the
Net Winner Class, the Court noted that “Defendants
and their counsel can and will adequately represent
the class,” but also noted that “the Receiver will be required to help fund the defense of the Class.” (Id., at
p.9). Since the entry of the Order, the Court has instructed the Receiver and defendants’ counsel to confer
on the allocation of class counsel costs and other related issues to determine if an agreement can be
reached. Also, since the entry of the Order a number of
the named defendants’ counsel have withdrawn their
representation and the Court has entered Judgment
against certain named defendants. (Doc. 104, 108, 110111, 119 and 122).
Now, the Court has been advised by the Receiver
and Kevin Edmundson, counsel for defendants Aaron
Andrews, Shara Andrews, Innovation Marketing, LLC
and Rhonda Gates, that they have reached agreement
on proposed terms for the partial funding of Class
Counsel by the Receiver. Accordingly, with the consent

App. 81
of the Receiver, Kevin Edmundson and the parties he
represents and, after providing an opportunity for objections to these terms as described below, the Court
ORDERS as follows:
1.

Kevin Edmundon is hereby appointed Class
Counsel for the Net Winner Class. As previously ordered, the Net Winner Class includes
all persons and entities who participated in
ZeekRewards and received at least $1000
more in money from ZeekRewards than they
put into the program. Notice of the certiﬁcation of the Net Winner Class has been sent to
the members of the class as ordered by the
Court.

2.

The class issues before the Court relate to the
alleged liability of the Net Winners to return
money won in the alleged ZeekRewards Ponzi
and/or pyramid scheme, including the Receiver’s claims for (1) Fraudulent Transfer of
RVG Funds in violation of the North Carolina
Fraudulent Transfer Act; (2) Common Law
Fraudulent Transfer; and (3) Constructive
Trust. The Court has noted that the common
questions related to the Net Winner Class are
“whether ZeekRewards operated as a Ponzi
and/or pyramid scheme and whether net winnings received by the Defendants should be
returned to the Receiver.” (Order at p. 9). The
Court has further held that the details of each
class member’s participation in ZeekRewards
do not need to be addressed in answering
these common and controlling questions and
that the ﬁnal amount of each Net Winner
Class member’s net winnings and any

App. 82
Judgment against them will be set later in the
proceedings after the liability of the class, if
any, has been established.
3.

Mr. Edmundson shall serve as Class Counsel
until further order of the Court. However, it is
not expected that Class Counsel will be engaged to represent the Net Winner Class following a ﬁnding, if any, of class liability.

4.

Class Counsel is authorized to communicate
with the Net Winner Class as he deems reasonable and necessary through such means
that he believes to be most efﬁcient and costeffective. Class Counsel has made an initial
determination that web-based and email communication to the class should be the primary
means of class communication and requested
that he be permitted to develop a platform for
such communications with Garden City
Group, who is assisting the Receiver with his
communications. The Receiver has agreed to
allow Garden City Group to assist Class
Counsel and to pay the Garden City Group,
subject to this Court’s approval, for the reasonable costs of necessary class communications. In the event there is a dispute regarding
the reasonableness or cost of any Class Counsel communication that cannot be resolved between the Receiver and Class Counsel then
the matter shall be submitted to the Court for
decision prior to the communication being
made.

5.

Class Counsel is authorized and instructed to
explain to the Net Winner Class that in the

App. 83
event that liability on one or more of the Receiver’s claims is established, the Receiver intends to seek a process to determine the net
winnings of each Net Winner Class member
that will notify the net winner of the amount
of his or her net winnings according to the
RVG records, allow a reasonable opportunity
to provide a response (supported by relevant
documentation if the net winner disagrees
with the calculation) and then either reach an
agreement on the amount or have the amount
determined by a judicial process. Therefore, it
is not necessary for any net winner to communicate with Class Counsel related to determining the amount of his or her net winnings
or whether the alleged class member received
more than $1000 because each alleged class
will have an opportunity to address those issues in the damages process ordered by the
Court. Further, Class Counsel is authorized
and instructed to inform the members of the
Net Winner Class that, if they have not already done so, to gather and preserve any documents or information (including electronic
ﬁles) related to the amount each paid into and
received from ZeekRewards so those documents and that information can be used in the
later process to determine the amount of their
individual net winnings.
6.

The Court has previously ordered the engagement of BRG Group as an expert for the Net
Winner Class (Doc. 117) to complete “Phase 1”
of their work as set forth in their proposal.
BRG is hereby ordered to now report to Class
Counsel in addition to the Court and Class

App. 84
Counsel is authorized to direct BRG’s work in
accordance with Phase 1 of the approved proposal.
7.

Class Counsel has informed the Receiver and
the Court that he believes that to adequately
represent the Net Winner Class, Class Counsel should be permitted at the Receiver’s expense to depose the Receiver’s ﬁnancial expert
and defend any deposition of the expert for the
class (including reasonable preparation), engage in a review of those documents that the
Receiver intends to rely on to establish liability, and prepare and argue the class’ response
to any dispositive motion ﬁled by the Receiver
against the class to establish class liability.
The Receiver has agreed to pay for Class
Counsel’s reasonable fees and expenses, subject to the approval of the Court, for the deposition work and document review described
above. With respect to fees for responding to a
dispositive motion, the Receiver has agreed to
pay $35,000 of such reasonable fees, subject to
the approval of the Court, in light of the obligation and collective ability of the named defendants’ represented by Class Counsel to
fund their own response to the dispositive motion.

8.

The Court ﬁnds that these efforts, if pursued
in good faith, will adequately represent the
Net Winner Class and approves the Receiver’s
limited agreement to pay for such efforts subject to approval by this Court.

App. 85
9.

In the event that the Receiver ﬁles a separate
dispositive motion against any named defendant other than Aaron Andrews, Shara
Andrews, Innovation Marketing, LLC and
Rhonda Gates then those defendants are responsible for paying for their response, should
they choose to ﬁle one. In the event that any
other named defendant desires and is willing
to pay to have Class Counsel represent his or
her interests in responding to the dispositive
motions, then Class Counsel and the Receiver
are instructed to attempt in good faith to adjust the percentage of fees being paid by the
Receiver with respect to the response to the
dispositive motions.

10. Class Counsel is hereby appointed to serve
without bond and shall have full power and
authority to act in the best interests of the Net
Winner Class. Class Counsel and his agents,
acting within the scope of Class Counsel’s duties are entitled to rely on all outstanding
rules of law and Orders of this Court and shall
not be liable to anyone for their own good faith
compliance with any order, rule, law, judgment, or decree. In no event shall Class Counsel be liable to anyone for his good faith
compliance with his duties and responsibilities as Class Counsel, nor shall Class Counsel
be liable to anyone for any actions taken or
omitted except upon a ﬁnding by this Court
that he acted or failed to act as a result of malfeasance, bad faith, gross negligence, or in
reckless disregard of his duties.

App. 86
11. This Court shall retain jurisdiction over any
action ﬁled against Class Counsel based upon
acts or omissions committed in his representative capacity.
12. In the event Class Counsel decides to resign,
he shall ﬁrst give written notice to the Court
of his intention, and the resignation shall not
be effective until the Court appoints a successor.
13. Since early in the Receivership, the Receiver
has expressed a willingness to consider voluntary settlements on the Receiver’s claims with
ZeekRewards’ net winners and others against
whom the Receiver has claims. To date, there
have been numerous settlements approved
by the Court in which net winners and the
Receiver agreed on an amount to be repaid,
often with payment terms that allowed the
net winner to repay the agreed amount over a
number of months. Notwithstanding the appointment of Class Counsel, members of the
Net Winner Class and the Receiver are still
permitted to discuss a potential settlement of
the Receiver’s claims against them even
though they have become members of the Net
Winner Class.
14. The Receiver and Class Counsel are instructed to provide a copy of this order on
their respective websites. Any member of the
Net Winner Class or other interested person
who objects to this order must ﬁle such objection within 30 days of the date of its entry. The
Court ﬁnds that there is no just cause to delay

App. 87
the implementation of the agreement reﬂected in this order pending the objection period, but may revise or terminate this order
after review of any objections ﬁled. However,
any fees incurred by Class Counsel prior to
modiﬁcation of this order shall be paid in accordance with the order.
Signed: September 11, 2015
/s/ Graham C. Mullen
Graham C. Mullen
United States District Judge

App. 88
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF NORTH CAROLINA
CHARLOTTE DIVISION
3:14CV91
KENNETH D. BELL, in his capacity
as court-appointed Receiver for
Rex Venture Group, LLC
d/b/a ZeekRewards.com,
Plaintiff,
v.
TODD DISNER, in his individual
capacity and in his Capacity as
trustee for Kestrel Spendthrift
Trust; TRUDY GILMOND; TRUDY
GILMOND, LLC; JERRY NAPIER;
DARREN MILLER; RHONDA
GATES; DAVID SORRELLS;
INNOVATION MARKETING, LLC;
AARON ANDREWS; SHARA
ANDREWS; GLOBAL INTERNET
FORMULA, INC; T. LEMONT
SILVER; KAREN SILVER;
MICHAEL VAN LEEUWEN;
DURANT BROCKETT; DAVID
KETTNER; MARY KETTNER;
P.A.W.S. CAPITAL MANAGEMENT LLC; LORI JEAN WEBER;
and a Defendant Class of Net
Winners in ZEEKREWARDS.COM,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

ORDER

App. 89
This matter is before the Court upon the Receiver’s Motion for Class Certiﬁcation. (Doc. No. 68).
The Receiver is moving to certify a Defendant class in
this case pursuant to Federal Rule of Civil Procedure
23(a) and (b)(1)(A) and (B) comprised of all persons or
entities who were Net Winners of more than one thousand dollars in ZeekRewards.
I.

FACTUAL BACKGROUND

This “clawback” litigation was initiated by the Receiver of Rex Venture Group, LLC (“RVG”). The Complaint alleges as follows: Paul Burks, the owner and
former top executive of RVG, and other management
insiders used RVG in their operation of a massive
Ponzi and pyramid scheme through ZeekRewards from
at least January 2011 until August 2012. Compl. at
{PP]1, 6–9. Over 700,000 participants lost over $700
million dollars in the scheme. Id. at {p}1. Burks and the
management insiders used ZeekRewards to promise
substantial payouts and outsize returns to all participants, but few actually beneﬁtted. Id. at ¶ 2. Those who
did beneﬁt were paid not with proﬁts from a legitimate
retail operation, but rather from money paid in by later
investors in the scheme. Id. at ¶ 3. The largest “net
winners” (those who received more money from
ZeekRewards than they paid in) each received well
over a million dollars, and many others received hundreds of thousands of dollars. Id. at ¶¶ 2, 12–25.
On August 17, 2012, the Securities and Exchange
Commission ﬁled an action in this Court, Securities

App. 90
and Exchange Commission v. Rex Venture Group, LLC
d/b/a ZeekRewards.com and Paul Burks, Civil Action
No. 3:12cv519, to obtain injunctive and monetary relief
against Paul Burks, shut down the ZeekRewards Ponzi
and pyramid scheme, freeze RVG’s assets, and seek appointment of a receiver for RVG. That same date, in the
Agreed Order Appointing Temporary Receiver and
Freezing Assets of Defendant Rex Venture Group, LLC,
this Court appointed Kenneth D. Bell as the Receiver
over the assets, rights, and all other interests of the
estate of Rex Venture Group, LLC, d/b/a www.Zeek
Rewards.com and its subsidiaries and any businesses
or business names under which it does business. The
Order further directed Mr. Bell as RVG’s Receiver to
institute actions and legal proceedings seeking the
avoidance of fraudulent transfers, disgorgement of
proﬁts, imposition of constructive trusts, and any other
legal and equitable relief that the Receiver deems necessary and appropriate to preserve and recover RVG’s
assets for the beneﬁt of the Receivership Estate.
The Complaint alleges that the vast majority of
the ZeekRewards winners’ money came from Zeek
Rewards losers rather than legitimate business proﬁts.
Compl. at ¶ 3. At least $845 million was paid in to
ZeekRewards, of which no more than $6.3 million (less
than 1%) came from retail bid purchases by nonparticipants. Id. In total, the ZeekRewards database
records show that over 92% of the money paid in to
ZeekRewards came from Net Losers rather than Net
Winners, and ZeekRewards’ Net Winners received over
$283 million in net winnings. Id.

App. 91
The Receiver alleges that because ZeekRewards’
Net Winners “won” (the victims’) money in an unlawful
combined Ponzi and pyramid scheme, the Net Winners
are not permitted to keep their winnings and must return the fraudulently transferred winnings to the Receiver for distribution to ZeekRewards’ victims. The
Receiver ﬁled this “clawback” action on February 28,
2014, asserting claims of relief against approximately
9,400 Net Winners for: (1) Fraudulent Transfer of RVG
Funds in Violation of the North Carolina Uniform
Fraudulent Transfer Act; (2) Common Law Fraudulent
Transfer; and (3) Constructive Trust.
II.

DISCUSSION

The Federal Rules of Civil Procedure do allow for
a defendant class. Rule 23(a) states that “[o]ne or
more members of a class may sue or be sued. . . .” Fed.
R. Civ. P. 23(a) (emphasis added); see also Henson v. E.
Lincoln Twp., 814 F.2d 410, 412 (7th Cir. 1987) (“It is
apparent from the words of Rule 23(a) (‘sue or be sued
as representative parties’) that suits against a defendant class are permitted.”). Defendant class actions
have been certiﬁed when, as here, there is a need for a
“procedural device that allows one who has a common
grievance against a multitude of persons to resolve . . .
the dispute by using only a few members of the class.”
Broadhollow Funding Corp. v. Fitzmaurice (In re
Broadhollow Funding Corp.), 66 B.R. 1005, 1007
(Bankr. E.D.N.Y. 1986). “The use of a defendant class
avoids costly multiple litigation and the danger of inconsistent adjudication of the same issue.” Id.

App. 92
A defendant class may be certiﬁed if it meets four
prerequisites: (1) numerosity; (2) commonality; (3) typicality; and (4) fair and adequate representation. Fed.
R. Civ. P. 23(a). In addition to meeting the four prerequisites of Rule 23(a), certiﬁcation of the proposed class
requires satisfaction of one of the class requirements
set forth in Rule 23(b). The Court will ﬁrst discuss each
of the Rule 23(a) prerequisites.
A. Rule 23(a) Analysis
It is undisputed that the proposed class meets the
numerosity requirement, as it consists of approximately 9400 Net Winner Defendants. Defendants contend, however, that differences in questions of law and
fact as well as differences in claims and defenses
among the Defendants preclude a ﬁnding of commonality and typicality.
The “commonality’’ factor examines whether there
are “questions of law or fact common to the class.” Fed.
R. Civ. P. 23(a)(2). Here, the common questions are
whether ZeekRewards operated as a Ponzi and/or pyramid scheme and whether net winnings received by
the Defendants should be returned to the Receiver. “It
is not required that all factual or legal questions raised
in the lawsuit be common so long as a single issue is
common to all class members.” Weinman v. Fid. Capital
Appreciation Fund (In re Integra Realty Res., Inc.), 179
B.R. 264, 270 (Bankr. D. Colo. 1995); see also In re Cardinal Indus., 105 B.R. 834,844 (Bankr. S.D. Ohio 1989)
(‘‘There need only exist one signiﬁcant issue or fact

App. 93
common to all members of the putative class.”) (citing
Newburg on Class Actions § 3.10).
In Weinman, the court certiﬁed a defendant class
action involving approximately 6,300 defendant shareholders after the bankruptcy of the Integra hotel company. Weinman, 179 B.R. at 270.1 The court found that
the commonality requirement was met based on
whether a spinoff of stock to the shareholders constituted a fraudulent transfer, which was the central issue in determining the defendants’ liability. Id.
The proposed class members in this action are
likewise linked by a common set of facts, which includes whether ZeeksRewards’ operation was a Ponzi
and/or pyramid scheme. All class members had or controlled usernames and accounts with ZeekRewards
through which they received funds from RVG. Further,
each class member received more money from RVG
than they paid into RVG (their “net winnings”) during
the course of their participation as afﬁliates in the
ZeekRewards program. There is also a common question of law, that is: whether the payments from
ZeekRewards to class members are fraudulent transfers that must be disgorged and repaid.
Despite these undisputed key common issues of
law and fact, Defendants argue that the commonality
requirement is not met because there may be
1

The class certiﬁcation in Weinman was upheld by the Tenth
Circuit on two separate occasions. See Weinman v. Fid. Capital
Appreciation Fund, 354 F.3d 1246 (10th Cir. 2004); Weinman v.
Fid. Capital Appreciation Fund, 262 F.3d 1089 (10th Cir. 2001).

App. 94
differences in the Defendants’ relationships with RVG
insiders, differing counterclaims,2 differing defenses
such as reliance on counsel’s advice, potential thirdparty claims, and other issues related to the details of
each Defendant’s participation in ZeekRewards. Defendants cite Wal-mart Stores, Inc. v. Dukes, 131 S. Ct.
2541 (2011) in support of their position that a class
must not only have common questions, but the capacity to generate a common resolution. However, any potential dissimilarities among the members of the
proposed class do not impair the ability to reach a common resolution to the core issues of law and fact in this
case.
Moreover, Defendants’ claim that individual circumstances impact the commonality requirement ignore the nature of this fraudulent transfer case, which
simply looks at whether there was a fraudulent transfer to all the Net Winners that must be repaid, without
regard to the individual circumstances of participation
in the scheme. In Weinman, the Tenth Circuit emphasized that “unlike the typical class action damage case,
where ‘the individual circumstances of each class
member are typically of material importance,’ it is ‘virtually never the case’ that the proceeds of a single
fraudulent transfer . . . would be recoverable from one
defendant . . . but not from another.” Weinman v. Fid.
Capital Appreciation Fund, 354 F.3d 1246, 1265 (10th
Cir. 2004) (internal citations omitted). In another case
involving a defendant class action, In re Broadhollow,
2

The Court has now dismissed all counterclaims ﬁled by the
named defendants pursuant to Rule 12(b)(6). (Doc. No. 98).

App. 95
the court recognized that “a variance in the size of
investment . . . does not defeat class certiﬁcation” and
“[Rule] 23(a)(2) does not require a class of clones in
which members are identical in all respects.” In re
Broadhollow, 66 B.R. at 1009 (citing In re REA Express, Inc., 10 B.R. 812 (Bankr. S.D.N.Y. 1981)). The
Court ﬁnds that the core common issues of law and fact
that exist herein satisfy the commonality requirement.
The third prerequisite shifts the focus from the
characteristics of the class members to the characteristics of the named class representatives. See In re
Broadhollow, 66 B.R. at 1009. The typicality requirement addresses whether the “the claims or defenses of
the representative parties are typical of the claims or
defenses of the class.” Fed. R. Civ. P. 23(a)(3). The Receiver has proposed that one or more of the following
named Defendants serve as Class Representatives:
Trudy Gilmond and Trudy Gilmond, LLC; Jerry Napier; Darren Miller; Rhonda Gates; Innovation Marketing, LLC; Aaron Andrews; Shara Andrews; Global
Internet Formula, Inc.; T. LeMont Silver; Karen Silver;
and Durant Brockett.
The typicality requirement does not mandate that
the defenses of the representative parties and the class
be completely identical or perfectly coextensive. See
Weinman, 179 B.R. at 270; Oneida Indian Nation v.
State of New York, 85 F.R.D. 701, 705 (N.D.N.Y. 1980).
Rather, it is sufﬁcient if the defenses are substantially
similar and “there is a nexus between class representatives/claims or defenses and common questions of fact
or law which unite the class.” Weinman, 179 B.R. at

App. 96
270. Here, the proposed Class Representatives and the
class each participated in the same event and course
of conduct that has given rise to the Defendant class;
that is, they all participated in and received at least
$1000 in proﬁts from the ZeekRewards scheme. Because the Class Representatives participated in the
same ZeekRewards scheme, they inevitably share the
same defenses against liability for repayment of the alleged fraudulent transfers made to the class, which
does not depend on the personal circumstances of particular afﬁliates.3 See Weinman, 354 F. 3d at 1265. The
Court ﬁnds that the typicality requirement is satisﬁed.
The last prerequisite for certiﬁcation is that the
proposed class representatives and their counsel be
able to fairly and adequately represent the interests of
the defendant class. Fed. R. Civ. P. 23(a)(4). In determining whether a named representative in a class action is “a fair and adequate representative,” some
courts have applied a two-pronged test: 1) the representative must be able to conduct the litigation; and 2)
the representative’s interests must not be antagonistic
to those of the class members. See Weinman, 179 B.R.
at 270-71; see also Baehr v. Creig Northrop Team, 2014
WL 346635, at *9 (D. Md. Jan. 29, 2014) (noting representation is adequate if the named representatives’ interests are not opposed to those of the other class
members, and the attorneys are “qualiﬁed, experienced
and able to conduct the litigation”) (citing MitchellTracey v. United Gen. Title Ins. Co., 237 F.R.D. 551,558
3

Indeed, the Answers ﬁled by the named Defendants reveal
that they share typical and similar defenses.

App. 97
(D. Md. 2006)); Harris v. Rainey, 299 F.R.D. 486, 49091 (W.D. Va. 2014).
Courts also examine the extent of the named representatives’ ﬁnancial interest in the class action. See
In re Broadhollow, 66 B.R. at 1011; see also Weinman,
262 F.3d at 1112 (rejecting challenges to the adequacy
of the class representative and noting that the class
representative’s potential liability “far exceeded that
of any other class member” and “its interests were
aligned with those of the other class members in that
all concerned wished to limit their liability to the lowest possible amount.”). Here, the proposed Class Representatives’ interests are not antagonistic to, but
rather aligned with, the interests of the unnamed class
members because they share the common objective to
defend against having to return funds received from
ZeekRewards as demanded by the Receiver. Thus,
there is no conﬂict which would defeat adequacy of representation. See Harris, 299 F.R.D. at 491 (recognizing
that “[a] conﬂict must be fundamental to defeat adequacy of representation; a conﬂict is not fundamental
when all class members ‘share common objectives and
the same factual and legal positions and have the same
interest in establishing the liability of defendants.’ ”)
(quoting Ward v. Dixie Nat. Life Ins. Co., 595 F.3d 164,
180 (4th Cir. 2010) and Gunnells v. Healthplan Servs.,
Inc., 348 F.3d 417, 431 (4th Cir. 2003)).
Further, the named Class Representatives were
among the largest Net Winners of the ZeekRewards
scheme. Each received over $900,000 from RVG (either
individually or together with another family member

App. 98
or through their shell corporation). The proposed Class
Representatives are not likely to abandon or return
these substantial sums without obtaining experienced
counsel and mounting a vigorous defense. Already, the
proposed Class Representatives have retained competent counsel who have ﬁled extensive answers and motions to dismiss. Finally, it is undisputed that counsel
retained by the proposed Class Representatives are experienced and qualiﬁed attorneys, fully capable of protecting the interests of their clients and consequently
the class.
The Named Defendants argue that they simply
cannot afford to represent the Net Winner Class. However, their protestations of poverty ring hollow in light
of the fact that together they won over $11 million in
proﬁts from ZeekRewards. “It is presumed that representatives will vigorously prosecute or defend the action if they have retained well qualiﬁed counsel and if
they possess sufﬁcient resources or stake in the outcome of the case to bear the ﬁnancial burden of the litigation.” In re Consumers Power Co. Sec. Litig., 105
F.R.D. 583, 613(E.D. Mich. 1985) (quoting In re Gap
Stores Sec. Litig., 19 F.R.D. 283, 303 (N.D. Cal. 1978)).
Moreover, the Court has repeatedly made it clear that
the Receiver will be required to help fund the defense
of the class.4
4

That Court is mindful that despite the large winnings of the
Named Defendants, it is possible that much of the net winnings
has been dissipated. As stated at the last status conference in
this matter, the Court fully expects that the Named Defendants
will provide the Receiver with any and all evidence of their

App. 99
In any event, the Court ﬁnds that Defendants and
their counsel can and will adequately represent the
class and there is no basis to deny class certiﬁcation
over the issue of what amount of truly necessary class
legal expenses (as distinguished from the Defendants’
own legal costs) are paid by the Receivership.
B. Rule 23(b) Analysis
Having found that the prerequisites of Rule 23(a)
are all met, the Court turns to a consideration of Rule
23(b). Rule 23(b)(1), under which the Receiver seeks to
certify the Net Winner class, permits class certiﬁcation
in instances where prosecuting separate actions would
either create:
(A) inconsistent or varying adjudications with respect to individual class members that would
establish incompatible standards of conduct
for the party opposing the class; or
(B) adjudications with respect to individual class
members that, as a practical matter, would be
dispositive of the interests of the other members not parties to the individual adjudications or would substantially impair or impede
their ability to protect their interests.
Fed. R. Civ. P. 23(b)(1).
ﬁnancial status and the location of all net winnings received from
ZeekRewards, including deposition testimony as to the same.
Such ﬁnancial transparency will not only aid the Court in its determination as to what extent the Receiver shall be required to
fund the defense of the class, but will also undoubtedly aid in any
settlement discussions.

App. 100
Courts have certiﬁed defendant classes pursuant
to Rule 23(b)(1)(A) in actions involving voidable preferences and fraudulent conveyances “to insure that
separate proceedings would not result in inconsistent
adjudication of the common issues, thus leaving the
trustee in a stalemated position.” In re Broadhollow,
66 B.R. at 1013 (ﬁnding certiﬁcation under 23(b)(1)(A)
warranted and adopting reasoning in Guy v. Abdulla,
57 F.R.D. 14 (N.D. Ohio 1972)).5 If the Receiver herein
was forced to ﬁle separate actions against the 9,400
Defendants, he would certainly be risking inconsistent
and varying adjudications. If one court found that a
fraudulent transfer occurred, but another court did
not, then those inconsistent decisions would place the
Receiver in a stalemated or conﬂicted position. If the
Receiver attempted to enforce a valid judgment
against a particular Defendant, that Defendant might
refuse to pay because other Defendants similarly situated were not held to be liable for the same underlying
conduct related to ZeekRewards. An additional layer
of inconsistency would arise if the Receiver attempts
to settle a lawsuit, but the Net Winner Defendant is
not willing to compromise since that Defendant is already aware of the inconsistent adjudication based on
the same set of facts. These anomalous results would

5

In Guy v. Abdulla, the court certiﬁed a defendant class under Rule 23(b)(1)(A) so that the bankruptcy trustee could maintain an action against all parties allegedly holding voidable
preferences and property transferred by fraudulent conveyances
without the risk of inconsistent adjudication of the common issues.

App. 101
leave the Receiver in an untenable position and circumstances such as these are precisely why class actions exist. See Guy v. Abdulla, 57 F.R.D. at 17-18.
Defendants incorrectly contend that this class
cannot be certiﬁed under Rule 23(b)(1)(A) because it is
allegedly a “money damages” action. However, actions
for the return of fraudulent transfers and the imposition of constructive trust seek equitable relief (even
though it is the payment of money) that is appropriate
for Rule 23(b)(1)(A) class certiﬁcation. The Fourth Circuit in U.S. ex rel. Rahman v. Oncology Assocs., 198 F.3d
489, 498 (4th Cir. 1999) recognized that voiding a
fraudulent transfer is a form of rescission and an equitable remedy. Id. (“The complaint’s request to void
transfers as fraudulent—a form of rescission—is . . . an
equitable remedy.”) The Rahman court also recognized
that a constructive trust is “a tool of equity to prevent
unjust enrichment” and “[a] constructive trust remains
an equitable remedy even thought it might ultimately
reach a fund of money.” Id. (internal quotations omitted). Therefore, the nature of the relief sought in this
action is fully consistent with class certiﬁcation under
Rule 23 (b)(1)(A).
Although it is not necessary for the Court to consider Rule 23(b)(1)(B), certiﬁcation would likewise be
appropriate under this subsection. In fact, Rule 23’s
Advisory Notes indicate that a “fraudulent conveyance” is exactly the type of situation where a class
should be certiﬁed because separate adjudication ‘‘will
necessarily or probably have an adverse practical effect.” Fed. R. Civ. P. 23 advisory committee’s note. In

App. 102
Weinman, the Tenth Circuit upheld class certiﬁcation
under Rule 23(b)(1)(B) in a class action involving questions of whether a fraudulent transfer occurred and
whether there was an unlawful dividend distributed.
Weinman, 354 F. 3d at 1263–64. The court noted that
the ﬁrst suit against a defendant or group of defendants could be dispositive of all remaining suits and
would decide the rights of absent defendants “without
the class action’s assurance that they be adequately
represented.” Id. at 1264. The court reasoned that, as
here, a defendant “has only a small number of possible
individual defenses” and ‘‘the primary legal and factual issues in the ﬁrst case would not only form the
basis for the application of stare decisis in subsequent
cases; they would almost inevitably prove dispositive
in those cases.” Id.
A Defendant class action certiﬁed under Rule
23(b)(1) is fair to the Defendants, particularly relatively small Net Winners. The efﬁciency of one action
in which all parties can argue their case and assert
their rights will beneﬁt both the Receiver and small
winners and supports the intent behind both Rule
23(b)(1)(A) and (b)(1)(B). While the Court is mindful of
due process concerns as well as other problems speciﬁc
to defendant class actions, the Court is ﬁrmly convinced a class action is the only means to reasonably
and efﬁciently resolve the Receiver’s claims against
9,400 Net Winners. Accordingly,

App. 103
IT IS THEREFORE ORDERED that the Receiver’s
Motion for Class Certiﬁcation is hereby GRANTED.
Signed: February 10, 2015
/s/ Graham C. Mullen
Graham C. Mullen
United States District Judge

App. 104
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT
OF NORTH CAROLINA
CHARLOTTE DIVISION
3:14CV91
KENNETH D. BELL, in his capacity
as court-appointed Receiver for
Rex Venture Group, LLC d/b/a
ZeekRewards.com,
Plaintiff,
v.
TODD DISNER, in his individual
capacity and in his capacity as
trustee for Kestrel Spendthrift
Trust; TRUDY GILMOND; TRUDY
GILMOND, LLC; JERRY NAPIER;
DARREN MILLER; RHONDA GATES;
DAVID SORRELLS; INNOVATION
MARKETING, LLC; AARON
ANDREWS; SHARA ANDREWS;
GLOBAL INTERNET FORMULA,
INC.; T. LEMONT SILVER;
KAREN SILVER; MICHAEL VAN
LEEUWEN; DURANT BROCKETT;
DAVID KETTNER; MARY KETTNER;
P.A.W.S. CAPITAL MANAGEMENT
LLC; LORI JEAN WEBER; and a
Defendant Class of Net Winners in
ZEEKREWARDS.COM;
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

ORDER

This matter is before the Court upon the Receiver’s Consolidated Motion to Dismiss Defendants’

App. 105
Counterclaims. (Doc. No. 59). Defendants have responded,
the Receiver has ﬁled a Reply, and this matter is now
ripe for disposition.
Defendants Gilmond, Trudy Gilmond, LLC, and
Napier assert counterclaims for breach of contract and
setoff; Defendant Miller asserts counterclaims for breach
of contract, tortious interference, conversion, and setoff; and Defendants Aaron Andrews, Shara Andrews,
Innovation Marketing LLC, Brockett, and Gates assert
identical versions of counterclaims for breach of contract, tortious interference, money had and received,
42 U.S.C. § 1983, and unfair trade practices. The Receiver has moved to dismiss all counterclaims pursuant to Rule 12(b)(6) of the Federal Rules of Civil
Procedure for failure to state a claim.
The Court will ﬁrst address the breach of contract
counterclaims. Defendants’ breach of contract claims
allege that they had enforceable contracts with RVG
pursuant to which they performed services for RVG.
They claim that RVG owed them money when the Receiver was appointed, and that the Receiver is liable
for RVG’s failure to pay them under the purported contracts.
On May 8, 2013, the Court issued an Order (the
“Claims Order”) in the SEC Action1 (1) approving the

1

The SEC Action refers to the related SEC enforcement action, SEC v. Rex Venture Group, LLC d/b/a ZeekRewards.com and
Paul Burks, 3:12CV519.

App. 106
claims process, (2) setting the bar date, and (3) approving notice procedures.2 Pursuant to the Claims Order:
The term Claim means any (a) right to payment, whether or not such right is reduced
to judgment, liquidated, unliquidated, ﬁxed,
contingent, matured, unmatured, disputed,
undisputed, legal, equitable, secured, or unsecured; or (b) right to an equitable remedy for
breach of performance if such breach gives
rise to a right to payment, whether or not such
right to an equitable remedy is reduced to
judgment, ﬁxed, contingent, matured, unmatured, disputed, undisputed, secured, or unsecured.
(SEC Action, Doc. No. 144-1). Defendants’ breach of
contract claims fall squarely within the deﬁnition of a
Claim pursuant to the Claims Order, as they assert a
“right to payment” for purported services they rendered under an alleged contract with RVG. The Claims
Order set a Bar Date of September 5, 2013, after which
the holders of any Claims not submitted are “barred
from asserting such claims against the Receivership
Defendant and/or receiving distributions from the Receivership Defendant on account of such claims.” (SEC
Action, Doc. No. 144 at 2). None of the Defendants ﬁled
a Claim with the Receiver requesting any money owed
under any alleged contract with RVG. Any breach of
contract claim is therefore barred.
2

In determining a motion to dismiss, the Court may take judicial notice of matters of public record. Philips v. Pitt County Memorial Hosp., 572 F.3d 176, 180 (4th Cir. 2009).

App. 107
Moreover, some or all of these claims concern
funds that the Court has already determined are Receivership Property, not the property of any Defendant.
Defendants Aaron Andrews, Shara Andrews, Innovation Marketing, Brockett, and Gates all allege: “The
Receiver, acting as RVG, and by conﬁscating the funds
in [Defendants’] RVG NxPay® account, has failed and
refused to pay [Defendants] for the services that [Defendants] performed.” See, e.g., (Doc. No. 22 at 62, ¶ 28).
However, in the SEC Action this Court ruled that
“NxPay® properly froze the accounts and the funds determined to be RVG funds must be returned to the Receiver pursuant to the Agreed Order.” (SEC Action,
Doc. No. 146 at 3). As the Court made clear, “the Court
Orders the RVG funds being held by NxPay® to be
turned over to the Receiver.” Id. at 4. Defendants’
breach of contract claim is an improper attempt to relitigate an issue already decided by this Court in the
SEC Action.3
Defendants Aaron Andrews, Shara Andrews, Innovation Marketing, Brockett, and Gates all assert
identical counterclaims for tortious interference (with
contract). Defendants allege that they each had a contract with NxPay, and that the Receiver somehow “interfered” with that contract by accepting the funds
that NXPay turned over to the Receivership pursuant
3

To the extent that Defendants rely upon an argument that
the Court lacks subject matter jurisdiction in the SEC Action and
in this clawback action, that argument has already been considered and rejected by the Court in its Order of December 9, 2014
denying the Defendants’ Motions to Dismiss.

App. 108
to this Court’s Order. (SEC Action, Doc. No. 146). The
Receiver, however, cannot be liable for tortious interference simply by doing his job as Receiver as ordered
and authorized by this Court. As an appointee of this
Court, the Receiver is immune from the counterclaims
asserted by Defendants challenging actions he has
taken during his appointment as the Receiver. See
In re Bernard L. Madoff Inv. Securities LLC, 440 B.R.
282, 290-93 (Bankr. S.D.N.Y. 2010) (holding trustee
immune from suit for acts taken in good faith in discharging court-appointed duties); Property Mgmt. &
Investments, Inc. v. Lewis, 752 F.2d 599, 603 (11th Cir.
1985) (holding receiver entitled to judicial immunity
despite allegedly having “maliciously and deliberately
releas[ed] news reports to the media . . . that were false
and defamatory.”); Boullion v. McClanahan, 639 F.2d
213, 214 (5th Cir. 1981) (holding court-appointed trustee entitled to immunity in tort actions based on actions taken while serving as trustee, regardless of
error or malice, because he “was acting under the supervision and subject to the orders of the bankruptcy
judge . . . [acted] as an arm of the Court, [and] sought
and obtained court approval of his actions.”) (per curiam).
Defendants Innovation Marketing, Aaron Andrews, Shara Andrews, Brockett, and Gates next seek
to hold the Receiver liable under the common law
claim “Money Had and Received,” contending that the
Receiver is in possession of funds of which Defendants
are the rightful owners. An action for money had and
received “allows a plaintiff to maintain an equitable

App. 109
action to recover a payment mistakenly made to the
defendant on the theory that by such payment the recipient has been unjustly enriched at the expense of
the party making the payment.” Primerica Life Ins. Co.
v. James Massengill & Sons Const. Co., 712 S.E.2d 670,
677 (N.C. Ct. App. 2011) (internal quotation marks
omitted). The crucial issue in this type of action is
whether the defendant has the right to retain the
money. See Allgood v. Wilmington Sav. & Trust Co., 88
S.E.2d 825, 829 (N.C. 1955) (internal citations and quotation marks omitted). Again, this question has already been answered by the Court. The Court has
already determined that the funds at issue do not belong to the Defendants. (SEC Action, Doc. No. 146). A
claim for money had and received may not be plausibly
asserted for funds that a court has already ordered are
the rightful property of the party holding the funds.
Accordingly, this claim fails.
Defendants Innovation Marketing, LLC, Aaron
Andrews, Shara Andrews, Brockett, and Gates next
seek damages for an alleged violation of their constitutional rights pursuant to 42 U.S.C. § 1983 or, alternatively, under a common law claim for violation of their
rights under the Fourth Amendment to the United
States Constitution. Defendants contend that the Receiver violated their constitutional rights by conﬁscating the funds in their RVG NxPay accounts “without
any adequate process to determine the true ownership
of the funds,” thereby depriving Defendants of the
“value, use and beneﬁt” thereof. (Doc Nos. 27 at 28; 22
at 64; and 32 at 26-27).

App. 110
First, the Receiver is a court-appointed ofﬁcer and
accordingly, cannot be held liable under § 1983 as a
matter of law for “carrying out the orders of his appointing judge.” T & W Inv. Co., Inc. v. Kurtz, 588 F.2d
801, 802 (10th Cir. 1978). Courts have reasoned that
receivers, as court ofﬁcials or “quasi-judicial ofﬁcers,”
are entitled to the same immunity awarded to other
court ofﬁcials to the extent they are simply carrying
out the orders of their appointing judge. Valdez v.
City & Cnty. of Denver, 878 F.2d 1285, 1288 (10th Cir.
1989). Despite Defendants’ allegation that the Receiver wrongfully “conﬁscated” the funds at issue, the
Receiver took possession of these funds only pursuant
to the Court’s Order that such funds be turned over to
the Receiver. Because Defendants do not allege the Receiver was acting outside his court-appointed authority in taking possession of the NxPay funds, their claim
under § 1983 fails as a matter of law.
Moreover, a claim under 42 U.S.C. § 1983 requires
that the defendant act under color of state law. “Federal ofﬁcials who act pursuant to federal law do not act
under color of state law, but rather under color of federal law.” MARTIN A. SCHWARTZ, SECTION 1983
LITIGATION § 5.07 (4th ed. Supp. 2012). The Receiver’s authority in this matter and any action he may
have taken as to the funds at issue arises solely
through his appointment by this federal court in the
Agreed Order. The Receiver simply derives no authority or power from any State or Territory, a fact which
renders the § 1983 claim inapplicable.

App. 111
In their final counterclaim, Defendants Innovation
Marketing, Aaron Andrews, Shara Andrews, Brockett,
and Gates seek to hold the Receiver liable under North
Carolina’s Unfair and Deceptive Trade Practices Act
(“UDTPA”). N.C. Gen. Stat. § 75-1.1. To recover under
the UDTPA, a party must establish the following:
“(1) the defendant engaged in conduct that was in or
affecting commerce, (2) the conduct was unfair or had
the capacity or tendency to deceive, and (3) the plaintiff suffered actual injury as a proximate result of defendant’s deceptive statement or misrepresentation.”
Belk, Inc. v. Meyer Corp., U.S., 679 F.3d 146, 164 (4th
Cir. 2012), as amended (May 9, 2012) (internal quotation marks omitted). In addition to the fact that the
Receiver is immune from this claim as described above,
Defendants fail to allege sufﬁcient facts of deceptive
conduct by the Receiver. While Defendants describe
the Receiver’s conduct with a variety of disparaging
adjectives, including “illegal, offends public policy and
is immoral, unethical, oppressive, unscrupulous, and
deceptive,” such allegations are conclusory and speculative and are therefore insufﬁcient to withstand a
motion to dismiss. Defendants have identiﬁed no representations, omissions or deceptive or misleading acts
by the Receiver that affected commerce and caused
them harm.
Defendant Miller asserts a counterclaim for conversion in his Amended Complaint. (Doc. No. 53 at 4041). This counterclaim must be dismissed for the same
reason the “money had and received” claim is dismissed: Miller never owned the funds at issue. North

App. 112
Carolina’s common law claim of conversion requires a
“wrongful deprivation of [the property] to the owner.”
Lake Mary L.P. v. Johnston, 551 S.E.2d 546, 552 (N.C.
Ct. App. 2001) (quoting Gallimore v. Sink, 218 S.E.2d
181, 183 (1975). Miller’s counterclaim for conversion
fails because he did not own the funds he claims were
converted by the Receiver. Rather, this Court ruled
that RVG owned the funds it had placed in Afﬁliates’
NxPay accounts and which had not been withdrawn
prior to the Freeze Order. As a result, because Miller
was not the owner of the funds he claims were converted, his claim for conversion must be dismissed.
Defendants Gilmond, Gilmond LLC, Miller and
Napier claim they are entitled to a setoff for (1) amounts
they paid to RVG to purchase bids and participate in
the Afﬁliate program; (2) the amount of the costs and
expenses they incurred as a Zeek Afﬁliate; (3) the reasonable value of their time in performing or operating
as a Zeek Afﬁliate; and (4) the amount of taxes they
paid on income they received as a Zeek Afﬁliate.
This claim fails for several reasons. First, the
Complaint in this matter is clear that the Receiver is
seeking Defendants’ net winnings, which are by deﬁnition the amount they received from RVG less the
amount they paid in to RVG. The dollar amount provided in the Complaint as to each named Defendant
represents that Defendant’s net winnings, and so the
Receiver has already set off the amount these Defendants paid in to RVG. There is nothing further to set off
in this regard. Second, as to the Defendants’ purported
costs and expenses and the reasonable value of their

App. 113
time for performing as a Zeek Afﬁliate, these requests
for payment needed to be ﬁled with the Receiver in the
Claims Process, as discussed above. Since they were
not, and the Bar Date has passed, these items may not
be included in a setoff as a matter of law. Finally, as to
the amount of taxes the Defendants paid on their Zeek
net winnings, whatever taxes are properly owed to the
IRS are a matter between the IRS and the Defendants
– they are not a proper counterclaim or setoff against
the Receiver.
IT IS THEREFORE ORDERED that the Receiver’s Consolidated Motion to Dismiss Defendants’
Counterclaims. (Doc. No. 59) is hereby GRANTED.
Signed: January 14, 2015
/s/ Graham C. Mullen
Graham C. Mullen
United States District Judge

App. 114
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT
OF NORTH CAROLINA
CHARLOTTE DIVISION
3:14CV91
KENNETH D. BELL, in his capacity
as court-appointed Receiver for
Rex Venture Group, LLC d/b/a
ZeekRewards.com,
Plaintiff,
v.
TODD DISNER, in his individual
capacity and in his capacity as
trustee for Kestrel Spendthrift
Trust; TRUDY GILMOND; TRUDY
GILMOND, LLC; JERRY NAPIER;
DARREN MILLER; RHONDA GATES;
DAVID SORRELLS; INNOVATION
MARKETING, LLC; AARON
ANDREWS; SHARA ANDREWS;
GLOBAL INTERNET FORMULA,
INC.; T. LEMONT SILVER;
KAREN SILVER; MICHAEL VAN
LEEUWEN; DURANT BROCKETT;
DAVID KETTNER; MARY KETTNER;
P.A.W.S. CAPITAL MANAGEMENT
LLC; LORI JEAN WEBER; and a
Defendant Class of Net Winners in
ZEEKREWARDS.COM;
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

ORDER

This matter is before the Court upon Named Defendants Trudy Gilmond, Trudy Gilmond, LLC, Jerry

App. 115
Napier, Darren Miller, Durant Brockett, Rhonda Gates,
Innovation Marketing LLC, Aaron Andrews, Shara Andrews, Global Internet Formula, Inc., T. Lemont Silver,
and Karen Silver’s Motions to Dismiss this action pursuant to Rules 9, 12(b)(1) and 12(b)(6) of the Federal
Rules of Civil Procedure (Doc. Nos. 21, 23, 24, 29 and
36). The Receiver has ﬁled a Consolidated Response in
Opposition to Defendants’ Motions to Dismiss (Doc. No.
67), and certain Defendants have ﬁled a Reply (Doc.
No. 75). This matter is now ripe for consideration by
the Court.
FACTUAL BACKGROUND
This “clawback” litigation was initiated by the Receiver of Rex Venture Group, LLC (“RVG”). The Complaint alleges as follows: Paul Burks, the owner and
former top executive of RVG, and other management
insiders used RVG in their operation of a massive
Ponzi and pyramid scheme through ZeekRewards
(“Zeek”) from at least January 2011 until August 2012.
Compl. at ¶¶ 1, 6-9. Over 700,000 participants lost over
$700 million dollars in the scheme. Id. at ¶ 1. Burks
and the management insiders used ZeekRewards to
promise substantial payouts and outsize returns to all
participants, but few actually beneﬁtted. Id. at ¶ 2.
Those who did beneﬁt were paid not with proﬁts from
a legitimate retail operation, but rather from money
paid in by later investors in the scheme. Id. at ¶ 3. The
largest “net winners” (those who received more money
from Zeek than they paid in to Zeek) each received well

App. 116
over a million dollars, and many others received hundreds of thousands of dollars. Id. at ¶¶ 2, 12-25.
On August 17, 2012, the Securities and Exchange
Commission ﬁled an action in this Court, Securities
and Exchange Commission v. Rex Venture Group, LLC
d/b/a ZeekRewards.com and Paul Burks, Civil Action
No. 3:12-cv-519 (the “SEC Action”), to obtain injunctive
and monetary relief against Paul Burks, shut down
the ZeekRewards Ponzi and pyramid scheme, freeze
RVG’s assets, and seek appointment of a Receiver for
RVG. Compl. at ¶ 26. Also on August 17, RVG, through
Burks, admitted to this Court’s jurisdiction over RVG
and the subject matter of the SEC action, and it consented to entry of judgment in favor of the SEC. SEC
Action, Doc. No. 5 at ¶¶ 1-2. As a result, the Court entered consent judgments against RVG and Burks enjoining them from violating the federal securities
statutes or participating in, or facilitating, the solicitation of any investment in any security or in the offering
of a security. SEC Action, Doc. Nos. 6, 8.
That same date, in an Agreed Order Appointing
Temporary Receiver and Freezing Assets of Defendant
Rex Venture Group, LLC (the “Agreed Order”), this
Court appointed Kenneth D. Bell as the Receiver over
the assets, rights, and all other interests of the estate
of Rex Venture Group, LLC, d/b/a www.ZeekRewards.
com and its subsidiaries and any businesses or business names under which it does business (the “Receivership Entities”). Compl. at ¶ 27. The Order further
directed Mr. Bell as RVG’s Receiver to institute actions and legal proceedings seeking the avoidance of

App. 117
fraudulent transfers, disgorgement of proﬁts, imposition of constructive trusts and any other legal and equitable relief that the Receiver deems necessary and
appropriate to preserve and recover RVG’s assets for
the beneﬁt of the Receivership Estate. Id.
Like all classic Ponzi and pyramid schemes, the
vast majority of the Zeek winners’ money came from
the Zeek losers rather than legitimate business proﬁts.
At least $845 million was paid in to Zeek. Id. at ¶ 3. No
more than $6.3 million (less than 1%) came from retail
bid purchases by non-participants. Id. In total, the
Zeek database records show that over 92% of the
money paid in to Zeek came from net losers rather
than net winners, and Zeek’s net winners received over
$283 million in net winnings. Id.
Because Zeek’s net winners “won” the victims’
money in an unlawful combined Ponzi and pyramid
scheme, the net winners are not permitted to keep
their winnings and must return the fraudulently
transferred winnings to the Receiver for distribution
to Zeek’s victims. Id. at ¶ 4. Accordingly, the Plaintiff
Receiver ﬁled this “clawback” action on February 28,
2014, asserting claims of relief against Defendants for:
(1) Fraudulent Transfer of RVG Funds in Violation of
the North Carolina Uniform Fraudulent Transfer Act;
(2) Common Law Fraudulent Transfer; and (3) Constructive Trust. Defendants have moved to dismiss the
Complaint pursuant to Rules 12(b)(1), 12(b)(6) and 9 of
the Federal Rules of Civil Procedure.

App. 118
DISCUSSION
A. Subject Matter Jurisdiction
Defendants argue that this case must be dismissed for lack of subject matter jurisdiction pursuant
to Rule 12(b)(1).1 The SEC Action, from which the Receiver derives his authority to ﬁle the instant lawsuit,
is based upon violations by RVG of federal securities
statutes. The Defendants contend that there is no subject matter jurisdiction in this case because RVG was
not involved in the sale or marketing of any “securities.”
Section 2(a)(1) of the Securities Act and Section
3(a)(10) of the Exchange Act deﬁne a “security” to include an “investment contract.” The Supreme Court
has deﬁned an “investment contract” as: (1) the investment of money; (2) in a common enterprise; (3) with an
expectation of proﬁts to be derived solely from the efforts of the promoter or a third party. SEC v. W.J.
Howey Co., 328 U.S. 293, 298-99 (1946). The Howey test
is a “ﬂexible” principle “capable of adaptation to meet
the countless and variable schemes devised by those
who seek the use of the money of others on the promise
of proﬁts.” SEC v. Edwards, 540 U.S. 389, 393 (2004).
The Supreme Court has explained that Congress intended
the application of the Securities Act and Exchange Act
1

From the outset, the Court notes that it is of no consequence that RVG and Burks admitted the Court’s subject matter
jurisdiction in the consent judgment entered in the SEC Action.
It is clear that subject matter jurisdiction cannot be conferred by
the parties. Brickwood Contractors, Inc. v. Datanet Eng’g, Inc.,
369 F.3d 385, 390 (4thCir. 2004).

App. 119
“to turn on the economic realities underlying a transaction, and not on the name appended thereto.” United
Housing Foundation, Inc. v. Forman, 421 U.S. 837, 849
(1975).
Courts have applied the Howey test to deﬁne a
wide range of Ponzi schemes, pyramid schemes, and
multi-level marketing schemes—including internetbased schemes—as securities. See, e.g., SEC v. SG Ltd.,
265 F.3d 42 (1st Cir. 2001) (internet-based Ponzi
scheme); SEC v. Int’l Loan Network, Inc., 968 F.2d
1304, 1307-08 (D.C. Cir. 1992) (pyramid scheme); SEC
v. Koscot Interplanetary, Inc., 497 F.2d 473, 478-79 (5th
Cir. 1974) (multi-level marketing scheme); SEC v.
Glenn W. Turner Enters., 474 F.2d 476, 482 (9th Cir.
1973) (get-rich-quick marketing scheme). The same
holds true even if not all aspects of a scheme constituted securities, and even where some aspects of a
scheme may have been legitimate. See, e.g., SEC v. Int’l
Loan Network, Inc., 770 F. Supp. 678 (D.D.C. 1991)
(ﬁnding that pyramid recruiting could be regulated as
security even if other aspects of club memberships did
not constitute securities), aff ’d, 968 F.2d 1304 (D.C. Cir.
1992); Koscot, 497 F.2d at 475-76 (similar).
Defendants implicitly concede that the Retail
Proﬁt Pool and the Matrix meet the ﬁrst two elements
of the Howey test, requiring an investment of money in
a common enterprise. Defendants’ argument is that
they did not expect proﬁts based solely upon the efforts
of others; rather, they worked hard for the money they
received. Defendants have ﬁled afﬁdavits stating they
worked many hours to: (1) drive new customers to the

App. 120
penny auction site, (2) promote the penny auction by
placing daily advertisements on the internet, (3) network with other marketing professionals to gain
greater exposure for Zeekler and ZeekRewards, (4) set
up personal websites in an effort to drive trafﬁc to
Zeekler and ZeekRewards, (5) recruit customers to
the penny auction and new members to ZeekRewards,
(6) participate in training programs and leadership
calls; and (7) participate in mandatory compliance programs sponsored by ZeekRewards.
Courts have flexibly applied Howey’s “solely through
the efforts of others” formulation. See, e.g., Robinson v.
Glynn, 349 F.3d 166, 170 (4th Cir. 2003) (explaining
that “the Supreme Court has endorsed relaxation of
the requirement that an investor rely solely on others’
efforts, by omitting the word ‘solely’ from its restatement of the Howey test”) (citing Int’l Bhd. of Teamsters
v. Daniel, 439 U.S. 551, 561 (1979)); Bailey v. J.W.K.
Properties, Inc., 904 F.2d 918 (4th Cir. 1990) (observing
that “[d]espite the restrictive language of the third
prong of the test, later courts have explained that a
program requiring some effort from the investor may
still constitute an ‘investment contract,’ but the most
essential functions or duties must be performed by others and not the investor”). To hold otherwise would
make it too “easy to evade [the Howey test] by adding
a requirement that the buyer contribute a modicum of
effort.” Turner, 474 F.2d at 482 (ﬁnding investment
contract where investors were required to exert some
effort to recruit new investors); see also Koscot, 497
F.2d at 480. Instead, courts have focused on whether

App. 121
promoters’ efforts are “undeniably signiﬁcant” or “essential managerial efforts” driving the enterprise’s
success or failure. Turner, 474 F.2d at 482.
The Court ﬁnds that the Defendants predominantly relied on the managerial “efforts of others”—
namely Burks and Rex Venture—to generate proﬁts.
Burks and Rex Venture contributed “signiﬁcant” and
“essential managerial efforts” to the enterprise. They
created, updated, and operated the websites, handled
all payments, managed the bank accounts and payment service providers, managed afﬁliate and customer accounts, managed all afﬁliate and customer
services, oversaw and disbursed all bids, operated the
auctions, created all advertisements, sponsored recruiting videos and calls, and decided the daily payout
percentages for the Retail Proﬁt Pool. See, e.g., Compl.
at ¶¶ 7-9, 61, 106-09, and 112.
Investors, on the other hand, could participate in
the Retail Proﬁt Pool and the Matrix with minimal effort. For example, participating in the Retail Proﬁt
Pool required: (i) purchasing a monthly subscription;
(ii) purchasing and giving away VIP Bids or selling Retail Bids; (iii) placing one free online advertisement
daily; and (iv) enrolling penny auction customers, all of
which could be accomplished via automated programs
developed by Burks and Rex. The ZeekRewards website boasted that copying and pasting free ads created
by Defendants should take no more than ﬁve minutes
per day. Compl. at ¶¶21, 25-27. Placing more than one
ad per day, or working to create improved ads, had no

App. 122
impact on the daily award percentage earned by a
qualiﬁed afﬁliate. Compl. at ¶27.
Similarly, participating in the Matrix required:
(i) purchasing a monthly subscription; and (ii) recruiting at least two investors to enroll in the monthly subscription plan, after which that investor was eligible to
receive commissions on every additional paid subscriber within his or her “downline.” Compl. at ¶¶3738. This minimal effort does not change the fact that
investors relied primarily on the efforts of Burks and
Rex for the proﬁts they sought to share. Indeed, courts
have held that the “efforts of others” element of Howey
is met where, as here, investors accrue proﬁts primarily by recruiting new members. See, e.g., Omnitrition
Int’l, Inc. v. Adkins, 79 F.3d 776, 784 (9th Cir. 1996)
(ﬁnding that pyramid scheme satisﬁed the “efforts of
others” element where investors accrued proﬁts primarily by recruiting new members rather than by
selling products); see also Turner, 474 F.2d at 482
(similar); Int’l Loan Network, 968 F.2d at 1308 (similar). Defendants’ emphasis upon the long hours they
worked to recruit other others is misplaced. Without
the essential managerial efforts of Burks and RVG, no
proﬁts would have been generated at all.
As the Court finds that it clearly has subject
matter jurisdiction, it is unnecessary to address the
Receiver’s ancillary and supplemental jurisdiction argument or his argument that the Court also has diversity jurisdiction.

App. 123
B. Motions to Dismiss for Failure to State a
Claim upon which Relief can be Granted
Defendants also move under Rule 12(b)(6) to dismiss each of the Receiver’s claims for failure to state a
claim upon which relief can be granted. “To survive a
motion to dismiss, a complaint must contain sufﬁcient
factual matter, accepted as true, to state a claim to relief that is plausible on its face.” Ashcroft v. Iqbal, 556
U.S. 662, 663 (2009). A complaint, therefore, must allege each necessary element of the claim. Bell Atlantic
Corp. v. Twombly, 550 U.S. 544, 562 (2007). Moreover,
the allegations must sufﬁce to “raise a right to relief
above the speculative level.” Twombly, 550 U.S. at 555.
The Court will address each of the Receiver’s claims
below.
1. Fraudulent Transfer of RVG funds:
In his First Claim for Relief, the Receiver seeks recovery of funds paid out to the Net Winners, alleging
that these funds are the result of fraudulent transfers
that are avoidable by the Receiver pursuant to N.C.
Gen. Stat. §39-23.4(a)(1), N.C. Gen. Stat. §39-23.4(a)(2)
or N.C. Gen. Stat. §39-23.5 and recoverable from the
Defendants pursuant to N.C. Gen. Stat. §39-23.7 and
N.C. Gen. Stat. §39-23.8.
Defendants argue that this claim must be dismissed because neither the Receiver nor RVG (in
whose shoes he stands) is a “creditor” as deﬁned in the
North Carolina Uniform Fraudulent Transfer Act
(“NCUFTA”) and therefore he has no standing to

App. 124
pursue fraudulent transfer claims. Defendants’ argument is without merit.
The NCUFTA deﬁnes “creditor” as a person who
has a claim. N.C. Gen. Stat. §39-23.1(4). It is wellsettled that a Receiver has standing to assert claims
for fraudulent transfer under the UFTA because the
Receivership entity was harmed by the diversion of
those assets. See Scholes v. Lehmann, 56 F.3d 750 (7th
Cir. 1995). In Scholes, the defendants, who included a
net winner in a Ponzi scheme, argued that the receiver’s fraudulent transfer claims belonged to the
creditors rather than the receiver. The Seventh Circuit
rejected this argument and found that because the corporate entities were harmed when assets were diverted through the fraudulent transfer, the receiver, as
holder of claims belonging to the corporations, had
standing to assert those claims. Id. at 754-55; see also
Janvey v. Democratic Senatorial Campaign Committee,
Inc., 712 F.3d 185, 192 (5th Cir. 2013) (applying principles of Scholes and ruling that the receiver had standing to recover assets or funds that the principal
fraudulently diverted to third-party political organizations without receiving reasonably equivalent value);
Donell v. Kowell, 533 F.3d 762, 777 (9th Cir. 2008)
(adopting Scholes and ruling that the receiver “has
standing to bring this suit [to avoid transfers to defendants] because, although the losing investors will
ultimately beneﬁt from the asset recovery, the receiver
is in fact suing to redress injuries that [the receivership entity] suffered when its managers caused [the
entity] to commit waste and fraud”); Wiand v. Lee, 753

App. 125
F.3d 1194, 1202 (11th Cir. 2014) (adopting Scholes and
ruling that the receiver has standing to sue on behalf
of the corporations that were injured by the Ponzi
scheme operator).
This Court has also adopted the reasoning of the
Scholes court. See Quilling v. Grand Street Trust, 3:04cv-251, 2005 WL 1983879, at *5 (W.D.N.C. Aug. 12,
2005); see also Quilling v. Cristell, 3:04-cv-252, 2006
WL 316981, at *5 (W.D.N.C. Feb. 9, 2006). In those
cases, the court-appointed receiver brought a suit to
recover funds fraudulently transferred to the defendants in connection with a Ponzi scheme. Grand Street
Trust, 2005 WL 1983879, at *1; Cristell, 2006 WL
316981, at *1. This Court explicitly relied on the
Scholes decision in ﬁnding that the receiver had standing to bring the fraudulent transfer claims against the
defendants based on the loss of funds that caused
harm to the receivership entity. Grand Street Trust,
2005 WL 1983879, at *5-6; Cristell, 2006 WL 316981,
at *5-6.
The Defendants attempt to distinguish Scholes
and criticize this Court’s analysis in the Quilling cases,
but make no attempt to address the other circuit court
decisions cited above that have also adopted the reasoning in Scholes. Defendants’ position is contrary to
the weight of authority and the Court ﬁnds that the
Receiver does have standing to assert a claim under
the NCUFTA.
Defendants next argue that the Receiver has
failed to plead the NCUFTA claim with the speciﬁcity

App. 126
required by Rule 9(b). Speciﬁcally, Defendants contend
that the Complaint: (1) fails to make a single factual
allegation against any of the named Defendants (other
than alleging their places of residence and that they
were Net Winner Afﬁliates); (2) constitutes a bare recital of the statutory elements of fraudulent transfer;
and (3) fails to identify the dates or amounts of any
fraudulent transfers allegedly made by any of the
named Defendants.
In support of their argument, Defendants cite two
unpublished cases, one from the Eastern District of
North Carolina, and one from the Bankruptcy Court
for the Middle District of North Carolina. Neither case
contains an articulation of the court’s reasoning for applying Rule 9(b) to a NCUFTA claim. Courts that have
closely analyzed the issue have found that fraudulent
transfer claims pursuant to the UFTA are subject to
Rule 8’s pleading standard. As these courts explain, a
claim for fraudulent transfer involves no allegations of
fraud on the part of the defendant transferee, but only
by the non-party transferor (the Insiders here). Consequently, where a complaint does not allege that the defendants themselves committed fraudulent acts, Rule
8 applies. See Janvey v. Alguire, 846 F. Supp. 2d 662,
676 (N.D. Tex. 2011) (“The Court can ﬁnd no principled
reason for applying Rule 9’s pleading requirements to
. . . the Receiver’s fraudulent transfer claims. . . .”) (citation omitted); GE Capital Commercial, Inc. v. Wright
& Wright, Inc., 2009 WL 5173954, at *10 (N.D. Tex.
2009) (“[Plaintiffs have] not alleged fraud against . . .
Moving Defendants, which is the contemplation of

App. 127
Rule 9(b). Plaintiffs have merely alleged that Moving
Defendants were the recipient of funds fraudulently
obtained. Nothing in the complaint or record indicates
that Moving Defendants committed any fraudulent act
that caused the funds to be transferred.”) (emphasis in
original); Nesco, Inc. v. Cisco, 2005 WL 2493353, at *3
(S.D. Ga. 2005) (“Neither the intent of the debtor nor
the knowledge of the transferee is required to be
proven in order to establish a fraudulent conveyance
under Georgia’s UFTA. As a result, the considerations
that lead to the pleading requirements under Rule 9(b)
in cases of common law fraud are not present in an action for fraudulent conveyance.”). Based upon the persuasive reasoning of these courts, the Court ﬁnds that
Rule 8 governs the fraudulent transfer claim.2
Defendants contend that even if the Court applies
the pleading requirements of Rule 8, the Complaint
nevertheless fails because the Receiver makes only
threadbare recitals of the elements of a NCUFTA
claim supported by mere conclusory statements. The
Court has reviewed the Complaint, which sets forth in
great detail the existence of the RVG Ponzi scheme, the
2

Even if the Court were to review the claim under Rule 9(b),
the Complaint contains sufﬁcient particularity to survive Defendants’ Motion to Dismiss. The Fourth Circuit has instructed that
courts “should hesitate to dismiss a complaint under Rule 9(b) if
the court is satisﬁed (1) that the defendant has been made aware
of the particular circumstances for which [the defendant] will
have to prepare a defense at trial, and (2) that plaintiff has substantial pre-discovery evidence of those facts.” Harrison v. Westinghouse Savannah River Co., 176 F.3d 776, 784 (4th Cir. 1999).
Those two factors are certainly present here.

App. 128
manner in which it operated, the amount of funds
transferred to the named Defendants, and the general
timeframe of the transfers. Defendants would have the
Receiver allege the speciﬁc dates and amounts of each
of the 690+ transfers from RVG during the life of
ZeekRewards. The Court ﬁnds such speciﬁcity to be unnecessary and unwarranted.
Taking all the Complaint’s allegations as true and
drawing all reasonable inferences in Plaintiff ’s favor,
the Court ﬁnds that the Complaint states a plausible
claim for relief for violation of the NCUFTA. Accordingly, Defendants’ Motion to Dismiss this claim is denied.
2. Common Law Fraudulent Transfer
The Second Claim for Relief is for common law
fraudulent transfer. Defendants assert that this claim
must be dismissed because the claim does not exist
in North Carolina. Fraudulent conveyance claims in
North Carolina are governed by statute, not common
law. In support of their argument, Defendants cite a
case from the Arizona Court of Appeals, Moore v.
Browning, 203 Ariz. 102, 50 P.3d 852 (Ct. App. 2002).
The Receiver contends that his common law fraudulent transfer claim is asserted in the alternative. To
the extent that the Receiver cannot assert claims under the NCUFTA, he argues that he is entitled under
common law to recover the fraudulent transfers made
by RVG to the Defendants. See In re Valente, 360 F.3d
256 (1st Cir. 2004) (collecting cases and concluding

App. 129
that the adoption of the UFTA by a state does not
preempt common law remedies relating to fraudulent
transfers). The Court agrees. Defendants’ Motion to
Dismiss this claim is likewise denied.
3. Constructive Trust
Finally, the Defendants move to dismiss the Receiver’s claim for constructive trust, arguing that “constructive trust” is an equitable remedy, not a cause of
action. Moreover, Defendants argue that North Carolina case law is clear that a constructive trust is an equitable remedy that is only available if there is no
adequate legal remedy.
North Carolina law holds that a constructive trust
may be requested as a claim or in the prayer for relief.
See, e.g., Variety Wholesalers, Inc. v. Salem Logistics
Trafﬁc Servs., LLC, 723 S.E.2d 744 (N.C. 2012) (reversing denial of constructive trust for further fact-ﬁnding
where constructive trust was alleged as an afﬁrmative
claim for relief ); see also Cury v. Mitchell, 688 S.E.2d
825, 828 (N.C. Ct. App. 2010) (“These allegations and
the facts as presented in the complaint are sufﬁcient
to state a claim for constructive trust, and the trial
court erred by granting defendant’s motion to dismiss
for failure to state a claim.”). The Court ﬁnds that the
Receiver has properly requested a constructive trust,
regardless of whether it is technically considered a
claim or a remedy.
Defendants further contend that the Complaint
fails to allege any wrongdoing by any of the named

App. 130
Defendants sufﬁcient to give rise to the imposition of a
constructive trust. “A constructive trust . . . is a trust
by operation of law which arises contrary to intention
. . . against one who . . . in any way against equity
and good conscience, either has obtained or holds the
legal right to property which he ought not, in equity
and good conscience, hold and enjoy.” Roper v. Edwards, 373 S.E.2d 423, 425 (N.C. 1988) (quoting Electric Co. v. Construction Co., 148 S.E.2d 856, 860 (N.C.
1966)). In Roper, the defendants argued “that the absence of fraud defeats a request for constructive trust.”
Id. The North Carolina Supreme Court disagreed:
We disagree. A constructive trust is imposed
“to prevent the unjust enrichment of the
holder of title to, or of an interest in, property
which such holder acquired through fraud,
breach of duty or some other circumstance
making it inequitable for him to retain it
against the claim of the beneﬁciary of the constructive trust.” Wilson v. Development Co.,
276 N.C. at 211, 171 S.E.2d at 882 (emphasis
added). “Inequitable conduct short of actual
fraud will give rise to a constructive trust
where retention of the property by the holder
of the legal title would result in his unjust enrichment.” 4A R. Powell, Powell on Real Property § 596[1], at 48-23 (1986). Fraud need not
be shown if legal title has been obtained in violation of some duty owed to the one equitably
entitled. Electric Co. v. Construction Co., 267
N.C. 714, 719, 148 S.E.2d 856, 860 (1966).
Roper, 373 S.E.2d at 425 (emphasis added) (internal
quotation marks omitted).

App. 131
Defendants’ argument that they should not be subjected to the imposition of a constructive trust because
their own fraud is not the subject of the complaint fails.
The Complaint sets forth allegations sufﬁcient to show
that “some other circumstance” makes it inequitable
for these Defendants to retain the funds they received.
See id. This “other circumstance” is that Defendants
received the funds from an admitted Ponzi and pyramid scheme,3 and that the funds are nothing more than
other people’s money wrongfully diverted from RVG.
Therefore, Defendants have received property which
they “ought not, in equity and good conscience, hold
and enjoy.” Id.
Lastly, Defendants argue that a constructive trust
is an equitable remedy that is only available if there is
no adequate legal remedy. In re Gertzman, 446 S.E.2d
130, 135 (N.C. App. 1994) (“A constructive trust does
not arise where there is no ﬁduciary relationship and
there is an adequate remedy at law.”), citing Security
National Bank of Greensboro v. Educators Mutual Life
Ins. Co., 143 S.E.2d 270, 276 (N.C. 1965). Defendants
contend that the Receiver’s allegation that he has “no
adequate remedy at law” (Comp., ¶ 175) is a naked legal conclusion, and must be supported by factual allegations to be viable.
Contrary to Defendants’ argument, a review of
the Complaint reveals that the Receiver has alleged
3

To be clear, the Defendants themselves have not admitted
that ZeekRewards was a Ponzi or pyramid scheme. However, the
principal, Paul Burks, and certain insiders have made such an
admission and have agreed to plead guilty to securities fraud.

App. 132
sufﬁcient facts which, viewed in the light most favorable to the Receiver, demonstrate that there is no
adequate remedy at law. Defendants, as some of the
top-dollar ZeekRewards net winners, were early adopters
of the ZeekRewards scheme. As a result, these named
Defendants may have already dissipated much of their
net winnings, which without a constructive trust
would be impossible for the Receiver to trace and secure. The Receivership will likely never be able to pay
victims of the ZeekRewards scheme the full amount
of their losses. Without a constructive trust and the
ability to trace fraudulently transferred Receivership
Assets, the Receiver’s remedy at law is inadequate.
Therefore, the Complaint contains sufﬁcient allegations to warrant the imposition of a constructive trust
against the Defendants.
IT IS THEREFORE ORDERED that Defendants’
Motion to Dismiss is hereby DENIED.
Signed: December 8,
/s/ Graham C. Mullen
Graham C. Mullen
United States District Judge

App. 133
FILED: May 21, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
-----------------------------------------------------------------------

No. 18-1149
(3:14-cv-00091-GCM)
-----------------------------------------------------------------------

KENNETH D. BELL, in his capacity as courtappointed Receiver for Rex Venture Group, LLC
d/b/a ZeekRewards.com
Plaintiff - Appellee
v.
DURANT BROCKETT
Defendant - Appellant
and
RONALD COX; FRANK SCHEUNEMAN;
THERESA BRIDIE; MARC KANTOR; PAOLA
KANTOR; TIM RICE; WAYLAND WOODS; T. H.;
EDWARD ROURKE; EDDY LAYNE; CLYDE
GARRETT; LARRY ALFORD; AARON PIHA
Movants - Appellants
and
EDDY LAYNE; CLYDE GARRETT;
LARRY ALFORD; AARON PIHA
Parties Below - Appellants
and

App. 134
TODD DISNER; TRUDY GILMOND; TRUDY
GILMOND, LLC; JERRY NAPIER; DARREN
MILLER; RHONDA GATES; DAVID SORRELLS;
INNOVATION MARKETING LLC; AARON
ANDREWS; SHARA ANDREWS; GLOBAL
INTERNET FORMULA, INC.; T. LEMONT SILVER;
KAREN SILVER; MICHAEL VAN LEEUWEN;
DAVID KETTNER; MARY KETTNER; P.A.W.S.
CAPITAL MANAGEMENT LLC; LORI JEAN
WEBER; A DEFENDANT CLASS OF NET
WINNERS IN ZEEKREWARDS.COM;
DEFENDANT CLASS
Defendants
-----------------------------------------------------------------------

ORDER
-----------------------------------------------------------------------

The court denies the petition for rehearing and rehearing en banc. No judge requested a poll under Fed.
R. App. P. 35 on the petition for rehearing en banc.
Entered at the direction of the panel: Judge Niemeyer, Judge Keenan, and Judge Quattlebaum.
For the Court
/s/ Patricia S. Connor, Clerk

App. 135
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT
OF NORTH CAROLINA
CHARLOTTE DIVISION
Civil Action No: 3:14-CV-00091-GCM
KENNETH D. BELL, in his
capacity as court-appointed
Receiver for Rex Venture
Group, LLC d/b/a
ZeekRewards.com,
Plaintiff,
v.
TODD DISNER, in his individual
capacity and in his capacity as
trustee for Kestrel Spendthrift
Trust; TRUDY GILMOND;
TRUDY GILMOND, LLC; JERRY
NAPIER; DARREN MILLER;
RHONDA GATES; DAVID
SORRELLS; INNOVATION
MARKETING, LLC; AARON
ANDREWS; SHARA ANDREWS;
GLOBAL INTERNET FORMULA,
INC.; T. LEMONT SILVER;
KAREN SILVER; MICHAEL VAN
LEEUWEN; DURANT BROCKETT;
DAVID KETTNER; MARY
KETTNER; P.A.W.S. CAPITAL
MANAGEMENT LLC; LORI
JEAN WEBER; and a Defendant
Class of Net Winners in
ZEEKREWARDS.COM;
Defendants.

App. 136
NEXSEN PRUET DEFENDANTS’
OPPOSITION TO RECEIVER’S MOTION
FOR CLASS CERTIFICATION
Defendants Trudy Gilmond; Trudy Gilmond, LLC;
Jerry Napier; and Darren Miller (collectively, “Nexsen
Pruet Defendants” or “NP Defendants”) hereby oppose
the Receiver’s Motion for Class Certiﬁcation (Doc. No.
68) (“Mot.” or “Motion”), for the reasons stated herein.
I.

INTRODUCTION

A defense class may aid the Receiver by allowing
him to litigate a larger portion of his claims in one case,
but certiﬁcation is not proper when it comes at the expense of overburdening the named Defendants and depriving all defendants of their due process rights. The
proper Rule 23 analysis conﬁrms this. To have a class
certiﬁed, the Receiver must satisfy both Rule 23(a) and
Rule 23(b)(1)(A) or (B). Although he fails to meet most
of the 23(a) factors, it is in the 23(b)(1) analysis where
it becomes most evident that certiﬁcation is improper.
In particular, certification under 23(b)(1)(A) is
not permitted unless individual actions would create
not just inconsistent judgments, but judgments that
required the Receiver to take two diametrically opposed courses of action. Here, at worst, individual actions may conclude that the Receiver can collect in
some cases and not in others. That does not support
certiﬁcation. Indeed, for this reason, the Fourth Circuit
has stated that 23(b)(1)(A) (and, for that matter,
23(b)(1)(B)) certiﬁcation is not for cases seeking money

App. 137
damages – not even when combined with a claim for
declaratory relief. See infra, at Section II.B.1-2.
Certiﬁcation under 23(b)(1)(B) – which questions
whether putative class members would be injured by
individual actions – is not proper, either. The Receiver’s
argument for why unnamed defendants would be
harmed is that precedent could occur in one case that
could bind them in another. However, unnamed defendants cannot be bound by rulings in a case to which
they are not parties. And, even if precedent from one
case could affect subsequent defendants, the majority
rule is that this does not form a basis for certiﬁcation.
See infra, at Section II.B.2.
The Receiver himself has tacitly admitted that he
is concerned with neither inconsistent verdicts nor
stare decisis by deciding to sue out-of-country Net Winners in another action.
Underpinning all of this (in addition to the Receiver’s failure to meet the other 23(a) factors) is that
the proposed class representatives are completely unwilling and ﬁnancially unable to pay attorney fees to
defend the class. The only way that the Court could resolve this problem would be to have the Receiver pay
class counsel’s fees. Courts have approved this approach when, as here, a class saves the Receiver’s resources. See infra, at Section II.A.3.

App. 138
II.

ARGUMENT & ANALYSIS

“Defendant class actions . . . require special care
before certiﬁcation.” Flying Tiger Line, Inc. v. Cent.
States, Sw. & Se. Areas Pension Fund, CIV. A86-304CMW, 1986 WL 13366, *4 (D. Del. Nov. 20, 1986); 7A
Fed. Prac. & Proc. Civ. § 1770 (3d ed. 2014) (“Although
the standard applied for determining adequacy of representation for a defendant class is the same as that
used in plaintiff class actions, some special problems
have surfaced that require particular attention”). Flying Tiger found that the very “fact that this case involves a defendants’ class action” weighed against
certiﬁcation. Id. The major questions the Court must
ask involve fairness to the unwilling, under-funded
class representative – and fairness to the absent defense class members for whom the recalcitrant class
representative serves as a dragooned proxy:
No matter how desirable the economy and enforcement functions of defendant class actions
may be, though, they cannot be purchased at
the expense of fundamental unfairness to persons who are not before the court that binds
them; the constitutional requirement of due
process ultimately limits the scope of the defendant class action procedure. Moreover, the
defendant class action device poses problems
of potential unfairness to the defendant class
representative who is compelled to conduct
the litigation for many other defendants as
well as himself.
Defendant Class Actions, 91 Harv. L. Rev. 630, 632-33
(1978). Due process concerns – on both the class

App. 139
representative side and the class member side – pervade the inquiry. Courts assign paramount importance
to due process in defense class actions, ﬁnding them
“particularly acute in defendant class actions where
the unnamed class members risk exposure to liability.”
Bakalar v. Vavra, 237 F.R.D. 59, 63-64 (S.D.N.Y. 2006)
(collecting cases ﬁnding that defendant class actions
create a special need to be attentive to the due process
rights). See also Marchwinski v. Oliver Tyrone Corp., 81
F.R.D. 487, 489 (W.D.Pa. 1979).
Among other problems speciﬁc to defense class actions, “if there is any evidence that the defendant representative is not able to or will not vigorously defend
the action, then the class should not be certiﬁed.” 7A
Fed. Prac. & Proc. Civ. § 1770. This raises the issue of
what to do where available representatives lack ﬁnancial resources to undertake measures necessary to represent members.
In short, the Court’s analysis of whether a defense
class should be certiﬁed must be strenuous – more so
than a plaintiff class analysis. Bakalar, 237 F.R.D. at
64. Where district courts did not carefully scrutinize
defense class certiﬁcation factors, appellate courts
have considered only claims of named and intervening
defendants. See Ameritech Ben. Plan Comm. v.
Commc’n Workers of Am., 220 F.3d 814, 820-21 (7th Cir.
2000). In Ameritech, the Seventh Circuit was compelled to consider whether class certiﬁcation was
properly handled before it could proceed to the merits.
See id., at 819-20 (“Despite the fact that neither party
has addressed the way that class certiﬁcation was

App. 140
accomplished in this case, we cannot proceed without
considering this problem as well.”). It noted that “neither the district court nor the parties paid appropriate
attention to the certiﬁcation question.” Id. at 820-21.
This created due process problems: “The problem with
ignoring these issues is that the rights of persons not
before the court are necessarily implicated once a class
is certiﬁed.” Id. at 821. Thus, “[w]e have concluded that
the proper way to proceed is to decide the claims of the
parties who are clearly before the court: the named
plaintiffs and anyone who intervened formally.” Id.
The Receiver has the burden of convincing the
Court that the named representatives will protect the
defendant class’ interests. Cumming v. South Carolina
Lottery Commission, No. 3:05-CV-03608-MBS, 2008
WL 906705, *2 (D. S.C. Mar. 31, 2008). The Court has
“wide discretion in deciding whether or not to certify a
proposed class.” Central Wesleyan College v. W.R. Grace
& Co., 6 F.3d 177, 185 (4th Cir. 1993). It should consider
that “defendant class actions are seldom certiﬁed.” Bakalar, 237 F.R.D. at 64; Marchwinski, 81 F.R.D. at 489
(“A defendant class is an unusual, although not entirely novel concept.”)).
A. The Proposed Class Does Not Meet the Rule
23(a) Class Requirements.
Rule 23(a) states that a class member may be
sued as “representative parties on behalf of all members” if (1) that class is so large that joinder would not
be practical (numerosity), (2) questions of law and fact

App. 141
common to the class predominate (commonality), (3)
the representatives’ claims and defenses are typical to
those of the class (typicality), and (4) the representatives will fairly and adequately protect the class interests (adequacy). All factors except numerosity present
fatal challenges here.
1. Serious Differences in Questions of Law and
Fact Divide the Proposed Class.
The “commonality” factor examines whether similar questions of law and fact exist within the proposed
class. Identifying broad commonalities (all the class
defendants had some connection to, and received funds
from, RUG), the Receiver argues that all factual and
legal issues need not be common, so long as “a single
issue is common to all class members.” Mot., at pp. 7-8
(quoting Weinman v. Fid. Capital Appreciation Fund
(In re Integra Realty Res., Inc.), 179 B.R. 264, 270
(Bankr. D. Colo. 1995). But cases often have common
questions – the actual question is: will the answers be
common; will dissimilarities within the members disrupt the ability to reach common resolution?
What matters to class certiﬁcation . . . is not
the raising of common ‘questions’—even in
droves—but, rather the capacity of a classwide proceeding to generate common answers
apt to drive the resolution of the litigation.
Dissimilarities within the proposed class are
what have the potential to impede the generation of common answers.

App. 142
Wal-Mart Stores, Inc. v. Dukes, 131 S. Ct. 2541, 2551
(2011).
Here, notwithstanding some broad common questions, there is a predominance of divergent and antagonistic factual and legal questions and answers. Class
members would divide among several key categories,
as well as others that will emerge during discovery. For
example:
Injury: The Receiver has not demonstrated that
no members of the putative class received RVG funds,
in whole or in part, because of some less than arm’s
length relationship with RVG insiders. Discovery, upon
information and belief, will show that not all proposed
members are on equal footing in terms of their relationships with the insiders. Other members, as well as
the NP Defendants, suffered a different injury from the
members whose income was generated not from work
for RVG, but as gifts or for other reasons. Depending
upon how various legal issues are resolved later in the
case, the NP Defendants and some members may be in
a more favorable position on the merits than these
other members.1
Counterclaims: Some members had funds in
electronic accounts that originated with RVG. It appears that the Receiver already has seized those funds
in some instances. Other members did not have funds
in such accounts, and have not had funds seized. The
1

Typicality “tends to merge” with commonality; NP Defendants incorporate arguments made Section II.A.1. into Section
II.A.2, and the reverse. Dukes, 131 S.Ct. at 2251, n. 5.

App. 143
speciﬁc circumstances affect which counterclaims each
class member may bring. As noted infra at Section
II.A.2., this fracturing is already apparent from the
named Defendants’ counterclaims, which materially
differ.
Merits: Did a class member rely on counsel’s advice that the ZeekRewards program did not involve securities? Which members worked long hours for their
income? Answers may differ, and separate members’
claims, approaches, and defenses.
Third- Party Claims: NP Defendants may seek
to add parties, such as compliance counsel, other members, and third party transferees, to this case. If they
do, they will not be similarly- situated to members who
would lack standing or basis for such suits. If they become class representatives and determine that they
cannot afford the legal fees to sue these parties as part
of this action, which is also possible, class members
who would have beneﬁtted from the claims will be materially disadvantaged.
Antagonisms Between Class Members: Defendants may assert antagonistic positions in this suit, depending upon what emerges in discovery. For instance,
members who relied on an opinion that the program
did not involve securities or who worked for their income, might pursue defendants who did not rely on advice of counsel or whose income constituted a windfall
or was obtained for some reason other than from work.
Defendants closer to the RVG insiders might have received gifts disguised as legitimate work income

App. 144
(separately, or in addition to, RVG work income), to the
detriment the NP Defendants. The defendants who
acted in better faith should pursue causes of action
against the others. NP Defendants’ counsel should not
risk an ethics violation or be conﬂicted because they
sue members.
2. The Typicality Analysis Shows that Class
Representatives and Members Will Argue
Different Claims and Defenses.
In assessing typicality the Court should attempt
to “uncover conﬂicts of interest between the named
parties and the class they seek to represent,” and examine whether class representatives “possess the
same interest and suffer the same injury as the class
members.” Alston v. Virginia High School League, Inc.,
184 F.R.D. 574, 578 (W.D. Va. 1999) (also noting that
“typicality and adequacy requirements overlap,” and
combining analysis of same) (citing Amchem Prod., Inc.
v. Windsor, 521 U.S. 591, 625-26 (1997)). Proposed class
representative Defendants in this case will argue different claims and defenses from both each other and
proposed class members. The Court can observe the beginning of this from the Answers and Counterclaims
that the named Defendants have ﬁled to date, in which
even the named Defendants assert different defenses
and counterclaims. Differences in claims and defenses
are prompted by issues like whether the Receiver took
funds from a particular defendant’s electronic banking
account, whether speciﬁc defendants relied on representations by RVG’s compliance counsel, whether and

App. 145
how much speciﬁc defendants worked for the income
that the Receiver now tries to recover, and how close a
speciﬁc defendant was to the RVG insiders. Presumably, additional distinguishing facts and legal issues
will arise as the case evolves. The class members will
never be in a position to raise them (or, potentially, to
even discover them), as the proposed class representatives have no reason (or ﬁnancial resources) to investigate and raise those issues for them.
3. The Representatives Cannot Afford to Fairly
Represent the Class.
The last factor – whether the representative parties will fairly and adequately protect the interests of
the class – is one of the most signiﬁcant in the 23(a)
analysis. NP Defendants and, upon information and
belief, all other named Defendants (some of whom are
pro se) simply cannot afford to sustain the burden of
standing up for the rights of some 9,400 “free riders.”
Even the costs of preparing this brief have forced the
NP Defendants to reallocate fees and compromise
other planned aspects of their defense, in violation of
their due process rights. The Court should decline to
certify a class. Or, if it opts to appoint NP Defendants’
counsel as counsel for the class representatives, it
should fashion a fee structure that allows NP Defendants to serve as class representatives without additional burden attributable to their representative
status. The Receiver beneﬁts from streamlining efforts
and efﬁciencies of a single class representative; he
should pay the fees.

App. 146
In analogous contexts, courts provide for payment
of attorney fees out of the equivalent of the fund that
the Receiver controls, where the class representative
makes a substantial contribution to streamlining the
plaintiff ’s efforts by allowing multiple issues to be litigated at once. See, e.g., Gray v. Shapiro (In re Dehon,
Inc.), 298 B.R. 206 (D. Mass. Bankr. 2003). In Dehon,2 a
bankruptcy plan administrator commenced an adversary proceeding to subordinate certain claims of shareholders in the debtors. See id. at 210. The plan
administrator moved to certify a class of the defendant
shareholders. See id. The court heavily factored the
problem of defense fees in its analysis of the adequacy
factor. See id. at 215-16. In assessing whether the class
representative would be adequate, the court focused on
“whether the putative class representative has the resources to conduct the litigation fully.” Id. at 215. It
found as a key reason for certiﬁcation that “[r]esources
necessary to sustain an adequate defense do not appear to be an issue.” Id at 216. This was because “the
Putative Representative has [funds], courtesy of the
Plan Administrator, with which to conduct his defense
of the class.” Id.

2

The Receiver relies on Dehon for its 23(b)(1)(A) argument.
See Mot., at p. 15. Although the NP Defendants disagree that
Dehon supports certiﬁcation under 23(b)(1)(A) here, Dehon softens the impact on class representatives by providing for attorney
fees where the work of the class representative streamlines the
litigation and beneﬁts an estate. If the Court accepts Dehon on
the 23(b)(1)(A) argument, it should also accept Dehon’s provision
for defense class representative fees, because that provision was
a material element in the Dehon court’s decision to certify.

App. 147
Appointing any named Defendant as class representative would impose a signiﬁcant additional ﬁnancial burden beyond the costs of litigating their speciﬁc
action. The Receiver’s attempt to involve 9,400 defendants in this case has already dramatically increased
the NP Defendants’ fees beyond those that would be
occurred in their individual action. Several categories
drive the additional fees.
Discovery: To represent the class, defense counsel would need to obtain, conduct, and review discovery
pertinent not just to the NP Defendants, but to the
class members. This is because, as noted, the defendants are not similarly-situated. For example, different
factual circumstances have driven differing counterclaims in the ﬁlings to date.
The problem pervades all aspects of discovery.
Document discovery is already vast. No formal provision has been made to shift costs to the Receiver of
hosting, organizing, and repeatedly searching this discovery. Even without concerning themselves with the
class members, the NP Defendants will be hardpressed to ﬁnd resources to properly review the database without fee sharing.
The discovery and investigation problem further
extends to gathering information from members. Class
counsel would need to solicit and process information
from members to determine which qualify for certain
claims and defenses. Non-privileged information from
the responses may then be discoverable by the

App. 148
Receiver, organizing which would be a substantial task
for class counsel.
Brieﬁng/ Preservation of Legal Rights: Counsel
for the named Defendants have already put forth a
great deal of effort into brieﬁng. By seeking clariﬁcation from the Court on (and narrowing) threshold issues, like subject matter jurisdiction, this work has
beneﬁtted the Receiver, in that he will not need to litigate jurisdiction and adequacy of his pleading in multiple cases if the Court certiﬁes a class.3 Accordingly,
not just the proposed class members, but also the Receiver and his so-called “victims”4 are getting a “free
ride” on the backs of the named Defendants, who are
streamlining the case for all involved.
If the Court certiﬁes a class, the problem of class
counsel providing free services to the class members
and the Receiver will compound. After certiﬁcation,
Defendants will need to brief and litigate a number
of issues relating to discovery, summary judgment,
experts, and other matters, as well as potentially try
a case. The scope of all of these efforts will be
3

Even this brief beneﬁts all proposed class members, because a class action is not in the best interests of the class members. See infra, at Section II.B.
4
At the appropriate time, the Court should consider who the
“victims” that the Receiver purports to assist are. They are simply
Net Winners (the Defendants) who did not work hard to earn the
RVG funds, and who therefore became Net Losers. If Defendants
are liable, and that is denied, the Net Loser “victims” are more so,
because they did not expend the expected effort. In representing
one similarly-situated group while suing the other, the Receiver
has a conﬂict of interest.

App. 149
dramatically expanded by a class. The beneﬁt to the
Receiver of having the undersigned litigate all of these
issues here, rather than in multiple actions, is apparent. He should pay the fees.
Interlocutory Appeal: This case already involves
some novel issues of law, including with respect to preliminary issues related to subject matter jurisdiction
and class certiﬁcation. If the NP Defendants received
an adverse decision on these questions, particularly
certiﬁcation, the NP Defendants would be obligated to
immediately appeal on behalf of themselves or the
members, solely to clarify the law at the earliest possible stage and fully protect all members’ rights. Fed. R.
Civ. P. 23(f ). Clariﬁcation on the issues will serve both
the Receiver and all proposed class members, and
streamline the case by obviating need for post- judgment litigation if the Receiver prevails in this action,
or for multiple appeals in many cases. The Receiver
should pay the Defendants’ fees for such an appeal.
Notices and Administration: It is self-evident
that if a class is certiﬁed, administrative matters related to the defense work for that class (including all
discovery responsibilities) should be covered by the Receiver.
Communications with Class: If a class is certiﬁed, its members likely will communicate with class
counsel on a regular basis. The Receiver should pay associated legal fees, as they would not be incurred without the class.

App. 150
This is merely an illustrative recitation of expenses attributable to the named Defendants if a class
is certiﬁed. Since the named Defendants cannot incur
these expenses (and, even if they could, doing so would
compromise their efforts in core areas of their defense),
the Court should either decline to certify a class or, if
it does, it should order the Receiver to pay all reasonable fees of the defense, and to reimburse the named Defendants for fees paid to date.5 6
B. Class Certification Under Rule 23(b)(1) is
Improper.
Even if the Court determines that the Receiver
has met his burden to show that the Rule 23(a) factors
have been satisﬁed, he must demonstrate that the case
meets the conditions of one of the Rule 23(b)(1) tests.
The Receiver argues that he can achieve this by making a sufﬁcient showing under Rule 23(b)(1)(A) or
23(b)(1)(B). See Mot., at p. 14. Rule 23(b)(1)(A) examines whether the Receiver would be prejudiced by individual adjudication of the case, while Rule 23(b)(1)(B)
tests whether the class members would be prejudiced
by individual adjudication. See Zimmerman v. Bell, 800
F.2d 386, 389 (4th Cir. 1986). The test for this prejudice
5

Given that an adverse decision on the fee issue would, in
the event of certiﬁcation, be fatal to the NP Defendants’ ability to
ﬁnance a defense, the NP Defendants request that, if a class is
certiﬁed, they be permitted to supplement this request for fees
with an additional written submission.
6
The 23(a)(4) ﬁnding is also defeated because antagonism
exists among the members. See supra.

App. 151
is more speciﬁc and stringent than the Receiver suggests.
Under Rule 23(b)(1)(A), the Receiver must show
that, without certiﬁcation, he would confront not just
“inconsistent or varying adjudications with respect to
individual” defendants, but inconsistent or varying adjudications “that would establish incompatible standards of conduct” for the Receiver. This means: two
rulings that would instruct the Receiver to take two
actual incompatible actions, such as simultaneously
standing still and walking.
With respect to the individual defendants, he must
show that absent a class, he would face rulings and
judgments in this case that were “dispositive of the interests of the other members not parties to the individual adjudications or would substantially impair . . .
[the non- party defendants’] ability to protect their interests.” Fed. R. Civ. P. 23(b)(1)(B). Potential prejudicial
impact is not sufﬁcient.
The Receiver may be inconvenienced if he has to
litigate separately with each defendant. He might get
inconsistent judgments in different cases. Those problems do not rise to the level of a showing under 23(b)(1)
sufﬁcient to support certiﬁcation. See, e.g., Zimmerman, 800 F. 2d 386, 389 (4th Cir. 1986); Cuming, 2008
WL 906705, at *6; National Union Fire Insurance
Company of Pittsburgh v. Midland Bancor, Inc., 158
F.R.D. 681, 686-88 (D. Kan. 1994); Employers Insurance of Wausau v. Federal Deposit Insurance Corp., 112
F.R.D. 52, 55-57 (E.D. Tenn. 1986); In re Arthur

App. 152
Treacher’s Franchise Litigation, 93 F.R.D. 590, 592-94
(E.D. Pa. 1982).
1. Individual Judgments Would Not Stalemate
the Receiver (23(b)(1)(A)).
Both Rule 23(b)(1)(A) and the settled case law direct that this is not the type of case in which, without
certiﬁcation, “varying adjudications” would “establish
incompatible standards of conduct” for the Receiver.
First, this is an action for money damages. See Compl.
(Doc. No. 1), Prayer for Relief. The Receiver wants the
Court to “[e]nter judgment against each [Defendant]
determined to be their net winnings.” Id., Prayer for
Relief, at ¶ 5.
But Rule 23(b)(1)(A) is not to be used in
money damages cases. Cumming, 2008 WL 906705,
at *6 (citing Zimmerman, 800 F.2d at 389) (“The
Fourth Circuit has observed that certiﬁcation under
Rule 23(b)(1) is generally inappropriate where the
plaintiffs seek money damages.”). See also Ortiz v. Fireboard Corp., 527 U.S. 815 (1999). Our Circuit has
opined that “[t]he danger of imposing ‘incompatible
standards of conduct’ on the [Receiver] is . . . not normally posed by a request for money damages.” Zimmerman, 800 F.2d at 389. Rather, 23(b)(1)(A) is for when
individual cases could create competing irresolvable
instructions controlling a party’s rights or activities
(such as competing orders instructing a governing
body to both enforce and not enforce a regulation – you

App. 153
must allow the play to be performed, you must not allow the show to go on).
The Court should simply apply that rule prohibiting 23(b)(1)(A) certiﬁcation for money judgment cases,
but may be interested in the underlying reasoning.
The District of Kansas provided instructive analysis
in National Union. See 158 F.R.D. at 686-887. National
Union Fire Insurance (the “Insurance Company”)
sought a declaration that a policy should be rescinded,
and that claims could not be made, because its issuance was induced by misrepresentations. See id., at
683. It moved to certify a defendant class of those who
had made, or might make, claims. See id., at 684. This
is analogous to our situation where the Receiver seeks
a declaration that RVG’s funds were fraudulently
transferred and to recover those funds. The Kansas
court skipped the 23(a) analysis because it determined
that the Insurance Company did not satisfy 23(b)(1).
See id., at 685 (“Because the court ﬁnds . . . that the
proposed classes do not ﬁt into either category . . . subsection (a) will not be addressed.).7

7

The Court might consider such an approach. The 23(a)
analysis will require a more extensive and subjective inquiry into
the factual and legal issues, defenses, claims, and counterclaims
that 9,400 defendants may delve into over the course of this litigation, and the antagonisms that will arise therein. Rule 23(a)
would also require the Court to investigate the NP Defendants’
ﬁnancial ability to fund the defense (and to fashion means by
which this could be accomplished). The Rule 23(a) analysis would
properly require the Court to order the parties to conduct class
certiﬁcation discovery. On the other hand, the Court can simply

App. 154
Arriving at the Rule 23(b)(1)(A) inquiry, the court
provided a thorough summary of the law. See id., at
686-87. The Insurance Company made the same argument that the Receiver makes: “that certiﬁcation under Rule 23(b)(1)(A) is appropriate because without
class certiﬁcation [it] could be forced to litigate multiple declaratory judgment actions, each having the
potential to produce an inconsistent judgment.” Id. at
686. The Insurance Company further argued that, in
such a case, “[d]efendants not joined in a particular declaratory judgment action would not be bound by an
adverse judgment against another defendant.” Id. at
687.
The court began its analysis by observing that “[t]o
satisfy the requirements of Rule 23(b)(1)(A), there
must be more than the mere possibility that inconsistent judgments and resolutions of identical questions of law would result if numerous actions are
conducted instead of one class action.” Id. at 687 (citing
authority from other circuits). It then turned to analysis of Rule 23’s advisory committee notes:
The advisory committee notes make it clear
that the situation in which a party is faced
with inconsistent results requiring it to pay
some class members but not others is covered
by Rule 23(b)(3)8 not Rule 23(b)(1). The risk
of “incompatible standards of conduct” which
conclude from the face of the pleadings that the Receiver cannot
satisfy Rule 23(b)(1).
8
The Receiver has not moved for certiﬁcation under Rule
23(b)(3).

App. 155
Rule 23(b)(1)(A) was designed to protect
against involves situations where the nonclass party does not know, because of inconsistent adjudications, whether or not it is
legally permissible for it to pursue a certain
course of conduct. Thus, Rule 23(b)(1)(A) is designed to protect against the nonclass party’s
being placed in a stalemated or conﬂicted position and is applicable only to actions in
which there is not only a risk of inconsistent
adjudications but also where the nonclass
party could be sued for different and incompatible afﬁrmative relief.
158 F.R.D. at 687 (quoting Employers Insurance, 112
F.R.D. at 55-57 (citing Advisory Committee Note of
1966 to Rule 23(b)(3); Abramovitz v. Ahern, 96 F.R.D.
208, 215 (D.Conn.1982))). Succinctly, certiﬁcation is
only proper under this clause when individual cases
could result in inconsistent adjudications and the
receiver would be “required to follow incompatible
courses of continuing conduct.” 112 F.R.D. at 55 (further clarifying: “In this case, legal relations between
the plaintiff . . . and the individual ofﬁces and directors
are not such that compliance with any judgment, i.e.
denying coverage would preclude [the plaintiffs] compliance with another judgment directing payment of a
different ofﬁcer’s or director’s claim.”).
The Insurance Company’s argument boiled down
to a claim that “if there were separate suits, it might
win some and lose others.” 158 F.R.D. at 687. The court
concluded: “certiﬁcation under Rule 23(b)(1)(A) is not
intended to address this type of risk.” Id. See also

App. 156
Employers Insurance, 112 F.R.D. at 54 (“Rule
23(b)(1)(A) does not include a situation in which the
risk of inconsistent results in a series of individual actions would only mean that the nonclass party might
prevail in some cases and not in others, and therefore
have to pay damages to some claimants but not to
others.”);9 Arthur Treacher’s, 93 F.R.D. at 592-93 (“The
fact that ATFC would possibly recover against some
defendants but not others in separate actions would
not result in the imposition of ‘incompatible standards
of conduct”; also noting that this is not cured by adding
a claim for declaratory relief ).
Here, “incompatible standards of conduct” would
mean, for instance, an order from one court telling the
receiver he must sue for fraudulent transfer, but an order from another court telling him he must not sue. In
this case’s legal and factual universe, as a practical
matter, that could not happen.
The Receiver places its entire argument on the
same incorrect claim that 23(b)(1)(A) is satisﬁed
merely when separate actions would risk inconsistent
judgments. See Mot., at p. 15. In doing so, he ignores
the law to the contrary. The three advisory cases he
cites do not compensate for his deﬁciency.
He relies on a Massachusetts bankruptcy case
merely to parrot Rule 23(b)(1)(A)’s statement that certiﬁcation should occur where separate actions risk
9

Or, in the defendant class action context, may be able to
collect a money judgment from some defendants and not from others.

App. 157
“inconsistent or varying adjudications with respect to
individual class members which would establish incompatible standards of conduct for the party opposing
the class.” Mot., at p. 15 (citing Dehon, 298 B.R. at 216.
Dehon’s reasoning is light, and it does not confront the
analysis offered by the cases discussed supra. Moreover, it presents facts that at least make arguable
sense for 23(b)(1)(A) certiﬁcation: a class of creditor defendants, in a bankruptcy case, who shared the common issue of whether their bankruptcy claims should
be subordinated. See id. at 217. Thus, Dehon arguably
set forth facts where the plaintiff would be “required
to follow incompatible courses of continuing conduct,”
112 F.R.D. at 55, – speciﬁcally, after inconsistent judgments, he could not subordinate some similarly-situated
creditors and not others without facing insurmountable problems regarding the amount of each creditor’s
payout. 298 B.R. at 216-17. In contrast, here, if the Receiver faces inconsistent results, nothing compels him
to follow two irreconcilable paths.10 He can still litigate
afresh with other defendants. He may be concerned
about the precedential impact on of a loss on the

10

The Receiver cannot believe he would be stalemated by inconsistent judgments or care about stare decisis. The Complaint
“[e]xclude[s] from the Net Winner Class in this action . . . persons
or entities that . . . resided outside the United States at the time of
their participation. . . .” Compl. (Doc. No. 1), ¶ 39. It further notes:
“Claims against Net Winners who resided outside the United
States at the time of their participation in Zeek Rewards will be
brought in a separate action.” Id., n. 1. Nothing precludes the
problems between these two actions that he hollowly predicts.

App. 158
fraudulent transfer question in this case, but that is
not enough to satisfy Rule 23(b)(1)(A).
The Receiver’s two other cases unintentionally
amplify the distinction between a proper 23(b)(1)(A)
case and this one. Mot., at p. 15. In Broadhollow, the
court certiﬁed a class because, faced with separate actions, the “debtor will be unable to act on the turnover
of mortgages if a decision in one action requires the
delivery of those mortgages to the successful litigants,
while a contrary result is reached in the second litigation.” In re Broadhollow Funding Corp., 66 B.R. 1005
(E.D.N.Y. Bankr. 1986). Again in Broadhollow, there
exists a situation where not only are there inconsistent
adjudications but also where the plaintiff would have
to follow incompatible courses of conduct: one cannot
both turn over and not turn over mortgages. That is
not the situation here: the Receiver can lose one collection case and win another. The difference is that in
proper 23(b)(1)(A) cases, the inconsistent adjudications
make it literally impossible for the plaintiff to comply
with orders in different actions. Here, inconsistent
judgments would prompt additional litigation and
cause the Receiver to have to work harder. That may
not be ideal for the Receiver, but it is not the impasse
for which 23(b)(1)(A) was designed.
For similar reasons, the Receiver’s last case does
not get him across the line, either. See Mot., at p. 15
(citing Guy v. Abdulla, 57 F.R.D. 14, 17-18 (N.D. Ohio
1972). There, without meaningful analysis, the court
simply found that “the risk remains that inconsistent
adjudication of the common issues could result,” and

App. 159
that therefore “differing interpretations of the law
could guarantee recovery by the trustee in some cases,
while denying it against other defendants who are
similarly situated.” 57 F.R.D. at 17-18. The Guy court
simply concluded: “[a] clear purpose of Rule 23 is to
avoid such anomalous results.” However, obviously,
“such anomalous results” would occur in any action to
collect a money judgment from numerous debtors, and
that problem did not convince the courts in the numerous cases that the NP Defendants cite – including the
Fourth Circuit in Zimmerman – that certiﬁcation under 23(b)(1)(A) should occur.
2. Stare Decisis Does Not Justify 23(b)(1)(B)
Either.
Finally, the Receiver argues that certiﬁcation under Rule 23(b)(1)(B) is appropriate. See Mot., at pp. 1617. This clause “focuses on the putative class members
and seeks to protect against situations where the individual members would be prejudiced by individual actions as opposed to class treatment of the dispute. . . .”
Employers Insurance, 112 F.R.D. at 56. The Receiver’s
central argument is that the class is beneﬁcial to the
class members because “’the primary legal and factual
issues in the ﬁrst case would not only form the basis
for the application of stare decisis in subsequent cases;
they would almost inevitably prove dispositive in those
cases.” Mot., at p. 16 (quoting Weinman v. Fid. Capital
Appreciation Fund, 354 F.3d 1246 (10th Cir. 2004)).
Once again, that is not the law.

App. 160
There is no support for the proposition that a determination in this action of the named Defendants’
rights and obligations would or could bind unnamed
defendants – they are not parties. This issue came up
in National Union, which was extensively discussed
above. On the 23(b)(1)(B) argument there, the Insurance Company made the Receiver’s claim, “that a judgment declaring the Policy void would, as a practical
matter, be dispositive of the rights of any nonparty insured or nonparty claimant to coverage under the Policy.” Nat’l Union, 158 F.R.D. at 687-88. The court raised
the incontrovertible rebuttal: “It is . . . not clear how
such a judgment would be dispositive of the rights of
any nonparty, since it would not be binding on that
party.” Id. There, as here, the plaintiff argued “that
such a judgment would have precedential or stare decisis effect on later cases. . . .” Id. The Court concluded:
“it is generally recognized that this is not sufﬁcient in
itself to support class certiﬁcation under Rule
23(b)(1)(B).” Id. (collecting authority).
The argument that the potential precedential or
stare decisis effect justiﬁes certiﬁcation under Rule
23(b)(1)(B) also arose in Employer’s Insurance. 112
F.R.D. at 56. There, again, the court provided far more
analysis than the cases on which the Receiver relies,
including Weinman, and concluded that the mere risk
that precedent could be created does not support certiﬁcation under the subsection:
In order to warrant class certiﬁcation under
this subsection there must be a risk that the
adjudications as to individual members of the
class “as a practical matter” will be dispositive

App. 161
of the interests of the other class member or
“impair or impede their ability to protect their
interests.” Thus, this portion of the Rule focuses on the putative class members and
seeks to protect against situations where the
individual members would be prejudiced by
individual actions. . . . The thrust of plaintiffs
argument is that the stare decisis effect of the
decision in this case justiﬁes certiﬁcation under this subsection. While there is some split
of authority on this issue . . . the majority
rule is that 23(b)(1)(B) is not applicable
simply because a legal precedent may be
established . . . and that the stare decisis
effect of individual adjudications, without more, will not support certiﬁcation
of class action under this subsection.
112 F.R.D. at 56 (collecting authority). The same treatment was given to the question, and the same answer
reached, in Arthur Treacher’s, 93 F.R.D. at 593-94 (also
reiterating that 23(b)(1)(B) is no more proper for
money damages cases than is (b)(1)(A) – even where,
as here, a plaintiff dresses up a money damage complaint “as one for declaratory and injunctive relief.”).11

11

More recently and from a higher court, see Tilley v. TJX
Companies, Inc., 345 F.3d 34, 42 (1st Cir. 2003) (collecting cases)
(“[P]resence of these common questions will necessarily mean
that an individual adjudication would have some precedential
value with respect to subsequent litigation. Because the structure
of Rule 23 makes very clear that subsection (b)(1)(B) was not intended to swallow the other three routes to certiﬁcation spelled
out in Rule 23(b), we conclude that the effect of stare decisis,

App. 162
Leaving the majority rule on this issue completely
unaddressed, the Receiver relies on a Tenth Circuit
opinion for the proposition that certiﬁcation is proper
just because the Court’s rulings could prove diapositive
in other cases. Mot., at p. 16 (citing Weinman, 354 F.3d
at 1263-64). Weinman12 expressly limited its 23(b)(1)(B)
analysis to “the particular context of [that] case,” which
alone allowed that court to distinguish that matter
from what it acknowledged to be the rule of the “vast
majority of courts confronted with the question.” 354
F.3d at 1264.
Finally, the Receiver suggests that certiﬁcation is
a good development for the class members: “a defendant class ensures that even those Defendants who received smaller amounts from RVG are adequately
protected without having to endure the burden of hiring counsel or mounting a defense.” Mot., at p. 17. Sure.
People love the convenience of not being allowed to protect their property rights.13 In reality, forcing the proposed members into a mandatory defense class leaves
standing alone, will not justify class certiﬁcation under Rule
23(b)(1)(B).”).
12
Although the Receiver does not volunteer this law, this
opinion, on which the Receiver so heavily relies, expressly embraces National Union, 158 F.R.D. at 687, and rejects certiﬁcation
under 23(b)(1)(A) for the reasons stated in National Union and
supra in Section II.B.1. Weinman, 354 F.3d 1263-64 (“[I]t is not
clear that recovery of some ShowBiz shares but not others would
require the Trustee to fulﬁll mutually conﬂicting obligations.”).
13
See, e.g., Margo Rosato-Stevens, Peasant Land Tenure Security in China’s Transitional Economy, 26 B.U. Int’l L.J. 97, 10410 (2008).

App. 163
them no choice but to stand idly by while the Receiver
takes a run at their property. As the Tilley court aptly
said: “If anything serves to impede the absent class
members’ ability to protect their interests, it is the
forced grouping of defendants dictated by the certiﬁcation order and not the possibility of stare decisis.” 345
F.3d at 41. If the Court is concerned about the potential
for stare decisis in future actions here, it should simply
deny certiﬁcation, order the Receiver to send notice to
the proposed class members, and give them 30 days to
intervene.
III.

CONCLUSION

Wherefore, the Court should deny the Receiver’s
Motion for Class Certiﬁcation and award the NP Defendants the attorneys’ fees incurred in preparing this
brief.
This the 29th day of August, 2014.
/s/ William R. Terpening
William R. Terpening
William R. Terpening
NC Bar #36418
Richard W. Wilson
NC Bar #6450

App. 164
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT
OF NORTH CAROLINA
CHARLOTTE DIVISION
Civil Action No: 3:14-CV-00091
KENNETH D. BELL, in his
capacity as court-appointed
Receiver for Rex Venture
Group, LLC d/b/a
ZeekRewards.com,
Plaintiff,
v.
TODD DISNER, in his individual
capacity and in his capacity as
trustee for Kestrel Spendthrift
Trust; TRUDY GILMOND;
TRUDY GILMOND, LLC; JERRY
NAPIER; DARREN MILLER;
RHONDA GATES; DAVID
SORRELLS; INNOVATION
MARKETING, LLC; AARON
ANDREWS; SHARA ANDREWS;
GLOBAL INTERNET FORMULA,
INC.; T. LEMONT SILVER;
KAREN SILVER; MICHAEL VAN
LEEUWEN; DURANT BROCKETT;
DAVID KETTNER; MARY
KETTNER; P.A.W.S. CAPITAL
MANAGEMENT LLC; LORI
JEAN WEBER; and a Defendant
Class of Net Winners in
ZEEKREWARDS.COM;
Defendants.

App. 165
DEFENDANT DURANT BROCKETT’S
RESPONSE IN OPPOSITION TO RECEIVER’S
MOTION FOR CLASS CERTIFICATION
Defendant Durant Brockett adopts the arguments
set forth in Nexsen Pruet Defendants’ Opposition to
Receiver’s Motion for Class Certiﬁcation (Document
#79) ﬁled by Defendants Trudy Gilmond, Trudy
Gilmond, LLC, Jerry Napier and Darren Miller on
August 29, 2014.
This 29th day of August, 2014.
ALEXANDER RICKS PLLC
/s/ Mary K. Mandeville
Mary K. Mandeville, Esq.
N.C. State Bar No.: 15959
mary@alexanderricks.com
(704) 200-2635
Rodney E. Alexander, Esq.
N.C. State Bar No.: 23615
rodney@alexanderricks.com
(704) 365-3614
2901 Coltsgate Road, Suite 202
Charlotte, North Carolina 28211
Facsimile: (704) 365-3676
Attorneys for Defendant
Durant Brockett
[Certiﬁcate Of Service Omitted In Printing]

App. 166
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT
OF NORTH CAROLINA
CHARLOTTE DIVISION
)
KENNETH D. BELL, in his
)
capacity as court-appointed
)
Receiver for Rex Venture
)
Group, LLC d/b/a
)
ZeekRewards.com,
)
Plaintiff,
)
vs.
)
TODD DISNER, in his individual )
capacity and in his capacity as )
trustee for Kestrel Spendthrift )
Trust; TRUDY GILMOND;
)
TRUDY GILMOND, LLC; JERRY )
NAPIER; DARREN MILLER;
)
RHONDA GATES; DAVID
) Civil Action
SORRELLS; INNOVATION
) No. 3:14-cv-91
MARKETING, LLC; AARON
)
ANDREWS; SHARA ANDREWS; )
GLOBAL INTERNET FORMULA, )
INC.; T. LEMONT SILVER;
)
KAREN SILVER; MICHAEL VAN )
LEEUWEN; DURANT BROCKETT; )
DAVID KETTNER; MARY
)
KETTNER; P.A.W.S. CAPITAL
)
MANAGEMENT LLC; LORI
)
JEAN WEBER; and a Defendant )
Class of Net Winners in
)
ZEEKREWARDS.COM;
)
Defendants.
)

App. 167
RECEIVER’S MOTION TO APPROVE
NOTICE OF CLASS CERTIFICATION
Kenneth D. Bell, as the Receiver for Rex Venture
Group, LLC (“Receiver”), and through his undersigned
counsel, respectfully moves the Court to approve the
proposed Notice of Class Certiﬁcation attached as Exhibit A.
On February 10, 2015, the Court granted the Receiver’s Motion for Class Certiﬁcation certifying a Defendant Class under Fed. R. Civ. P. 23(b)(1). The
Defendant “Net Winner” Class is comprised of all persons and entities that participated in ZeekRewards
and received at least $1000 more in money from
ZeekRewards than they put into the program (the “Net
Winners”).
Fed. R. Civ. P. 23(c)(2)(A) provides that “[f ]or any
class certiﬁed under Rule 23(b)(1) or Rule 23(b)(2), the
court may direct appropriate notice to the class.” See
also 3 Newberg on Class Actions § 8:5 (5th ed.); WalMart Stores, Inc. v. Dukes, 131 S. Ct. 2541, 2558 (2011)
(“The Rule provides no opportunity for (b)(1) or (b)(2)
class members to opt out, and does not even oblige the
District Court to afford [class members] of notice of the
action.”). In other words, the Court has discretion to
send a Notice of Class Certiﬁcation, but such a notice
is not required. However, in the interests of keeping
the defendant class members apprised of the certiﬁcation and deﬁnition of the class, the nature of the action
and claims against them and preemptively and efﬁciently answering common questions that the class

App. 168
members may have about the litigation, the Receiver
respectfully requests the Court approve the proposed
Notice of Class Certiﬁcation attached as Exhibit A.
For this discretionary notice to be cost-effective, the
Receiver asks that the Court direct that the Notice of
Class Certiﬁcation be sent via electronic means only.
First, the Receiver will send the proposed Notice to the
class members using the email address registered with
ZeekRewards or the Receivership. Second, the Receiver
will post the Notice of Class Certification on the Receivership’s website at http://www.zeekrewardsreceivership.com/,
which contains important information on receivership
and litigation matters.1
“Rule 23(c)(2)(A) recognizes the court’s authority
to direct ‘appropriate’ notice in Rule 23(b)(1) . . . class
actions, but contemplates different and more ﬂexible
standards for those cases than for Rule 23(b)(3) actions.” See Manual for Complex Litigation, Fourth,
§ 21.311; see also 3 Newberg on Class Actions § 8:3 (5th
ed.). In fact, the Advisory Committee’s note discussing
the 2003 amendments indicate that:
When the court does direct certiﬁcation notice
in a (b)(1) or (b)(2) class action, the discretion
and ﬂexibility established by subdivision
(c)(2)(A) extend to the method of giving notice. . . . A simple posting to a place visited by
1

The Receiver has already published an announcement on
February 12, 2015, noting that the Court certiﬁed the class with
links to the certiﬁcation order and a list of identiﬁed class members. If the court approves, the Receiver would post the proposed
Notice of Class Certiﬁcation as well.

App. 169
many class members, directing attention to a
source of more detailed information, may sufﬁce.
Fed. R. Civ. P. 23 advisory committee’s note (2003).
As such, it is both efﬁcient and sufﬁcient to send
the Notice of Class Certiﬁcation via electronic means,
as opposed to mail, in an action involving more than
9,000 defendant class members. The method of posting
the Notice of Class Certiﬁcation on the Receivership
website, which is the main source of communication
with both Net Winners and Net Losers, and sending
the Notice via email balances the desire to keep class
members apprised without unnecessarily depleting
Receivership funds intended for victims of the Ponzi
scheme.
For these reasons, the Receiver respectfully requests the Court grant the Receiver’s Motion to Approve the Notice of Class Certiﬁcation as proposed in
Exhibit A.
Dated: February 19, 2015
Respectfully submitted,
/s/ Irving M. Brenner
Kenneth D. Bell, Esq., Receiver
Irving M. Brenner
(NC Bar No. 15483)
Matthew E. Orso
(NC Bar No. 42409)
Susan Rodriguez
(NC Bar No. 40035)

App. 170
McGuireWoods LLP
201 North Tryon Street, Suite 3000
Charlotte, North Carolina 28202
(704) 373-4620
(704) 373-8836 (fax)
kbell@mcguirewoods.com
ibrenner@mcguirewoods.com
morso@mcguirewoods.com
srodriguez@mcguirewoods.com
[Certiﬁcate Of Service Omitted In Printing]

App. 171
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT
OF NORTH CAROLINA
CHARLOTTE DIVISION
KENNETH D. BELL, in his
capacity as court-appointed
Receiver for Rex Venture
Group, LLC d/b/a
ZeekRewards.com,
Plaintiff,
vs.
TODD DISNER, et al.
Defendants.

No. 3:14-cv-91

MOTION TO INTERVENE
AND TO DECERTIFY CLASS
(Filed Aug. 10, 2017)
I EDWARD ROURKE, ﬁle this Motion to Intervene and Motion to Decertify Class as grounds therefore states as follows:
1. I am listed as a net winner in this action and
have an interest in the matter as a person subject to
the partial summary judgment and impending ﬁnal
judgment in this matter.
2. That I request this action that was certiﬁed
pursuant to Federal Rule of Civil Procedure 23(a) and
(b)(1)(A) and (B) comprised of all persons or entities
who were net Winners of more than one thousand dollars in Zeek Rewards, Dkt 101, be decertiﬁed.

App. 172
3. This motion is made on the grounds that the
requirements of Federal Rule of Civil Procedure 23 was
not meet throughout the instant duration of the action
both the named and net winners.
4.

I pray that my request be granted.

5. My request is based on this and the accompanying Memorandum in Support of Motion to Decertify
Class and on such other written and oral argument as
may be presented to the Court.
Respectfully Submitted,
/s/ Edward M. Rourke
Edward M. Rourke
[Certificate Of Service Omitted]

App. 173
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT
OF NORTH CAROLINA
CHARLOTTE DIVISION
)
KENNETH D. BELL, in his
)
capacity as court-appointed
)
Receiver for Rex Venture
)
Group, LLC d/b/a
)
ZeekRewards.com,
)
Plaintiff,
)
vs.
)
TODD DISNER, in his individual )
capacity and in his capacity as )
trustee for Kestrel Spendthrift )
Trust; TRUDY GILMOND;
)
TRUDY GILMOND, LLC; JERRY )
NAPIER; DARREN MILLER;
)
RHONDA GATES; DAVID
) No. 3:14-ev-91
SORRELLS; INNOVATION
)
MARKETING, LLC; AARON
)
ANDREWS; SHARA ANDREWS; )
GLOBAL INTERNET FORMULA, )
INC.; T. LEMONT SILVER;
)
KAREN SILVER; MICHAEL VAN )
LEEUWEN; DURANT BROCKETT; )
DAVID KETTNER; MARY
)
KETTNER; P.A.W.S. CAPITAL
)
MANAGEMENT LLC; LORI
)
JEAN WEBER; and a Defendant )
Class of Net Winners in
)
ZEEKREWARDS.COM;
)
Defendants.
)

App. 174
MEMORANDUM IN SUPPORT OF
MOTION TO DECERTIFY CLASS
(Filed Aug. 10, 2017)
STATEMENT OF FACTS
On February 1, 2015, this Court entered an Order
on Receiver’s Motion for Class Certiﬁcation that certiﬁed the Defendant class pursuant to Federal Rule of
Civil Procedure 23(a) and (b)(1)(A) and (B). (Doc. No.
101).
An order certifying the class was never entered.
However, a Consent Order Appointing Class Counsel
was entered on September 14, 2015. (Doc. No. 125.)
Said order appointed Kevin Edmundson, who was then
counsel for four of the named Defendants, as class
counsel. The order further provided that Edmundson
would serve as Class Counsel until further order of the
Court, with the caveat that it was not expected that
Class Counsel would be engaged to represent the Net
Winner Class following a ﬁnding, if any, of class liability. Said order also provided that Edmundson would
receive compensation from the Receiver/Plaintiff of
$35,000.00 for responding to dispositive motions for
the class and that the named Defendants represented
by Class Counsel would be obligated to fund their own
response to the dispositive motion.
At the time of the Edmundson also represented
ZeekRewards related defendants in parallel actions
brought by the Plaintiff/Receiver. Said cases were Bell
vs. Suzanna Dreyer, case no. 3:15-cv-196; Bell v. Peak

App. 175
USA, LLC, case no.: 3:15-cv-00233, and Bell v. Rockah,
et al., case no.: 3:15-cv-00193. See Exhibit “A”
On November 29, 2016, an Order on Receiver’s
Motion for Summary Judgment Against Remaining
Named Defendants and Partial Summary Judgment
Against Net Winner Class was entered. Said judgment
in relevant part found that: “Despite engaging a defense expert to investigate the fundamental issue
of whether or not ZeekRewards operated as a Ponzi
scheme, Defendants have conceded that ZeekRewards
was, in fact, a Ponzi Scheme.
A ﬁnal judgment against the Defendant class of
Defendant Class of Net Winners in ZEEKREWARDS.
COM has not been entered.
ARGUMENT
Federal Rules of Civil Procedure 23(c) provides
that “[a]n order that grants or denies class certiﬁcation
may be altered or amended before ﬁnal judgment.” A
district court may decertify a class at any time. Rodriguez v. West Publ’g Corp, 563 F .3d 948, 966 (9th Cir
2009); see Daenzer v. Wayland Ford, Inc., 210 F.R.D.
202, 204-05 (W.D. Mich. 2002) (district court may decertify a class even after a ﬁnding of liability). The
standard is the same for class decertiﬁcation as it is
with class certiﬁcation: a district court must be satisﬁed that the requirements of Rule 23(a) and (b) are
met. Makaeff v. Trump Univ., LLC, 309 F.R.D. 631, 635
(S.D. Cal., 2015). In deciding whether to decertify a
class, “actual, not presumed, conformance with Rule

App. 176
23(a) remains . . . indispensable.” Id. (quoting Gen. Tel.
Co. of S.W. v. Falcon, 457 U.S. 147, 160 (1982)).
A federal district court possesses broad discretion
in determining whether to modify or even decertify a
class. In re Titanium Dioxide Antitrust Litig., 962
F. Supp. 2d 840, 861 (D. Md. 2013). The court remains
free to modify certiﬁcation in light of subsequent developments in the litigation. Id. In fact, the court has
an afﬁrmative obligation to ensure that the class membership remains at all times consistent with the underlying facts and procedural posture of the case. Id.
The motion for decertiﬁcation in this matter involved the adequacy of class counsel, part of the fourth
requirement for class certiﬁcation under Rule 23(a)(4).
This fourth requirement provides that “the representative parties will fairly and adequately protect the
interests of the class.” Fed. R. Civ. P. 23(a)(4). This requirement of adequate representation has two elements:
First, the named plaintiffs’ counsel must be
qualiﬁed, experienced, and generally able to
conduct the litigation. * * * (Second,) there
must be no evidence of collusion or of conﬂicting interests between the named plaintiffs
and members of the class. (Citation omitted.)
Beyond this, a named plaintiff must display
some minimal level of interest in the action,
familiarity with the practices challenged, and
ability to assist in decision making as to the

App. 177
conduct of the litigation. Wofford v. Safeway
Stores, Inc., supra, 78 F.R.D., at 486-487.
Sullivan v. Chase Inc. Servs. of Boston, Inc., 79 F.R.D.
246, 258 (N.D. Cal. 1978) (emphasis added); see Brown
v. Transurban U.S.A. Inc., 318 F.R.D. 560, 567 (E.D. Va.
2016) (adequacy requirements met if, inter alia, class
counsel is qualiﬁed, experienced, and generally able to
conduct the litigation; this inquiry serves to uncover
conﬂicts of interest); United States v. Trucking Employers Inc., 75 F.R.D. 682, 687 (D.D.C. 1977) (test for adequacy of representation in a defendant class is similar
to that in cases involving plaintiff classes). A court has
a continuing duty to ensure adequacy of representation and adequacy of class counsel in a class action
suit, and the court may always decide to modify or decertify the class in the future. In re Pharm. Indus. Average Wholesale Price Litigation, 588 F.3d 24, 36 n.12
(1st Cir. 2009); Key v. Gillette Co., 782 F2d 5, 7 (1st Cir.
1986); Richards v. Fleet Boston Fin. Group, 235 F.R.D.
165, 172 (D. Conn. 2006); see Scott v. Haworth, 916 F.2d
916 F.2d 134, 139 (4th Cir. 1990) (an order certifying a
class must be reversed if it becomes apparent, at any
time during pendency of the proceeding, that class
treatment of the action is inappropriate); Stasny v. So.
Bell Tel. & Tel., 628 F.2d 267, 27376 (4th Cir. 1980).
The adequacy of counsel is considered under Rule
23(a)(4) and Rule 23(g). Allen v. Hyland’s Inc., 300
F.R.D. 643, 664 (C.D. Cal. 2014). Class counsel’s ability
to fairly and adequately represent unnamed members
of the class are “critical requirements in federal class
actions under Rule 23(a)(4) and (g).” Baumann v. Chase

App. 178
Inv. Serv. Corp., 747 F.3d 1117, 1122-23 (9th Cir 2004).
Adequacy of class counsel is vital to protect the interests of absent class members. Lou v. Ma Labs. Inc., No.
C12-05409 W.H.A., 2014 WL 68605 at *2 (N.D. Cal Jan.
8, 2014). Courts have traditionally expressed particular concern for the adequacy of representation in a
class because the judgment conclusively determines
the rights of absent class members. Eisen v. Carlisle &
Jaquelin, 391 F.2d 555, 562 (2d Cir. 1968); Jacksaw
Pontiac, Inc. v. Cleveland Press Pub. Co., 102 F.R.D. 183,
193 (N.D. Ohio 1984).
As stated in Key v. Gillette Co., 782 F.2d 5, 7 (1st
Cir. 1986), one of the most important requirements for
class certiﬁcation is the adequacy of representation.
This requirement is particularly important
because the due process rights of absentee
class members may be implicated if they are
bound by a ﬁnal judgment in a suit where
they were inadequately represented by the
named plaintiff. Dierks v. Thompson, 414 F.2d
453, 456 (1st Cir.1969); see also Scott v. University of Delaware, 601 F.2d 76, 85 (3rd Cir.),
cert. denied, 444 U.S. 931, 100 S.Ct. 275, 62
L.Ed.2d 189 (1979); National Ass’n of Regional Medical Programs, Inc. v. Mathews,
551 F.2d 340, 346 (D.C.Cir.), cert. denied,
431 U.S. 954, 97 S.Ct. 2674, 53 L.Ed.2d 270
(1977); Helfand v. Cenco, Inc., 80 F.R.D. 1, 7
(N.D.Ill.1977). An essential ingredient of this
requirement is that the class representative’s
attorneys be qualiﬁed to vigorously and adequately prosecute the interests of the class.

App. 179
Wetzel v. Liberty Mutual Insurance Co., 508
F.2d 239, 247 (3rd Cir.), cert. denied, 421 U.S.
1011, 95 S.Ct. 2415, 44 L.Ed.2d 679 (1975).
The court has an ongoing duty to make sure
that this requirement is complied with at all
stages of the litigation. In re General Motors
Corp. Engine Interchange Litigation, 594 F.2d
1106 1124 *7th Cir.), cert. denied, Oswald v.
General Motors Corp., 444 U.S. 870, 100 S.Ct.
146, 62 L.Ed.2d 95 (1979); Grigsby v. North
Miss. Medical Center, Inc., 586 F.2d 457, 462
(5th Cir.1978).
Id., 782 F2d at 6.
Similarly, as stated, in Lou:
Adequacy of class counsel is vital to protect
the interests of absent class members. Class
counsel wield great power. Strategic decisions
made by counsel to litigate and/or settle class
claims have profound implications on the
rights of absent class members. At best, absent class members’ interests can be vindicated. At worst, litigation and settlement
decisions can result in preclusion, collusion,
and exclusion. It is thus critical that sufﬁcient
procedural and structural protections be enforced so that the interests of absent and putative class members are not abridged.
Id. at *2.
Such due process and other concerns are heightened even further in defendant class actions because
absent defendant class members may incur liabilities

App. 180
rather than simply lose the right to bring a claim without a true “day in court.” See Ameritech Ben. Plan
Comm. v. Commcn. Workers of Am., 220 F.3d 814, 820
(7th Cir. 2000), cert. denied, 531 U.S. 1127 (2001); Alexander Grant & Co. v. McAlister, 116 F.R.D. 583, 588-89
(S.D. Ohio 1987); Moffat v. UniCore Midwest Plan
Group, No. 04 C 5685, 2006 WL 897918, at *7 (N.D. Ill.
Apr. 5, 2006).
Avoidance of conﬂicts of interest is a key component in determining the adequacy of class counsel. The
duty of adequate representation requires counsel to
represent the class competently and vigorously and
without conﬂicts of interest with the class. In re
Pharm. Indus. Average Wholesale Price Litigation, at
n.12 (1st Cir. 2009) (citing, enter alia, Anchem Prods.
Inc. v. Windsor, 521 U.S. 591, 626, n20 (1997). “The duty
to avoid conﬂicts is serious. Class counsel are ﬁduciaries to the class.” Id The responsibility of class counsel
to absent class members whose control over their attorneys is limited does not permit even the appearance
of divided loyalties of counsel. Sullivan, 79 F.R.D. at
258; Chateau de Ville Productions Inc. v. TamsWitmark Music Library, Inc, 474 F. Supp. 223, 226
(S.D. N.Y. 1979); see Greenﬁeld v. Villager Indus., Inc.,
483 F.2d 824, 832 n9 (3d Cir. 1973).
In the instant case, although this Court assumed
class counsel’s representation was adequate based on
the Consent Order Appointing Counsel, such was not
the case. See Makaeff, 309 F.R.D. at 635 (in deciding
whether to decertify a class “actual, not presumed, conformance with Rule 23(a) remains . . . indispensable”).

App. 181
Due to the inadequacy of class counsel, the due process
rights of the net winner class were violated, and, thus,
the Defendant class should be decertiﬁed. First the
deemed class counsel, Kevin Edmundson, had conﬂicting interests throughout his tenure as Class Counsel.
Namely Edmundson represented and/or continues to
represent other classes and/or other individual defendants in defense of substantially the same allegations
in a different lawsuit filed by the Receiver/Plaintiff. See
Exhibit “A.” Parallel representation may create a conﬂict of interest that renders counsel inadequate. See In
re Join E. and S. Dist. Asbestos Litigation, 133 F.R.D.
425, 431 (S.D. N.Y. 1990) (citing cases). The general
rule is that the time a complaint is ﬁled determines
whether the acceptance of proffered employment generated a conﬂict of interest. Id. at 432.
Here class counsel’s representation of others in
parallel actions must be deemed a conﬂict of interest
rendering him inadequate. See, e.g., Kurczi v. Eli Lilly
& Co., 160 F.R.D. 667, 679 (N.D. Ohio 1995) (plaintiffs
failed to satisfy adequacy-of-representation requirement for class certiﬁcation in part because counsel for
named plaintiffs also represented them in parallel
state action and, thus, had a potential conﬂict of interest); Lou (class certiﬁcation denied based, in part, on
inadequacy of class counsel due to conﬂict as a result
of parallel representation against same defendant);
Jacksaw Pontiac (adequate representation requirement not satisﬁed, in part, because of counsel’s parallel
representation that constituted a conﬂict of interest).

App. 182
Next, due to the insufﬁciency of funds for representation paid to Edmundson as class counsel and/or
due to the insufﬁciency in the funds paid to the Defense experts by the Plaintiff/Receiver, there appears
to have been no challenge made to the Defense expert’s
inability to ﬁnd evidence which deﬁnitively disproved
that the business as a whole operated as a Ponzi
scheme.
Speciﬁcally, the Defense expert stated repeatedly
in his preliminary report that the scope of the work
was changed to focus on the issue regarding the existence of the alleged Ponzi scheme and speciﬁcally excluded the review of individual ZeekRewards’ afﬁliate
information. The Defense expert further stated that
although a portion of the Phase 1 Summary Report addressed the review and reconciliation of a sample of the
individual Afﬁliate transactions, they were excluded
from any further investigation related to individual Afﬁliates including, but not limited to, being excluded
from the assessment of FTI’s calculation of net winnings/losses on an individual Afﬁliate basis and a reconciliation of individual Afﬁliate transactions between
the databases and third-party ﬁnancial records. In addition, the Defense expert indicated that the work performed was further limited due to the absence of date
dictionaries or operations manuals for Zeek Databases
and the lack of access to Zeek employees to answer
questions regarding the information contained in the
databases. Moreover, the expert opined that FTI’s reliance on the statistically small number of discrepancies
is potentially ﬂawed as it may be directionally biased

App. 183
in favor of the Net Loser Class. (Doc. 134-149). Edmundson, as Class Counsel, instead of vigorously arguing, through motions or otherwise, that the expert
was unfairly limited and asking for an unhampered independent evaluation of the business, conceded that
ZeekRewards was a Ponzi scheme. Class Counsel conceded to the same without the authority of and contrary to the best interest of the defendant class, both
named and unnamed.
The Class Counsel’s lack of advocacy in obtaining
a truly independent expert evaluation of the business
ran afoul of the fair and adequate representation requirement. In addition, the material and unauthorized
concession by class counsel that the business was a
Ponzi scheme was detrimental to the defendant class
and their defense. The same amounts to inadequate
representation of class members. See Commwlth. of PA.
v. Local Union 542, Intern Union of Operating Engrs.,
90 F.R.D. 389 (E.D. Pa. 1981) (defendant class decertiﬁed where representative could not adequately represent class members by reason of the obvious limited
ﬁnancial and legal capabilities of counsel); Brown, 318
F.R.D. 560, 568 (E.D. Va. 2016) (adequate representation requires counsel to vigorously protect interests
of class); Mann v. Acclaim Fin. Servs., Inc, 232 F.R.D.
278, 285 (S.D. Ohio 2003) (adequate representation requires vigorous protection of interests of class through
qualiﬁed counsel, who will not fail to investigate claims
in pretrial discovery and present claims at trial); Dunakin v. Quigley, 99 F. Supp. 3d 1297, 1332 (W.D. Wash.
2015) (when considering adequacy of class counsel,

App. 184
court considers the time and resources that counsel
will commit to vigorously representing the class); In re
Seagate Tech. 11 Sec. Litigation, 843 F. Supp. 1341,
1346 n2 (N.D. Cal. 1994) (adequacy of representation
is guided by, inter alia, competency of class counsel and
ﬁnancial resources named representative possesses to
devote to prosecution of action).
Thirdly, the class counsel, James Edmundson, Esquire, appears in fact to have only represented the
class through the liability phase of the action. As such,
given that there is no longer any actual representation
of the class, the section 23(a) requisite is no longer being met. See Daensor, 210 F.R.D. at 204-05 (decertiﬁcation warranted after ﬁnding of liability but before
ﬁnding of damages).
CONCLUSION
For all the foregoing reasons, the Motion to Decertify Class should be granted.
Respectfully submitted,
/s/ Edward M. Rourke
Edward M. Rourke, pro se
[Certificate Of Service Omitted]

App. 185
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT
OF NORTH CAROLINA
CHARLOTTE DIVISION
KENNETH D. BELL, in his capacity )
)
as court-appointed Receiver
)
for Rex Venture Group, LLC
)
d/b/a ZeekRewards.com,
)
Plaintiff,
)
vs.
)
TODD DISNER, in his individual )
capacity and in his capacity as )
trustee for Kestrel Spendthrift )
)
Trust; TRUDY GILMOND;
)
TRUDY GILMOND, LLC;
)
JERRY NAPIER; DARREN
)
MILLER; RHONDA GATES;
) No. 3:14-cv-91
DAVID SORRELLS; INNOVA)
TION MARKETING, LLC;
)
AARON ANDREWS; SHARA
ANDREWS; GLOBAL INTERNET )
)
FORMULA, INC.; T. LEMONT
)
SILVER; KAREN SILVER;
)
MICHAEL VAN LEEUWEN;
)
DURANT BROCKETT; DAVID
)
KETTNER; MARY KETTNER;
P.A.W.S. CAPITAL MANAGEMENT )
LLC; LORI JEAN WEBER; and a )
Defendant Class of Net Winners )
)
in ZEEKREWARDS.COM;
)
Defendants.
)

App. 186
MOTION TO DECERTIFY ACTION AS
A CLASS AND ALTERNATIVELY, TO
ALTER OR VACATE FINAL JUDGMENT
Absent defendant class members Darlene Anne’,
Ronald Cox, Frank Scheuneman, Theresa Bridie, Marc
Kantor, Paola Kantor, Tim Rice, Wayland Woods, D.W.
and T.H. (together, “Movants”), pursuant to Fed. R. Civ.
P. 23(c)(1), respectfully move the Court to decertify this
case as a class action and, alternatively, to alter or vacate the Final Judgment pursuant to Fed. R. Civ. P.
59(e), for the following reasons and as set forth more
fully in the accompanying memorandum of law in support.
In support of this Motion, Movants state as follows:
MOTION TO DECERTIFY ACTION AS A CLASS
1. Fed. R. Civ. P. 23(a)(4) provides that a class action may be maintained only if the representative parties will fairly and adequately protect the interests of
the class members. The history of this litigation during
the years since it was ﬁled demonstrates that the
named defendants and their Class Counsel have not
and will not adequately protect the interests of the absent class members.
2. In connection with the Court’s Consent Order
Appointing Class Counsel (Doc. No. 125), Class Counsel acknowledged that to adequately represent the
class he would need to depose the Receiver’s expert and

App. 187
engage in other activities, which the Court likewise
required be pursued in good faith “to adequately represent the Net Winner Class.” Throughout these proceedings, the named defendants and Class Counsel
side-stepped their burden of adequately representing
or protecting the class. In spite of a clear and unequivocal instructions from the Court, the named defendants failed to challenge the ﬁndings or opinions of the
Receiver’s expert, failed to depose the expert, refused
to obtain or present such evidence as necessary for a
critical adjudication by the Court as to whether the formulae for determining damages on a class-wide basis
and underlying data were sufﬁciently reliable, and
failed to represent the class during extended periods.
3. During part of the liability phase and nearly
all of the damages phase, the named defendants and
Class Counsel have not discharged their duty as class
representatives to defend the action vigorously. They
without adequate excuse did not conduct needed discovery as to ﬁnancial issues including relating to the
respective individual class members and conceded the
existence of a Ponzi scheme, one of the linchpins of the
Receiver’s legal theories. According to the named defendant’s expert, such discovery would have cast doubt
as the reliability of information relied on by the Receiver’s expert and his opinions. This lackadaisical
approach by Defendants to defending this lawsuit
demonstrates that they have not and will not adequately protect and advance the interests of the unnamed class members.

App. 188
4. In view of the manifest shortcomings of the
named defendants and their counsel as representatives of the class, the due process rights of the absent
class members have been violated and, as such, the Final Judgment against certain absent class members is
manifestly unjust.
5. Rule 23(b)(1) and applicable law also requires
the court to consider later developments in the case to
ensure the case has been properly managed as a class
action in keeping with principles of fairness and due
process. Although the Court’s order certifying this case
as a class action commented that named defendants
and their counsel appeared to be adequate, it did so
mindful of due process concerns and thus on the condition that the named defendants would defend the case
in good faith. Based upon the inadequate and nonchalant defense of this action by the named defendants
and Class Counsel, it is clear that the absent class
members have not been adequately represented.
6. As demonstrated above and more fully in the
supporting memorandum of law, that did not occur.
MOTION TO ALTER FINAL JUDGMENT
7. Nine of the Movants (Ronald Cox, Frank
Scheuneman, Edward Rourke, Theresa Bridie, Marc
Kantor, Paola Kantor, Tim Rice, Wayland Woods, and
T.H.), are included in the Final Judgment (Doc. No.
179). The Final Judgment is not ﬁnal because it does
not meet the requirements of Fed. R. Civ. P. 54(b). As
such, such Movants do not believe they are subject to
Rule 59(e).

App. 189
8. However, to the extent that the Final Judgment is ﬁnal, such Movants seek to alter or vacate the
Final Judgment for the same reasons explained above.
To do otherwise, would violate the due process rights
of the Movants and be manifestly unjust.
WHEREFORE, Wherefore, Movants respectfully
requests this Court to decertify this action as a class
action on the grounds that the named defendants and
their counsel did not adequately represent the absent
class members consistent with principles of due process. In the alternative, Ronald Cox, Frank Scheuneman,
Edward Rourke, Theresa Bridie, Marc Kantor, Paola
Kantor, Tim Rice, Wayland Woods, and T.H. seek to alter or vacate the Final Judgment for the same reasons.
This the 11th day of September, 2017.
By: s/ Paul A. Capua
Paul A. Capua/N.C. State
Bar No. 40239
Genevieve A. Mente/N.C. State
Bar No. 41887
Attorneys for Movants
CAPUA LAW FIRM, PA
164 South Depot Street
Boone, NC 28607
Telephone: (828) 264-026
Fax: (828) 265-5650
E-mail: paul@capualawfirm.com
E-mail: gmente@capualawfirm.com
[Certificate Of Service Omitted]

App. 190
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT
OF NORTH CAROLINA
CHARLOTTE DIVISION
)
KENNETH D. BELL, in his
)
capacity as court-appointed
)
Receiver for Rex Venture
)
Group, LLC d/b/a
)
ZeekRewards.com,
)
Plaintiff,
)
vs.
)
TODD DISNER, in his individual )
capacity and in his capacity as )
trustee for Kestrel Spendthrift )
Trust; TRUDY GILMOND;
)
TRUDY GILMOND, LLC; JERRY )
NAPIER; DARREN MILLER;
)
RHONDA GATES; DAVID
) No. 3:14-cv-91
SORRELLS; INNOVATION
)
MARKETING, LLC; AARON
)
ANDREWS; SHARA ANDREWS; )
GLOBAL INTERNET FORMULA, )
INC.; T. LEMONT SILVER;
)
KAREN SILVER; MICHAEL VAN )
LEEUWEN; DURANT BROCKETT; )
DAVID KETTNER; MARY
)
KETTNER; P.A.W.S. CAPITAL
)
MANAGEMENT LLC; LORI
)
JEAN WEBER; and a Defendant )
Class of Net Winners in
)
ZEEKREWARDS.COM;
)
Defendants.
)

App. 191

CONSOLIDATED MEMORANDUM OF LAW
IN SUPPORT OF MOTION TO DECERTIFY
CASE AS A CLASS AND TO ALTER
OR VACATE JUDGMENT
Movants have ﬁled contemporaneously herewith
motions to intervene (Doc. No. 195) and to decertify the
case as a class and, alternatively, to alter and vacate
the Final Judgment (Doc. No. 196).1 In said motions,
Movants seek to decertify the case as a class action on
grounds that the manner in which this action has proceeded against the defendant class of unnamed third
parties violates their due process rights and the orders
are thus manifestly unjust and in disregard of the
basic rules and protections underlying class actions.
For reasons set forth below, the Court should decertify the class action and alter or vacate the ﬁnal
judgments, as set forth more fully below.
1

Movants are a group of unnamed class members, two of
whom, Darlene Armel and D. W. are not included in the Final
Judgment (Doc. No. 179) and the rest of whom (Darlene Armel,
Ronald Cox, Frank Scheuneman, Edward Rourke, Theresa Bridie,
Marc Kantor, Paola Kantor, Tim Rice, Wayland Woods, and T.H.)
that are included. All Movants join in moving to decertify the case
as a class. As explained more fully herein, in the event the Final
Judgment is considered a Rule 54(b) ﬁnal judgment (which Movants contend otherwise), then, as an alternative to seeking decertiﬁcation, the latter group seeks to alter or vacate the Final
Judgment under Rule 59(e). Because the grounds supporting both
motions are the same, the Movants are ﬁling this as a consolidated memorandum of law.

App. 192
INTRODUCTION
The Court’s orders certifying the defendant class
(Doc. No. 101), appointing class counsel (Doc. No. 125),
setting the process for determining the amount of the
ﬁnal judgments (Doc. No. 153), and entering ﬁnal judgment (Doc. No. 179) against certain absent class members violates due process rights of the class and are
thus manifestly unjust.
These deﬁciencies went to the most distinctive feature of a class action lawsuit—the adequate representation and protection of the absent class members—
and were revealed during both the liability and damages phases of the case.
Although the applicable orders in the action outlined a process by which the named parties and their
counsel would be appointed to vigorously represent the
interests of the absent parties, challenge the common
questions affecting the class including the method for
calculating individual damages, and provide the class
effective and timely notice of important aspects of the
proceedings, such basic safeguards did not occur.
As to damages, this Court adopted a formula and
process for deﬁning damages for each of the absent
class members that appears to have been devoid of the
adversary process. The absent class members effectively had no counsel whatsoever during the damages
proceedings. Among other things, Class Counsel did
not object to the Receiver’s proposed order for determining the amount of the ﬁnal judgments or contest
the formula proposed by the Receiver for determining

App. 193
their respective damages; he did not proffer an expert
to rebut the Receiver’s expert on damages; he failed to
contest the lack of discovery or documents made available to Class Counsel’s expert; he acquiesced to the Receiver’s motion to approve notice to class members and
the limited time period within which class members
could contest the calculation of their “Net Winnings”;
and he failed to challenge the reliability of the data tables and methodologies for calculating damages on a
class-wide basis relied upon by the Receiver’s expert,
who Class Counsel did not even depose. It does not appear that Class Counsel was even appointed to represent the class during the damages phase of the
proceedings or that he rendered any billable services
on the issue of damages.
Beyond failing to defend the class on damages, on
liability Class Counsel conceded the existence of a
Ponzi scheme. One of the indisputably fundamental issues on liability was the factual question whether a
Ponzi scheme existed, as that served as the basis for
the Receiver’s claims of fraudulent transfer and constructive trust against the Class. On this issue, Class
Counsel’s expert, BRG, had identiﬁed signiﬁcant limitations in its ability to obtain documents and information from the Receiver and identiﬁed concerns over
the reliability of the data relied on by Receiver’s expert.
The investigation was limited and inconclusive. Even
so, defendants conceded it was a Ponzi scheme. Class
Counsel need not have conceded this issue.
After Class Counsel and his expert conceded the
existence of a Ponzi scheme and summary judgment

App. 194
was entered, the adversary process all but concluded
in the case and thousands of absent parties were left
to the mercy of a Receiver and notiﬁcation process designed around cost and convenience. Under these circumstances, the requirements of Rule 23(a)(4) were
not satisﬁed and the class action and Final Judgment
cannot bind the absent parties consistent with principles of due process. Hansberry v. Lee, 311 U.S. 32 (1940)
(“this Court is justiﬁed in saying that there has been a
failure of due process only in those cases where it cannot be said that the procedure adopted, fairly insures
the protection of the interests of absent parties who are
to be bound by it.”).
BACKGROUND
On February 10, 2015, this Court entered an Order granting Receiver’s Motion for Class Certiﬁcation
(Doc. No. 101) that certiﬁed the Defendant class pursuant to Federal Rule of Civil Procedure 23(a) and
(b)(1)(A) and (B). (See Doc. No. 101). In its order, the
Court expected class counsel to “be able to fairly and
adequately represent the interests of the class” as a
predicate to satisfying due process concerns: “While
the Court is mindful of due process concerns as well as
other problems speciﬁc to defendant class actions, the
Court is ﬁrmly convinced a class is the only means to
reasonably and efﬁciently resolve the Receiver’s claims
against 9,400 Net Winners.” (See Id. p. 7, 12)
Upon certiﬁcation, the Receiver moved to approve
notice of class certiﬁcation (Doc. No. 103). The Receiver

App. 195
argued that the Court was not obligated to “afford
[class members] of notice of the action” and that notice
be sent “via electronic means only” to the email addresses “registered with ZeekRewards or the Receivership”. There is no opposition to such motion or
opposing arguments by Class counsel in the record and
thus no indication that such a notice – emails on record
with a failed business in receivership – likely would be
ineffective or that more reliable and cost-effective alternatives were available or considered. By Order
dated March 11, 2015, the Court approved the Receiver’s motion to approve notice, without objection
from Class Counsel.
On September 14, 2015, the Court entered a Consent Order Appointing Class Counsel. (Doc. No. 125).
The order emphasized “[i]n certifying the Net Winner
Class . . . ‘Defendants and their counsel can and will
adequately represent the class’ ” and that the “Receiver
will be required to help fund the defense of the class.”
Among other things, the order appointing does the following: 1) states that “Class Counsel has informed the
Receiver and the Court that he believes that to adequately represent the Net Winner Class, Class Counsel
should . . . depose the Receiver’s ﬁnancial expert” (Id.
¶ 7); 2) requires Class Counsel to explain to the Net
Winner Class important things, such as the intended
process by which the Receiver would seek to determine
the amount of the member’s respective damages, that
there would be a reasonable opportunity to contest
such amounts, and to “gather and preserve any documents or information . . . related to the amounts each

App. 196
paid into and received from ZeekReward” (Id. ¶ 5); and
3) states that “these efforts, if pursued in good faith,
will adequately represent the Net Winner Class.” (Id.
¶ 8).
The order appointing further provided that Class
Counsel “shall serve as Class Counsel until further order of the Court” but that it was not “expected that
Class Counsel will be engaged to represent the Net
Winner Class following a ﬁnding, if any of class liability.” (Id. ¶ 3).
There is no evidence in the record or in Class
Counsel’s billing records that Class Counsel deposed
the Receiver’s ﬁnancial expert.
There is also no indication in the record that Class
Counsel was terminated or withdraw as Class Counsel
or was substituted with other counsel on questions of
damages. Rather, on August 14, 2017, the date the Final Judgment was entered against certain absent class
members, Class Counsel ﬁled his last fee petition for
legal services dating to his work on summary judgment issues back in July 2016. (See Doc. No. 177).
In the intervening period, between the time Class
Counsel responded to the Receiver’s motion for partial
summary judgment back on July 29, 2016 (Doc. No.
135) and this Court entry of Final Judgment against
certain class members on August 14, 2017, there is a
near total absence of representation by Class Counsel
of the Class. By way of example only:

App. 197
• Class Counsel’s expert (BRG) abandoned any
effort to challenge or test the methodology or amount
of the individual Class member’s damages because his
work “speciﬁcally excluded ‘the review of individual
ZeekRewards Afﬁliate’ information” pursuant to an
“agreement of the Receiver’s team and Counsel for the
Defendant Class subsequent to the Submission of the
Phase I Summary report.” (Doc. No. 134-49, p. 3). Speciﬁcally, BRG reported:
whereas a portion of the Phase I Summary
Report addressed the review and reconciliation of a sample of individual Afﬁliate transactions the Revised Phase II Work Plan was
to exclude any further investigation into issues related to individual Afﬁliates, including,
but not limited to, an assessment of FTI’s calculation of net winnings/losses on an individual Afﬁliate basis and a reconciliation of
individual Afﬁliate transactions between the
databases and third-party ﬁnancial records.
See, Id. According to BRG, their work was limited in
Phase II “due to the absence of data dictionaries or operations manuals for the Zeek Databases and the lack
of access to Zeek employees to answer our questions
regarding the information contained in the databases.”
Id. at p. 4.
• There is no indication or billing records showing that Class Counsel deposed the Receiver’s expert
(FTI), whether on these issues or questions of liability.
• Class Counsel did not oppose the Receiver’s
January 1, 2017, motion for entry of a process to

App. 198
determine the amount of the individual Class members’ respective damages, (Doc. No. 152), notwithstanding that the proposed order and the method for
calculating damages proposed that the Court rely, almost exclusively, on the unchallenged “sworn testimony of the Receiver’s expert witness, David Turner,
and his calculation of the net winnings.” (Doc. No. 1521, p. 1).
• The proposed order also, without objection,
limited Class Counsel’s responsibility to the absent
class members simply to “providing collective notice of
the process for determining the Net Winnings of individual class members” “by email as such means are the
most efﬁcient and cost-effective to accomplish his responsibilities.” (Id., p. 7 at ¶ 23).
• There is no indication that Class Counsel performed any further services in the proceedings, except
for petitioning for legal fees, and the billing records
ﬁled in support of such fees conﬁrm this. (Doc. No. 1771).
On issues of liability, Class Counsel conceded the
existence of a Ponzi. Notwithstanding the challenges,
concerns, and limitation of documents and information
outlined in BRG’s expert report, BRG did not merely
rebut or challenge the methodology and assumptions
used by FTI, it conceded—in bold—the existence of a
Ponzi scheme (Doc. No. 134-49, pp. 4, 13-14).
This admission was seized upon by the Receiver
in its motion for partial summary judgment, (Doc. No.
134, p. 28), and ultimately relied upon by the Court as

App. 199
a basis for entering summary judgment against the absent Class members (Doc. No. 142, p. 20: “Despite engaging a defense expert to investigate the fundamental
issue of whether or not ZeekRewards operated as a
Ponzi scheme, Defendants have conceded that ZeekRewards was, in fact, a Ponzi Scheme.”).
Throughout the proceedings, Class Counsel also
represented ZeekRewards-related defendants in parallel actions brought by the Plaintiff/Receiver. See Bell
vs. Suzanna Dreyer, Case No. 3:15-cv-196; Bell v. Peak
USA, LLC, Case No.: 3:15-cv-00233, and Bell v. Rockah,
et al., case no.: 3:15-cv-00193. Such parallel proceedings suggest an irreparable conﬂict of interest as more
fully detailed below.
STANDARD OF REVIEW
Federal Rules of Civil Procedure 23(c) provides
that “[a]n order that grants or denies class certiﬁcation
may be altered or amended before ﬁnal judgment.” A
district court may decertify a class at any time. Rodriguez v. West Publ’g Corp, 563 F.3d 948, 966 (9th Cir
2009); see Daenzer v. Wayland Ford, Inc., 210 F.R.D.
202, 204-05 (W.D. Mich. 2002) (district court may decertify a class even after a ﬁnding of liability). The
standard is the same for class decertiﬁcation as it is
with class certiﬁcation: a district court must be satisﬁed that the requirements of Rule 23(a) and (b) are
met. Makaeff v. Trump Univ., LLC, 309 F.R.D. 631, 635
(S.D. Cal., 2015). In deciding whether to decertify a
class, “actual, not presumed, conformance with Rule

App. 200
23(a) remains . . . indispensable.” Id. (quoting Gen. Tel.
Co. of S.W. v. Falcon, 457 U.S. 147, 160 (1982)).
A federal district court possesses broad discretion
in determining whether to modify or even decertify a
class. In re Titanium Dioxide Antitrust Litig., 962
F. Supp. 2d 840, 861 (D. Md. 2013). The court remains
free to modify certiﬁcation in light of subsequent developments in the litigation. Id. In fact, the court has
an afﬁrmative obligation to ensure that the class membership remains at all times consistent with the underlying facts and procedural posture of the case. Id.
ARGUMENT
I.

The Court Should Decertify the Class
in Light of Class Counsel’s Failure to
Represent the Class at Important Stages
of the Proceedings

Due process requires that the Court decertify the
case as a class.
The adequacy of counsel for class certiﬁcation is a
fundamental requirement of due process codified under
Rule 23(a)(4) of the Federal Rules of Civil Procedure.
This requirement provides that “the representative
parties will fairly and adequately protect the interests
of the class.” Fed. R. Civ. P. 23(a)(4). This requirement
of adequate representation has two elements:
First, the named plaintiffs’ counsel must be
qualiﬁed, experienced, and generally able to
conduct the litigation. * * * (Second,) there

App. 201
must be no evidence of collusion or of conﬂicting interests between the named plaintiffs
and members of the class. (Citation omitted.)
Beyond this, a named plaintiff must display
some minimal level of interest in the action,
familiarity with the practices challenged, and
ability to assist in decision making as to the
conduct of the litigation. Wofford v. Safeway
Stores, Inc., supra, 78 F.R.D., at 486-487.
Sullivan v. Chase Inc. Servs. of Boston, Inc., 79 F.R.D.
246, 258 (N.D. Cal. 1978) (emphasis added); see Brown
v. Transurban U.S.A. Inc., 318 F.R.D. 560, 567 (E.D. Va.
2016) (adequacy requirements met if, inter alia, class
counsel is qualiﬁed, experienced, and generally able to
conduct the litigation; this inquiry serves to uncover
conﬂicts of interest); United States v. Trucking Employers Inc., 75 F.R.D. 682, 687 (D.D.C. 1977) (test for adequacy of representation in a defendant class is similar
to that in cases involving plaintiff classes).
A court has a continuing duty to ensure adequacy
of representation and adequacy of class counsel in a
class action suit, and the court may always decide to
modify or decertify the class in the future. In re Pharm.
Indus. Average Wholesale Price Litigation, 588 F.3d 24,
36 n.12 (1st Cir. 2009); Key v. Gillette Co., 782 F2d 5, 7
(1st Cir. 1986); Richards v. Fleet Boston Fin. Group, 235
F.R.D. 165, 172 (D. Conn. 2006); see Scott v. Haworth,
916 F.2d 916 F.2d 134, 139 (4th Cir. 1990) (an order
certifying a class must be reversed if it becomes apparent, at any time during pendency of the proceeding,
that class treatment of the action is inappropriate);

App. 202
Stasny v. So. Bell Tel. & Tel., 628 F.2d 267, 273-76 (4th
Cir. 1980).
The adequacy of counsel is considered under Rule
23(a)(4) and Rule 23(g). Allen v. Hyland’s Inc., 300
F.R.D. 643, 664 (C.D. Cal. 2014). Class counsel’s ability
to fairly and adequately represent unnamed members
of the class are “critical requirements in federal class
actions under Rule 23(a)(4) and (g).” Baumann v. Chase
Inv. Serv. Corp., 747 F.3d 1117, 1122-23 (9th Cir 2004).
Adequacy of class counsel is vital to protect the interests of absent class members. Lou v. Ma Labs. Inc., No.
C12-05409 W.H.A., 2014 WL 68605 at *2 (N.D. Cal Jan.
8, 2014). Courts have traditionally expressed particular concern for the adequacy of representation in a
class because the judgment conclusively determines
the rights of absent class members. Eisen v. Carlisle &
Jaquelin, 391 F.2d 555, 562 (2d Cir. 1968); Jacksaw
Pontiac, Inc. v. Cleveland Press Pub. Co., 102 F.R.D. 183,
193 (N.D. Ohio 1984).
As stated in Key v. Gillette Co., 782 F.2d 5, 7 (1st
Cir. 1986), one of the most important requirements for
class certiﬁcation is the adequacy of representation.
This requirement is particularly important
because the due process rights of absentee
class members may be implicated if they are
bound by a ﬁnal judgment in a suit where
they were inadequately represented by the
named plaintiff. Dierks v. Thompson, 414 F.2d
453, 456 (1st Cir.1969); see also Scott v. University of Delaware, 601 F.2d 76, 85 (3rd Cir.),
cert. denied, 444 U.S. 931, 100 S.Ct. 275, 62

App. 203
L.Ed.2d 189 (1979); National Ass’n of Regional Medical Programs, Inc. v. Mathews,
551 F.2d 340, 346 (D.C.Cir.), cert. denied, 431
U.S. 954, 97 S.Ct. 2674, 53 L.Ed.2d 270
(1977); Helfand v. Cenco, Inc., 80 F.R.D. 1, 7
(N.D.Ill.1977). An essential ingredient of this
requirement is that the class representative’s
attorneys be qualiﬁed to vigorously and adequately prosecute the interests of the class.
Wetzel v. Liberty Mutual Insurance Co., 508
F.2d 239, 247 (3rd Cir.), cert. denied, 421 U.S.
1011, 95 S.Ct. 2415, 44 L.Ed.2d 679 (1975).
The court has an ongoing duty to make sure
that this requirement is complied with at all
stages of the litigation. In re General Motors
Corp. Engine Interchange Litigation, 594 F.2d
1106, 1124 (7th Cir.), cert. denied, Oswald v.
General Motors Corp., 444 U.S. 870, 100 S.Ct.
146, 62 L.Ed.2d 95 (1979); Grigsby v. North
Miss. Medical Center, Inc., 586 F.2d 457, 462
(5th Cir.1978).
Id., 782 F2d at 6.
Similarly, as stated, in Lou:
Adequacy of class counsel is vital to protect
the interests of absent class members. Class
counsel wield great power. Strategic decisions
made by counsel to litigate and/or settle class
claims have profound implications on the
rights of absent class members. At best, absent class members’ interests can be vindicated. At worst, litigation and settlement
decisions can result in preclusion, collusion,
and exclusion. It is thus critical that sufﬁcient

App. 204
procedural and structural protections be enforced so that the interests of absent and putative class members are not abridged.
Id. at *2.
Such due process and other concerns are heightened even further in defendant class actions because
absent defendant class members may incur liabilities
rather than simply lose the right to bring a claim without a true “day in court.” See, e.g., Ameritech Ben. Plan
Comm. v. Commcn. Workers of Am., 220 F.3d 814, 820
(7th Cir. 2000), cert. denied, 531 U.S. 1127 (2001); Alexander Grant & Co. v. McAlister, 116 F.R.D. 583, 588-89
(S.D. Ohio 1987); Moffat v. UniCore Midwest Plan
Group, No. 04 C 5685, 2006 WL 897918, at *7 (N.D. Ill.
Apr. 5, 2006).
Beyond these requirements, avoidance of conflicts of interest is a key component in determining
the adequacy of class counsel. The duty of adequate
representation requires counsel to represent the class
competently and vigorously and without conﬂicts of interest with the class. In re Pharm. Indus. Average
Wholesale Price Litigation, at n.12 (1st Cir. 2009) (citing, enter alia, Anchem Prods. Inc. v. Windsor, 521 U.S.
591, 626, n20 (1997). “The duty to avoid conﬂicts is serious. Class counsel are ﬁduciaries to the class.” Id. The
responsibility of class counsel to absent class members
whose control over their attorneys is limited does not
permit even the appearance of divided loyalties of
counsel. Sullivan, 79 F.R.D. at 258; Chateau de Ville
Productions Inc. v. Tams-Witmark Music Library, Inc,

App. 205
474 F. Supp. 223, 226 (S.D. N.Y. 1979); see Greenﬁeld v.
Villager Indus., Inc., 483 F.2d 824, 832 n9 (3d Cir.
1973).
Here, although this Court assumed Class Counsel’s
representation was adequate based on the Consent Order Appointing Counsel, such was not the case in light
of subsequent developments. See Makaeff, 309 F.R.D.
at 635 (in deciding whether to decertify a class “actual,
not presumed, conformance with Rule 23(a) remains
. . . indispensable”).
For starters, not only did Class Counsel and his
expert unnecessarily concede the existence of a Ponzi
scheme, but also since the Court’s entry of summary
judgment Class Counsel did not represent the interests of the class, much less do so vigorously to ensure
their protection. Class Counsel either consented or
failed to object to important matters that should have
been challenged. In fact, billing records show that,
from July 2016 to date, counsel performed no legal
services on behalf of the Class. Whether this was due
to the insufficiency of funds authorized by the Receiver or a mistaken belief that the Class did not require representation during the damages phase of the
proceedings, it matters not. The absence of such representation is a failure of due process.
Moreover, Class Counsel did not depose the Receiver’s expert (FTI), which he conceded was necessary
to adequately represent the Class. Class Counsel did
not challenge FTI’s ﬁndings despite the opinion of his

App. 206
own expert (BRG) that called into question the reliability of the data underlying FTI’s opinions.
For example, BRG stated repeatedly in its preliminary report that the scope of the work was changed
to focus on the existence of the alleged Ponzi scheme
and speciﬁcally excluded the review of individual
ZeekRewards’ affiliate information. BRG further stated
that although a portion of the Phase I Summary Report addressed the review and reconciliation of a sample of the individual Afﬁliate transactions, they were
excluded from any further investigation related to individual Afﬁliates including, but not limited to, being
excluded from the assessment of FTI’s calculation of
net winnings/losses on an individual Afﬁliate basis and
a reconciliation of individual Afﬁliate transactions between the databases and third-party ﬁnancial records.
In addition, BRG’s expert indicated that the work performed was further limited due to the absence of data
dictionaries or operations manuals for Zeek Databases
and the lack of access to Zeek employees to answer
questions regarding the information contained in the
databases. Moreover, the expert opined that FTI’s reliance on the statistically small number of discrepancies
is potentially ﬂawed as it may be directionally biased
in favor of the Net Loser Class. (Doc. 134-149).
Yet, instead of vigorously arguing, through motions or otherwise, that FTI’s opinions and calculations
were thus ﬂawed or unreliable because of such ﬁndings
and seeking an unhampered independent evaluation
of the business and records and access to employees,
Class Counsel conceded that ZeekRewards was a Ponzi

App. 207
scheme and then failed to object to the formula for determining class-wide damages that relied almost entirely on FTI’s opinions.
Such lack of representation or advocacy including
the failure to obtain a truly independent expert evaluation of the business or calculation of net winnings/
losses on an individual Afﬁliate basis ran afoul of the
fair and adequate representation requirement. In addition, the material and unauthorized concession by
class counsel that the business was a Ponzi scheme
was detrimental to the defendant class and their defense. See Commwlth. of PA. v. Local Union 542, Intern
Union of Operating Engrs., 90 F.R.D. 389 (E.D. Pa.
1981) (defendant class decertiﬁed where representative could not adequately represent class members by
reason of the obvious limited ﬁnancial and legal capabilities of counsel); Brown, 318 F.R.D. 560, 568 (E.D. Va.
2016) (adequate representation requires counsel to
vigorously protect interests of class); Mann v. Acclaim
Fin. Servs., Inc, 232 F.R.D. 278, 285 (S.D. Ohio 2003)
(adequate representation requires vigorous protection
of interests of class through qualified counsel, who
will not fail to investigate claims in pretrial discovery
and present claims at trial); Dunakin v. Quigley, 99
F. Supp. 3d 1297, 1332 (W.D. Wash. 2015) (when considering adequacy of class counsel, court considers the
time and resources that counsel will commit to vigorously representing the class); In re Seagate Tech. 11
Sec. Litigation, 843 F. Supp. 1341, 1346 n2 (N.D. Cal.
1994) (adequacy of representation is guided by, inter
alia, competency of class counsel and ﬁnancial

App. 208
resources named representative possesses to devote to
prosecution of action).
Class Counsel may also have had potential conﬂicts of interest throughout his appointment as Class
Counsel that warrants decertiﬁcation or, at a minimum, further investigation. Speciﬁcally, Class Counsel
represented or continues to represent other individual
defendants in parallel proceedings ﬁled by the Receiver. Parallel representation may create a conﬂict of
interest that renders counsel inadequate. See In re
Join E. and S. Dist. Asbestos Litigation, 133 F.R.D. 425,
431 (S.D. N.Y. 1990) (citing cases). The general rule is
that the time a complaint is ﬁled determines whether
the acceptance of proffered employment generated a
conﬂict of interest. Id. at 432.
Here class counsel’s representation of others in
parallel actions may be deemed a conﬂict of interest
rendering him inadequate. By way of example, in Bell
v. Peak USA, Class Counsel represents Sam Adlerman
who is deemed a net winner but who was separately
sued in his individual capacity and through his shell
company, S.T. Eagle, Inc. as a party who knowingly furthered the Ponzi scheme. The allegations in against
Adlerman in Peak USA concerns his “insider” participation in and furtherance of the bid giveaway system
and the contracts and leads that were distributed or
sold to ZeekRewards participants. By comparison, in
this case not only do the net winners deny knowing
that the bid giveway requirement was bogus, they
maintain that it formed part of the basis for believing
ZeekRewards was a legitimate operation. The net

App. 209
winners may thus have been duped by Adlerman. As
such, the net winners have possible claims against
Adlerman. The case against Peak USA case is still ongoing. Alderman is not listed as one of the net winners
in the August 14, 2017 ﬁnal judgment. The above is an
apparent conﬂict of interest, which even is considered
alone, amounts to unfair and inadequate representation of the net winner class. See, e.g., Kurczi v. Eli Lilly
& Co., 160 F.R.D. 667, 679 (N.D. Ohio 1995) (plaintiffs
failed to satisfy adequacy-of-representation requirement for class certiﬁcation in part because counsel for
named plaintiffs also represented them in parallel
state action and, thus, had a potential conﬂict of interest); Lou (class certiﬁcation denied based, in part, on
inadequacy of class counsel due to conﬂict as a result
of parallel representation against same defendant);
Jacksaw Pontiac (adequate representation requirement not satisﬁed, in part, because of counsel’s parallel
representation that constituted a conﬂict of interest).
The requirements for class certiﬁcation are required to be met throughout the action and it is thus
appropriate for court to revisit the issue of class certiﬁcation if there are changed circumstances since initial certiﬁcation. See, e.g. Boucher v. Syracuse Univ.,
164 F.3d 113, 118 (2d Cir.1999) (district courts have an
afﬁrmative duty to reassess class certiﬁcation rulings
as the case develops, and decertify a class or alter a
certiﬁcation decision if necessary in light of developments in the case). Given that the adequacy of representation requirement did not continue to be met in
this action due to the inadequacy of class counsel

App. 210
coupled with the potential conﬂict of interest concerns,
the due process rights of the net winner class were violated and the case should be decertiﬁed.
II. Alternatively, the Court Should Modify
or Alter the Certification Order and
Permit Further Proceedings on Damages
in Keeping with Principles of Due Process
If the Court does not decertify the case, at a minimum it should modify or amend the certiﬁcation order
to reopen the case on damages and appoint a class
counsel to represent the class on damages.
As noted, a court’s initial decision under Rule
23(c)(1) that an action is maintainable as a class is reversible and may be altered or amended at a later date.
See, e.g., Richardson v. Byrd, 709 F.2d 1016 (5th Cir.
1983), certiorari denied 104 S.Ct. 527, 464 U.S. 1009,
78 L.Ed.2d 710 (“Under the class-action rule, the district court is charged with the duty of monitoring its
class decisions in light of the evidentiary development
of the case; the district judge must deﬁne, redeﬁne,
subclass, and decertify as appropriate in response to
the progression of the case from the assertion to
facts.”). Indeed, it is the court’s duty to decertify when,
as here, later developments in a case show that the interests of the class have not been adequately protected.
Boucher, supra
In the present case, there are multiple reasons to
alter or amend the class and the proceedings, particularly related to damages. Due to the inadequacy of

App. 211
counsel and lack of representation, serious questions
remain as to whether FTI’s calculations and methodology of computing class damages (based predominantly
on electronic data tables of questionable reliability)
were speculate; whether the Class was prejudiced by
the consent orders leading them to believe they were
being represented by counsel when in fact they were
not; whether the email notice consented to by Class
Counsel was sufﬁcient under the circumstances or
whether alternative, more reliable methods of notice
were available and should have been adopted; and
whether Class Counsel effectively communicated and
explained to the Class the procedures for disputing
their damages and maintaining and preserving evidence and records.
III. The Court Should Alter or Vacate the
Final Judgment
As noted, all but two the Movants are identiﬁed in
the Final Judgment. Because the Final Judgment does
not adjudicate all claims against all parties, it is not a
ﬁnal judgment under Fed. R. Civ. P. 54(b). See, e.g.,
Chappel v. Levinsky, 961 F2d 372, 373 (2d Cir. 1992)
(“An order that adjudicates fewer than all of the claims
remaining in the action or adjudicates the rights and
liabilities of fewer than all of the parties is not a ﬁnal
order unless the court directs the entry of a ﬁnal judgment as to the dismissed claims or parties ‘upon an express determination that there is no just reason for
delay.”). Because this Court did not certify the Final
Judgment pursuant Rule 54(b), it is not a ﬁnal

App. 212
judgment. As such, this Court can decertify the class
and modify the Final Judgment accordingly without
the constraints of Rule 59(e) or Rule 23(c)(1)(c).
If, however, it is determined that the Final Judgment is a ﬁnal judgment under the applicable rules,
then, for the same reasons articulated in Sections I and
II above, this Court should alter or amend the Final
Judgment as to do otherwise would be manifestly unjust.
CONCLUSION
For all the foregoing reasons, the Motion to Decertify Class and, alternatively, Motion to Alter or Vacate
the Final Judgment should be granted.
This the 11th day of September, 2017.
By: s/ Paul A. Capua
Paul A. Capua / N.C. State Bar
No. 40239
Genevieve A. Mente / N.C. State
Bar No. 41887
Attorneys for Movants
CAPUA LAW FIRM, PA
164 South Depot Street
Boone, NC 28607
Telephone: (828) 264-0260
Fax: (828) 265-5650
E-mail: paul@capualawfirm.com
E-mail: gmente@capualawfirm.com
[Certiﬁcate Of Service Omitted]

App. 213
Federal Rule of Civil Procedure
23. Class Actions
(a) PREREQUISITES. One or more members of a class
may sue or be sued as representative parties on behalf
of all members only if:
(1) the class is so numerous that joinder of
all members is impracticable;
(2) there are questions of law or fact common to the class;
(3) the claims or defenses of the representative parties are typical of the claims or defenses of
the class; and
(4) the representative parties will fairly and
adequately protect the interests of the class.
(b) TYPES OF CLASS ACTIONS. A class action may be
maintained if Rule 23(a) is satisﬁed and if:
(1) prosecuting separate actions by or
against individual class members would create a
risk of:
(A) inconsistent or varying adjudications with respect to individual class members that would establish incompatible
standards of conduct for the party opposing
the class; or
(B) adjudications with respect to individual class members that, as a practical matter, would be dispositive of the interests of the
other members not parties to the individual
adjudications or would substantially impair

App. 214
or impede their ability to protect their interests;
(2) the party opposing the class has acted or
refused to act on grounds that apply generally to
the class, so that ﬁnal injunctive relief or corresponding declaratory relief is appropriate respecting the class as a whole; or
(3) the court ﬁnds that the questions of law
or fact common to class members predominate
over any questions affecting only individual members, and that a class action is superior to other
available methods for fairly and efﬁciently adjudicating the controversy. The matters pertinent to
these ﬁndings include:
(A) the class members’ interests in individually controlling the prosecution or defense of separate actions;
(B) the extent and nature of any litigation concerning the controversy already begun by or against class members;
(C) the desirability or undesirability of
concentrating the litigation of the claims in
the particular forum; and
(D) the likely difﬁculties in managing a
class action.
(c) CERTIFICATION ORDER; NOTICE TO CLASS MEMBERS;
JUDGMENT; ISSUES CLASSES; SUBCLASSES.
(1)

Certiﬁcation Order.

(A) Time to Issue. At an early practicable time after a person sues or is sued as a

App. 215
class representative, the court must determine by order whether to certify the action as
a class action.
(B) Deﬁning the Class; Appointing Class
Counsel. An order that certiﬁes a class action
must deﬁne the class and the class claims, issues, or defenses, and must appoint class
counsel under Rule 23(g).
(C) Altering or Amending the Order. An
order that grants or denies class certiﬁcation
may be altered or amended before ﬁnal judgment.
(2)

Notice.

(A) For (b)(1) or (b)(2) Classes. For any
class certiﬁed under Rule 23(b)(1) or (b)(2),
the court may direct appropriate notice to the
class.
(B) For (b)(3) Classes. For any class certiﬁed under Rule 23(b)(3)—or upon ordering
notice under Rule 23(e)(1) to a class proposed
to be certiﬁed for purposes of settlement under Rule 23(b)(3)—the court must direct to
class members the best notice that is practicable under the circumstances, including individual notice to all members who can be
identiﬁed through reasonable effort. The notice may be by one or more of the following:
United States mail, electronic means, or other
appropriate means. The notice must clearly
and concisely state in plain, easily understood
language:
(i)

the nature of the action;

App. 216
(ii)

the deﬁnition of the class certi-

ﬁed;
(iii)
fenses;

the class claims, issues, or de-

(iv) that a class member may enter
an appearance through an attorney if the
member so desires;
(v) that the court will exclude from
the class any member who requests exclusion;
(vi) the time and manner for requesting exclusion; and
(vii) the binding effect of a class judgment on members under Rule 23(c)(3).
(3) Judgment. Whether or not favorable to
the class, the judgment in a class action must:
(A) for any class certiﬁed under Rule
23(b)(1) or (b)(2), include and describe those
whom the court ﬁnds to be class members; and
(B) for any class certiﬁed under Rule
23(b)(3), include and specify or describe those
to whom the Rule 23(c)(2) notice was directed,
who have not requested exclusion, and whom
the court ﬁnds to be class members.
(4) Particular Issues. When appropriate, an
action may be brought or maintained as a class action with respect to particular issues.

App. 217
(5) Subclasses. When appropriate, a class
may be divided into subclasses that are each
treated as a class under this rule.
....
(g)

CLASS COUNSEL.
(1) Appointing Class Counsel. Unless a statute provides otherwise, a court that certiﬁes a
class must appoint class counsel. In appointing
class counsel, the court:
(A)

must consider:

(i) the work counsel has done in
identifying or investigating potential
claims in the action;
(ii) counsel’s experience in handling
class actions, other complex litigation,
and the types of claims asserted in the action;
(iii) counsel’s knowledge of the applicable law; and
(iv) the resources that counsel will
commit to representing the class;
(B) may consider any other matter pertinent to counsel’s ability to fairly and adequately represent the interests of the class;
(C) may order potential class counsel to
provide information on any subject pertinent
to the appointment and to propose terms for
attorney’s fees and nontaxable costs;

App. 218
(D) may include in the appointing order
provisions about the award of attorney’s fees
or nontaxable costs under Rule 23(h); and
(E) may make further orders in connection with the appointment.
(2) Standard for Appointing Class Counsel.
When one applicant seeks appointment as class
counsel, the court may appoint that applicant only
if the applicant is adequate under Rule 23(g)(1)
and (4). If more than one adequate applicant seeks
appointment, the court must appoint the applicant
best able to represent the interests of the class.
(3) Interim Counsel. The court may designate interim counsel to act on behalf of a putative
class before determining whether to certify the action as a class action.
(4) Duty of Class Counsel. Class counsel
must fairly and adequately represent the interests
of the class.

